<html>
<title> - INVESTING IN AMERICA: REAUTHORIZATION OF THE ECONOMIC DEVELOPMENT ADMINISTRATION</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
   INVESTING IN AMERICA: REAUTHORIZATION OF THE ECONOMIC DEVELOPMENT 
                             ADMINISTRATION

=======================================================================

                                (117-15)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                           ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
45-230 PDF              WASHINGTON : 2021 
                             
                             
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy
                                ------                                

      Subcommittee on Economic Development, Public Buildings, and
                          Emergency Management

     DINA TITUS, Nevada, Chair
DANIEL WEBSTER, Florida              ELEANOR HOLMES NORTON,
THOMAS MASSIE, Kentucky                District of Columbia
JENNIFFER GONZALEZ-COLON,            SHARICE DAVIDS, Kansas
  Puerto Rico                        CHRIS PAPPAS, New Hampshire, Vice 
MICHAEL GUEST, Mississippi           Chair
BETH VAN DUYNE, Texas                GRACE F. NAPOLITANO, California
CARLOS A. GIMENEZ, Florida           JOHN GARAMENDI, California
SAM GRAVES, Missouri (Ex Officio)    Vacancy
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chair, Subcommittee on Economic Development, Public 
  Buildings, and Emergency Management, opening statement.........     1
    Prepared statement...........................................     3
Hon. Daniel Webster, a Representative in Congress from the State 
  of Florida, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management, 
  opening statement..............................................     9
    Prepared statement...........................................     9
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    63

                               WITNESSES
                                Panel 1

Dennis Alvord, Acting Assistant Secretary for Economic 
  Development, Economic Development Administration, U.S. 
  Department of Commerce, oral statement.........................    10
    Prepared statement...........................................    12

                                Panel 2

Lisa Cooper, Executive Director, Northern Kentucky Area 
  Development District, on behalf of the National Association of 
  Development Organizations, oral statement......................    26
    Prepared statement...........................................    28
Garrett Hawkins, President, Missouri Farm Bureau, on behalf of 
  the American Farm Bureau Federation, oral statement............    31
    Prepared statement...........................................    33
Jonas Peterson, President and Chief Executive Officer, Las Vegas 
  Global Economic Alliance, on behalf of the International 
  Economic Development Council, oral statement...................    35
    Prepared statement...........................................    37
Hon. Lenny Eliason, Commissioner, Athens County, Ohio, on behalf 
  of the National Association of Counties, oral statement........    39
    Prepared statement...........................................    41
Dan Carol, Director, Milken Institute Center for Financial 
  Markets, oral statement........................................    44
    Prepared statement...........................................    46

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Dina Titus:
    Letter of April 28, 2021, from Nathan Ohle, Chief Executive 
      Officer, Rural Community Assistance Partnership............     5
    ``EDA Reauthorization Priorities for the 117th Congress'' 
      from the Economic Development Administration Stakeholder 
      Coalition..................................................     6
Letter of April 27, 2021, from Morgan W. Reed, President, ACT/The 
  App Association, Submitted for the Record by Hon. Daniel 
  Webster........................................................    63
Fact Sheet, ``Bringing Broadband to Rural Ohio,'' Submitted for 
  the Record by Witness Hon. Lenny Eliason, Commissioner, Athens 
  County, Ohio, on behalf of the National Association of Counties    67

                                APPENDIX

Questions to Dennis Alvord, Acting Assistant Secretary for 
  Economic Development, Economic Development Administration, U.S. 
  Department of Commerce, from:
    Hon. Dina Titus..............................................    69
    Hon. John Garamendi..........................................    70
Question from Hon. Dina Titus to Lisa Cooper, Executive Director, 
  Northern Kentucky Area Development District, on behalf of the 
  National Association of Development Organizations..............    71
Question from Hon. Dina Titus to Jonas Peterson, President and 
  Chief Executive Officer, Las Vegas Global Economic Alliance, on 
  behalf of the International Economic Development Council.......    72
Questions from Hon. Dina Titus to Dan Carol, Director, Milken 
  Institute Center for Financial Markets.........................    74

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 22, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LSubcommittee Hearing on ``Investing in America: 
Reauthorization of the Economic Development Administration''
_______________________________________________________________________


    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Wednesday, April 28, 
2021, at 2:00 p.m. EDT, in 2167 Rayburn House Office Building 
and virtually via Zoom to hold a hearing entitled, ``Investing 
in America: Reauthorization of the Economic Development 
Administration.''
    The purpose of the hearing is to receive testimony from 
stakeholders on the importance of reauthorizing the Economic 
Development Administration (EDA), its programs and activities 
supporting economic growth in distressed communities, and the 
role EDA plays in recovering from disasters, including the 
COVID-19 pandemic. The Subcommittee will hear from the EDA, the 
National Association of Development Organizations (NADO), the 
National Association of Counties (NACo), the International 
Economic Development Council (IEDC), the American Farm Bureau 
Federation, and the Milken Institute.

                            I. Introduction

    The Subcommittee has jurisdiction over economic development 
issues and federal agencies that promote economic development 
in communities suffering economic distress, including EDA, an 
agency within the Department of Commerce. EDA is led by the 
Assistant Secretary of Commerce for Economic Development and is 
the lead federal agency dedicated exclusively to addressing 
economic development issues.\1\
---------------------------------------------------------------------------
    \1\ See the Public Works and Economic Development Act of 1965 (P.L. 
89-136).
---------------------------------------------------------------------------
    Through its competitive grant process, EDA evaluates 
project applications to determine the extent to which they 
align with the investment priorities of the agency and 
effectively address the creation and/or retention of high-
quality jobs. On April 14, 2021, EDA updated its investment 
priorities to include: Equity, Recovery & Resilience, Workforce 
Development, Manufacturing, Technology-Based Economic 
Development, Environmentally-Sustainable Development, and 
Exports and Foreign Direct Investment.\2\
---------------------------------------------------------------------------
    \2\ EDA, Investment Priorities, available at https://www.eda.gov/
about/investment-priorities/.
---------------------------------------------------------------------------
    For fiscal year (FY) 2021, the Trump administration 
proposed eliminating EDA's budget, with the exception of $31.6 
million for salaries and expenses.\3\ Congress, in FY2021, 
appropriated $305.5 million for EDA programs and $40.5 million 
for salaries and expenses, not including supplemental funding 
for disasters.\4\
---------------------------------------------------------------------------
    \3\ EDA FY2021 Congressional Budget Request, February 2020, 
available at https://www.commerce.gov/sites/default/files/2020-02/
fy2021_eda_congressional_budget_
justification.pdf.
    \4\ Consolidated Appropriations Act, 2021 (P.L. 116-260).
---------------------------------------------------------------------------
    The Biden administration has not yet released a detailed 
FY2022 budget request outlining funding for EDA nor has a 
nominee for the Assistant Secretary position been announced. 
However, the president's FY2022 discretionary request, or 
``skinny budget,'' included $84 million for EDA's Assistance to 
Coal Communities program.\5\
---------------------------------------------------------------------------
    \5\ Executive Office of the President, Office of Management and 
Budget, President's request for FY2022 discretionary funding, April 9, 
2021, available at https://www.whitehouse.gov/wp-content/uploads/2021/
04/FY2022-Discretionary-Request.pdf.
---------------------------------------------------------------------------

                     II. Overview of EDA's Programs

    Congress established the EDA in 1965 with the Public Works 
and Economic Development Act (PWEDA, P.L. 89-136) to alleviate 
conditions of substantial and persistent unemployment in 
economically distressed areas.\6\ The current mission of EDA is 
``to lead the federal economic development agenda by promoting 
innovation and competitiveness, preparing American regions for 
growth and success in the worldwide economy.'' \7\
---------------------------------------------------------------------------
    \6\ Generally, EDA considers areas distressed if their unemployment 
rate is 1% (or above) the U.S. unemployment or the per capita income is 
80% (or below) the U.S. Per Capita Income.
    \7\ EDA, Mission, available at https://www.eda.gov/about/.
---------------------------------------------------------------------------
    In particular, EDA programs are intended to help local 
communities attract and leverage private investment to maximize 
job creation. For example, EDA's public works program often 
provides the remaining infrastructure funding needed for a 
local community to attract a manufacturing facility to its 
area. As a result, EDA grants are used in conjunction with 
private and local dollars to generate economic growth and 
create jobs. In fact, EDA requires substantial local match--
often 50 percent or greater--for most grant recipients.\8\
---------------------------------------------------------------------------
    \8\ Congressional Research Service (CRS), Economic Development 
Administration: A Review of Elements of Its Statutory History, June 3, 
2011, available at https://crsreports.congress.gov/product/pdf/R/
R41241.
---------------------------------------------------------------------------
    EDA provides grants for projects through a variety of 
programs, including planning, technical assistance, public 
works, economic adjustment, trade adjustment assistance, and 
multiple innovation challenges. Additionally, all public works 
and economic adjustment projects must be consistent with an 
EDA-approved Comprehensive Economic Development Strategy 
(CEDS). Between FY2012 and FY2018, EDA invested nearly $1.9 
billion in 4,710 projects.\9\ EDA estimates that these 
investments are expected to create and/or retain 362,106 jobs 
and attract more than $42 billion in private investment 
funding.\10\
---------------------------------------------------------------------------
    \9\ EDA, EDA Performance Measurement and Program Evaluation, 
available at https://www.eda.gov/performance/.
    \10\ EDA, Underlying Data Disclaimer, available at https://
www.eda.gov/performance/data-disclaimer/. Note: Figures derived from 
``Estimated Outcomes by State'' tab.
---------------------------------------------------------------------------
    The EDA administers its programs through six regional 
offices located in Atlanta, GA; Austin, TX; Chicago, IL; 
Denver, CO; Philadelphia, PA; and Seattle, WA. The Atlantic 
Territories of Puerto Rico and the U.S. Virgin Islands are 
administered through the Philadelphia Regional Office. The 
Pacific Territories of American Samoa, Guam, Marshall Islands, 
Micronesia, Republic of Palau, and the Northern Mariana Islands 
are administered through the Seattle Regional Office. A map of 
EDA regional offices is included as Appendix 1. At the local 
level, EDA administers its programs through Economic 
Development Districts (EDDs). EDDs are multi-jurisdictional 
entities, commonly composed of multiple counties and in some 
cases crossing state borders. EDDs lead the locally-based 
economic development planning process that leverages the 
involvement of the public, private and non-profit sectors to 
establish a CEDS. EDA's most recent map of EDDs is included as 
Appendix 2.

1. EDA AUTHORIZATION HISTORY

    Following the expiration of the PWEDA authorization in 
1970, five acts extending and amending EDA's statutory 
authority were enacted between 1971 and 1976.\11\ In 1980, 
Congress reauthorized EDA's programs for two additional years 
through FY1982, and until 1998, EDA continued to operate 
without congressional authorization.\12\
---------------------------------------------------------------------------
    \11\ CRS Report, Economic Development Administration: A Review of 
Elements of Its Statutory History, June 3, 2011, at pg. 9.
    \12\ Id. at pg. 14.
---------------------------------------------------------------------------
    The Economic Development Administration and Appalachian 
Regional Development Reform Act of 1998 (P.L. 105-393) 
reauthorized EDA for five years, and authorized funding levels 
that gradually declined from an initial amount of $398 million 
in FY1999 to $335 million in FY2003.\13\ Additionally, this 
reauthorization put into place a number of management and 
administrative reforms, including efforts to target the most 
economically distressed areas in the United States. The 
Economic Development Administration Reauthorization Act of 2004 
(P.L. 108-373) reauthorized EDA for a period of five years, 
through FY2008. Since that time, Congress has not reauthorized 
EDA.
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------

2. KEY GRANT PROGRAMS

    Planning Assistance: EDA assists EDDs and Tribal 
organizations, states, sub-state planning regions, cities, and 
other eligible recipients to assist in project planning. 
Comprehensive planning is an essential component in guiding 
local economic development and ensuring the effectiveness of 
development projects funded by EDA. Eligible activities include 
developing, maintaining, and implementing a CEDS and related 
short-term planning activities.
    Public Works: EDA's Public Works program provides grants to 
distressed communities to upgrade and expand their physical 
infrastructure. Public Works investments help facilitate the 
transition of communities from being distressed to becoming 
competitive by developing key public infrastructure, such as 
technology-based facilities that utilize distance learning 
networks, smart rooms, and smart buildings; multi-tenant 
manufacturing and other facilities; business and industrial 
parks with fiber optic cable; and telecommunications and 
development facilities. In addition, EDA invests in traditional 
public works projects, including water and sewer systems 
improvements, industrial parks, business incubator facilities, 
expansion of port and harbor facilities, skill-training 
facilities, and redevelopment of brownfields.
    Economic Adjustment: One of EDA's most flexible programs, 
the Economic Adjustment Assistance (EAA) program provides 
various types of assistance--including planning, technical 
assistance, revolving loan funds (RLFs), and infrastructure 
development--to help communities experiencing either a gradual 
erosion or sudden dislocation of local industry caused by 
natural disasters, international trade competition, or major 
plant closings.
    EDA oversees 510 RLFs nationwide, with a combined EDA 
investment of almost $566 million.\14\ The RLF portfolio has a 
combined capital base of about $870 million (consisting of EDA 
investment plus grantee matching funds plus interest 
income).\15\ The Reinvigorating Lending for the Future Act of 
2020 (RLF Act, P.L. 116-192) was enacted on October 20, 2020, 
and eliminated ``in perpetuity'' reporting requirements for EDA 
RLFs and releases the federal interest in EDA RLFs after seven 
years.
---------------------------------------------------------------------------
    \14\ EDA FY2021 Congressional Budget Request, February 2020,pg. 83.
    \15\ Id.
---------------------------------------------------------------------------
    Build to Scale: The Build to Scale (B2S) program--formerly 
known as the Regional Innovation Strategies program--builds 
regional economies through scalable startups through 
competitions supporting entrepreneurship, acceleration of 
company growth, and increased access to risk capital across 
regional economies. The B2S program is administered by EDA's 
Office of Innovation and Entrepreneurship, which is authorized 
under Section 27 of the Stevenson-Wydler Technology Innovation 
Act of 1980.\16\ In FY2021, EDA is awarding $38 million in B2S 
funding through its Venture and Capital challenges.
---------------------------------------------------------------------------
    \16\ 15 U.S.C. Sec.  3722.
---------------------------------------------------------------------------
    Trade Adjustment: EDA's Trade Adjustment Assistance program 
assists import-impacted U.S. manufacturing, production, and 
service firms in developing and implementing projects to regain 
global competitiveness, expand markets, strengthen operations, 
and increase profitability, thereby increasing U.S. jobs. 
Technical assistance is provided through a nationwide network 
of 11 Trade Adjustment Assistance Centers to help U.S. 
manufacturing, production, and service firms in all 50 States, 
the District of Columbia, and Puerto Rico.
    University Centers: EDA's University Center program enables 
higher education institutions and consortiums to establish and 
operate University Centers focused on leveraging university 
assets to build regional economic ecosystems that support 
innovation, entrepreneurship, resiliency, and inclusiveness. In 
FY2021, EDA has made available $7.4 million in federal funds 
for accredited institutions and consortia in EDA's Chicago and 
Philadelphia regions.\17\
---------------------------------------------------------------------------
    \17\ EDA, Notice of Funding Opportunity: FY 2021 EDA University 
Center Economic Development Program Competition, available at https://
www.eda.gov/files/programs/university-centers/FY21-EDA-UC-NOFO-
FINAL.pdf
---------------------------------------------------------------------------
    Research and National Technical Assistance: The Research 
and National Technical Assistance (RNTA) program funds 
research, evaluation, and national technical assistance 
projects that promote competitiveness and innovation in 
distressed communities throughout the U.S. and its territories. 
RNTA is currently subdivided into two programs: Research & 
Evaluation (R&E) and National Technical Assistance (NTA). 
Through the R&E program, EDA supports the development of tools, 
recommendations, and resources that shape and inform federal 
economic development policy. R&E program investments support 
regional, state, and local economic developers to enhance 
understanding and implementation of economic development 
concepts throughout the country. EDA's NTA program supports 
projects that provide national-scale technical assistance, 
disseminating best practices among communities trying to 
address economic downturn. The FY2021 Notice of Funding 
Opportunity (NOFO) makes $1.5 million available for R&E 
projects and $1.0 million available for NTA projects.\18\
---------------------------------------------------------------------------
    \18\ U.S. Department of Commerce, Grants Notice: FY 2021-2023 
Economic Development RNTA, available at https://www.grants.gov/web/
grants/view-opportunity.html?oppId=332576.
---------------------------------------------------------------------------

3. STUDIES OF EDA PROGRAMS

    In 2008, EDA contracted with accounting and advisory firm 
Grant Thornton to study the costs and economic impact of EDA's 
construction investments. The Grant Thornton study surveyed 
over 40 federal programs and concluded that EDA investments in 
rural areas have a significant impact on employment levels, 
generating between 2.2 and 5.0 jobs per $10,000 in EDA funding, 
at a cost per job of between $2,001 and $4,611.\19\ The study 
further concluded that EDA's investment in business incubators 
was worthwhile and generated significant impacts in communities 
where the investments were made.\20\
---------------------------------------------------------------------------
    \19\ Arena, P., Adams, J.A., Noyes, K., Rhody, S. & Noonan, M. 
(2008). Construction Grants Program Impact Assessment Report: Volume 1 
Report on Investigation and Results. Grant Thornton research report 
with ASR Analytics. Pg. 55.
    \20\ Id.
---------------------------------------------------------------------------
    In 2017, nonprofit research firm SRI International studied 
the impact of non-infrastructure economic development grant 
programs on regional economic capacities, as well as the 
relationship between those capacities and long-term outcomes 
such as job creation and earnings growth.\21\ SRI International 
found that non-infrastructure capacity building grants are 
critical to fostering an economic development collaboration 
system that leads to long-term desired economic development 
outcomes, and that such grants support building capacities that 
are associated with long-term growth in earnings, per capita 
income, and employment growth.\22\
---------------------------------------------------------------------------
    \21\ SRI International. Innovative Metrics for Economic 
Development: Final Report. November 17, 2017 Available at https://
www.eda.gov/files/performance/Innovative-Metrics-ED-Report.pdf.
    \22\ Id.
---------------------------------------------------------------------------

          III. EDA Disaster Recovery and the COVID-19 Pandemic

1. NATURAL DISASTER RECOVERY

    Within the federal government's Natural Disaster Recovery 
Framework (NDRF), EDA serves as the coordinating agency for the 
Economic Recovery Support Function (ERSF) on behalf of the 
Department of Commerce.\23\ As the ERSF lead, EDA provides 
leadership and coordination for primary and support agencies, 
which contribute to the administration of grants, loans, 
training and other forms of assistance to support economic 
recovery efforts in disaster-impacted communities and regions.
---------------------------------------------------------------------------
    \23\ EDA, EDA and Disaster Recovery, available at https://
www.eda.gov/disaster-recovery/.
---------------------------------------------------------------------------
    In recent years, following disasters, Congress has 
appropriated supplemental funding to assist the long-term 
economic recovery of areas affected by major disasters. EDA may 
also provide assistance through its regular programs without 
prior congressional approval, typically through its economic 
adjustment assistance program. In FY2018 and FY2019, EDA 
received a combined total of $1.2 billion in supplemental 
disaster appropriations from Congress to help regions recover 
from economic harm and distress resulting from natural 
disasters from 2017 to 2019.\24\ These funds included $600 
million appropriated in the Bipartisan Budget Act of 2018 (P.L. 
115-123) for additional EAA activities. These resources are 
designated for disaster relief and recovery following 
Hurricanes Harvey, Irma, and Maria, as well as wildfires and 
other calendar year 2017 disasters. In August 2019, EDA 
published the FY2019 Disaster Supplemental NOFO, providing $587 
million for grant investments to regions impacted by Hurricanes 
Florence, Michael, and Lane; Typhoons Yutu and Mangkhut; 
wildfires; volcanic eruptions; earthquakes; and other natural 
disasters occurring in calendar year 2018, and tornadoes and 
floods occurring in calendar year 2019.\25\
---------------------------------------------------------------------------
    \24\ EDA, Leading Economic Recovery Efforts in Disaster-Impacted 
Communities, available at https://www.eda.gov/files/programs/disaster-
recovery/EDA-Disaster-Brochure.pdf.
    \25\ Id.
---------------------------------------------------------------------------

2. COVID-19 RECOVERY

    On March 13, 2020, former President Trump declared a 
nationwide emergency pursuant to Sec. 501(b) of the Stafford 
Act in response to the COVID-19 pandemic. The pandemic impacted 
employment and economic growth in the United States. During the 
spring of 2020, the U.S. workforce lost approximately 20 
million jobs, with the unemployment rate peaking at almost 15 
percent.\26\ Although significant employment recovery occurred 
in the months that followed, job gains stalled--and in some 
areas deteriorated--by October 2020.\27\ The current 
unemployment rate in the U.S. stands at six percent--almost 
double the pre-pandemic rate of 3.5 percent.\28\ Certain 
industries, such as travel, tourism, and hospitality, have 
experienced significant financial and employment losses. For 
example, it is estimated that the travel sector in the United 
States lost 5.6 million jobs and $1.1 trillion in economic 
output in 2020.\29\
---------------------------------------------------------------------------
    \26\ Hershbein, B. and Holzer, H. The COVID-19 Pandemic's Evolving 
Impacts on the Labor Market: Who's Been Hurt and What We Should Do. 
February 15, 2021, available at https://ssrn.com/abstract=3788395.
    \27\ Id. at pg. 22.
    \28\ U.S. Bureau of Labor Statistics, Labor Force Statistics from 
the Current Population Survey, available at https://data.bls.gov/
timeseries/LNS14000000.
    \29\ U.S. Travel Association, Final Tally: Travel Lost $1.1 
Trillion in U.S. Economic Output in '20, March 17, 2021, available at 
https://www.ustravel.org/press/final-tally-travel-lost-11-trillion-us-
economic-output-20.
---------------------------------------------------------------------------
    In order to ``prevent, prepare for, and respond to 
coronavirus and for necessary expenses for responding to 
economic injury as a result of coronavirus,'' Congress 
appropriated $1.5 billion for EDA's EAA program in the 
Coronavirus Aid, Relief, and Economic Security Act (CARES Act, 
P.L. 116-136). To date, EDA has awarded over $1 billion of the 
funding provided in the CARES Act to support a wide range of 
projects in communities recovering from the economic effects of 
the pandemic.\30\ More recently, Congress provided $3 billion 
in EAA funding in the American Rescue Plan Act of 2021 (P.L. 
117-2), 25 percent of which was dedicated to addressing 
employment and gross domestic product losses in the travel, 
tourism, and outdoor recreation industries.
---------------------------------------------------------------------------
    \30\ EDA, U.S. Economic Development Administration Marks Milestone 
$1 Billion in Cares Act Grants Awarded, available at https://
www.eda.gov/news/blogs/2021/03/22/eda-marks-cares-act-milestone.htm.
---------------------------------------------------------------------------

                              Witness List

                                Panel I

    <bullet> LMr. Dennis Alvord, Acting Assistant Secretary for 
Economic Development, U.S. Department of Commerce

                                Panel II

    <bullet> LMs. Lisa Cooper, Executive Director, Northern 
Kentucky Area Development District, On Behalf of the National 
Association of Development Organizations
    <bullet> LMr. Garrett Hawkins, President, Missouri Farm 
Bureau, On Behalf of the American Farm Bureau Federation
    <bullet> LMr. Jonas Peterson, President and CEO, Las Vegas 
Global Economic Alliance, On Behalf of the International 
Economic Development Council
    <bullet> LThe Honorable Lenny Eliason, Commissioner, Athens 
County, Ohio, On Behalf of the National Association of Counties
    <bullet> LMr. Dan Carol, Director, Milken Institute Center 
for Financial Markets

                    APPENDIX 1: EDA REGIONAL OFFICES
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              Source: Economic Development Administration

             APPENDIX 2: EDA ECONOMIC DEVELOPMENT DISTRICTS
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   INVESTING IN AMERICA: REAUTHORIZATION OF THE ECONOMIC DEVELOPMENT 
                             ADMINISTRATION

                              ----------                              


                       WEDNESDAY, APRIL 28, 2021

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:10 p.m. in 
room 2167 Rayburn House Office Building and via Zoom, Hon. Dina 
Titus (Chair of the subcommittee) presiding.
    Members present in person: None.
    Members present remotely: Ms. Titus, Ms. Norton, Mr. 
Pappas, Mr. Carbajal, Mr. Webster, Mr. Massie, Miss Gonzalez-
Colon, Mr. Guest, and Ms. Van Duyne.
    Ms. Titus. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare a recess at any time during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    As a reminder, I would ask you to please keep your 
microphone muted unless speaking. Should I hear any inadvertent 
background noise, I will request that the Member mute their 
microphone.
    To insert a document into the record, please have your 
staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="40042f23352d252e3433146609002d21292c6e282f3533256e272f366e">[email&#160;protected]</a>
    Before we proceed with our opening statements, I would like 
to recognize the new vice chair of the subcommittee, Mr. Chris 
Pappas of New Hampshire. He represents the First Congressional 
District in New Hampshire. And, although that is a lot 
different from Las Vegas, we do share a Greek heritage, so I 
look forward to working with him, and I know that he will bring 
his expertise to this role on the subcommittee.
    So thank you, and welcome, Congressman Pappas.
    Mr. Pappas. Thank you, Madam Chair. It is great to be on 
board.
    Ms. Titus. We will now proceed with the opening statements, 
so I will welcome everybody to today's hearing.
    Thank you to the witnesses for being with us, and thank you 
for your patience.
    I also saw in the news that the President intends to 
nominate Alejandra Castillo for the position of Assistant 
Secretary for Economic Development at the Commerce Department. 
So this committee will look forward to working with her when 
she is confirmed.
    The topic for today's hearing is the congressional 
reauthorization of the Economic Development Administration. It 
was created in 1965 by the Public Works and Economic 
Development Act, and it is the only Federal agency specifically 
dedicated to supporting economic development.
    The EDA administers a variety of grants programs that 
invest in public works projects, higher education research and 
initiatives, planning and technical assistance, economic 
adjustment, and trade assistance for firms and businesses.
    The agency also hosts a number of funding opportunities to 
invest in innovation and technology, such as the Build to Scale 
program and the Scaling Pandemic Resilience through Innovation 
and Technology, or SPRINT, Challenge. These programs support 
distressed communities and strengthen local economies by 
creating and retaining jobs, mitigating hardship created by 
dislocation of industry, assisting economic recovery from 
disasters, and fostering innovation and entrepreneurship.
    This agency doesn't always make the headlines. A lot of 
people don't even know it exists. But the statistics show just 
how impactful it can be in spurring economic growth and helping 
communities rebound.
    Since 2012, the EDA has invested nearly $1.9 billion in 
4,700 projects all around the country. The EDA estimates that 
these investments are expected to create or retain over 360,000 
jobs and attract over $42 billion in private investment. The 
EDA awards grants based on its core investment priorities. 
Earlier this month, the agency updated those priorities to 
include a focus on equity, technology-based economic growth, 
and environmentally sustainable development.
    I applaud the EDA for demonstrating a commitment to 
addressing the issues facing our country, and through 
reauthorization I hope we can work together to create more 
opportunities for Americans.
    For many communities, the EDA's grant programs are often 
the only source of funding available for infrastructure or 
workforce development projects. The EDA, though, has operated 
without authorization since 2008, although Congress, 
recognizing the importance of its critical mission and impact, 
has constantly provided appropriations every year so that the 
agency can continue to carry out its work promoting innovation 
and competitiveness to prepare regions across the country for 
growth and success in the 21st century.
    This is a big moment for the EDA. Reauthorization 
represents an opportunity to invest in workforce development 
and innovation. Together, we can make regions outside of the 
established tech hubs more competitive. We can help bring high-
speed internet to millions of Americans, and we can create 
employment opportunities and infrastructure projects for 
communities that have been historically underserved.
    The EDA also plays an important role in helping communities 
recover from disaster. Within the Federal Government's Natural 
Disaster Recovery Framework, the EDA serves as the coordinating 
agency for the Economic Recovery Support Function on behalf of 
the Department of Commerce. A critical component of disaster 
recovery is bringing back jobs, and ensuring that disaster 
survivors have the resources necessary to get back up on their 
feet after their lives have been upended.
    The effects of the pandemic on employment have been 
staggering. A year ago, approximately 20 million Americans were 
out of a job. That is the most since the Great Depression. And 
there has been significant progress in putting Americans back 
to work. But still, almost 5 million people remain unemployed 
in the U.S. today.
    Last month, the EDA reached a milestone of awarding $1 
billion of Economic Adjustment Assistance that was appropriated 
by Congress through the CARES Act. That is a noteworthy 
achievement, but with the $3 billion Congress provided to the 
EDA in the American Rescue Plan Act, there is still a lot more 
work that we can do.
    The American Rescue Plan appropriation included $750 
million as a set-aside for communities that have experienced 
employment and GDP losses in the travel, tourism, and outdoor 
recreation industry. Considering the devastating economic 
losses in those sectors, I am particularly interested in 
hearing EDA's plans for administering that funding. This is the 
first time that has ever been done.
    I believe the EDA can play a vital role in helping 
diversify the economies in places like Las Vegas, that have 
been so dependent on travel and tourism, so we can better 
manage the next pandemic. As we work toward advancing the first 
EDA reauthorization in over a decade, or almost two, I hope our 
witnesses can share some of their experiences with EDA's 
programs to better inform our dialogue about the agency's 
future needs and capabilities.
    I look forward to working with my colleagues on both sides 
of the aisle on this comprehensive EDA reauthorization that 
will build on its successes, and promote sustainable and 
equitable economic development in communities of all sizes 
across the country.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
     from the State of Nevada, and Chair, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    I'd like to welcome everyone to today's hearing. Thank you to our 
witnesses for being with us.
    We're here to discuss the congressional reauthorization of the 
Economic Development Administration (EDA).
    Created in 1965 by the Public Works and Economic Development Act, 
the EDA is the only federal agency specifically dedicated to economic 
development.
    The EDA administers a variety of grant programs to invest in public 
works projects, higher education research and initiatives, planning and 
technical assistance, economic adjustment, and trade assistance for 
firms.
    The agency also hosts a number of funding opportunities to invest 
in innovation and technology, such as the Build to Scale program and 
Scaling Pandemic Resilience Through Innovation and Technology (SPRINT) 
challenge.
    These programs support distressed communities and strengthen local 
economies by creating and retaining jobs, mitigating hardship created 
by dislocation of industry, assisting economic recovery from disasters, 
and fostering innovation and entrepreneurship.
    This agency doesn't always make the headlines, but the statistics 
show how impactful they can be in spurring economic growth and helping 
communities rebound.
    Since 2012, the EDA has invested nearly $1.9 billion in 4,700 
projects all across the country. The EDA estimates that these 
investments are expected to create or retain over 360,000 jobs and 
attract over $42 billion in private investment.
    The EDA awards grants based on its core investment priorities. 
Earlier this month, the agency updated those priorities to include a 
focus on equity, technology-based economic growth, and environmentally-
sustainable development.
    I applaud the EDA for demonstrating a commitment to addressing the 
issues facing our country and through reauthorization I hope we can 
work together to create more opportunities for Americans.
    For many communities, the EDA's grant programs are often the only 
source of funding available for infrastructure or workforce development 
projects.
    The EDA has operated without authorization since 2008, although 
Congress, recognizing the importance of its critical mission and 
impacts, has provided appropriations annually so that the agency can 
continue to carry out its work promoting innovation and competitiveness 
to prepare regions across the country for growth and success in the 
21st century economy.
    This is a big moment for the EDA. Reauthorization presents an 
opportunity to invest in workforce development and innovation. 
Together, we can make regions outside of the established tech hubs more 
competitive, help bring high-speed internet to millions of Americans, 
and create employment opportunities and infrastructure projects for 
communities that have been historically underserved.
    The EDA also plays an important role in helping communities recover 
from disasters. Within the federal government's Natural Disaster 
Recovery Framework, the EDA serves as the coordinating agency for the 
Economic Recovery Support Function on behalf of the Department of 
Commerce.
    A critical component of disaster recovery is bringing back jobs and 
ensuring that disaster survivors have the resources necessary to get 
back on their feet after their lives have been upended.
    The effects of the pandemic on employment have been staggering. A 
year ago, approximately 20 million Americans were out of the job--the 
most since the Great Depression. And while there has been significant 
progress in getting Americans back to work, almost 5 million people 
remain unemployed in the U.S.
    Last month, the EDA reached the milestone of awarding $1 billion of 
the Economic Adjustment Assistance funding Congress appropriated in the 
CARES Act.
    That's a noteworthy achievement, but with the $3 billion Congress 
provided to the EDA in the American Rescue Plan Act, there's still a 
lot of work to be done.
    The American Rescue Plan appropriation included $750 million for 
communities that experienced employment and GDP losses in the travel, 
tourism, and outdoor recreation industries. Considering how devastating 
the economic losses have been in those sectors, I'm particularly 
interested in EDA's plans for administering that funding.
    I believe the EDA can play a vital role in helping diversify the 
economies in places like Las Vegas that are dependent on travel and 
tourism so that we are able to better manage the next pandemic.
    As we work toward advancing the first EDA reauthorization in over a 
decade, I hope our witnesses can share some of their experiences with 
EDA's programs to better inform our dialogue about the agency's future 
needs and capabilities.
    I look forward to working with my colleagues on both sides of the 
aisle on a comprehensive EDA reauthorization that will build on its 
successes and promote sustainable and equitable economic development in 
communities of all sizes.

    Ms. Titus. At this point, I would ask unanimous consent to 
enter into the record of today's hearing a letter from the 
Rural Community Assistance Partnership, and a document from the 
Economic Development Administration Stakeholder Coalition 
entitled, ``EDA Reauthorization Priorities for the 117th 
Congress.''
    Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
 Letter of April 28, 2021, from Nathan Ohle, Chief Executive Officer, 
  Rural Community Assistance Partnership, Submitted for the Record by 
                            Hon. Dina Titus
                                                    April 28, 2021.
Representative Peter DeFazio,
Chair,
House Transportation and Infrastructure Committee, 2134 Rayburn House 
        Office Building, Washington, DC 20515.
Representative Sam Graves,
Ranking Member,
House Transportation and Infrastructure Committee, 1135 Longworth House 
        Office Building, Washington, DC 20515.
Representative Dina Titus,
Chair,
Subcommittee on Economic Development, Public Buildings, and Emergency 
        Management, 2464 Rayburn House Office Building, Washington, DC 
        20515.
Representative Daniel Webster,
Ranking Member,
Subcommittee on Economic Development, Public Buildings, and Emergency 
        Management, 1210 Longworth House Office Building, Washington, 
        DC 20515.
    Dear Chair DeFazio, Ranking Member Graves, Chair Titus, and Ranking 
Member Webster:
    On behalf of the Rural Community Assistance Partnership (RCAP), I 
write to thank you for supporting the Economic Development 
Administration (EDA) and recognizing the vital role that EDA programs 
play in expanding the capacity of rural communities to grow and thrive. 
As a national non-profit network serving small rural and tribal 
communities in all 50 states, territories, and on tribal lands, we are 
aware of the unique set of challenges that these communities face and 
the immense value that economic development and technical assistance 
funding provides.
    EDA's programs are some of the most flexible and effective across 
the federal government, however, many communities with the greatest 
level of need are unable to access these funds because of a lack of 
capacity and a need for more robust grant funding. Expanded national 
technical assistance will bolster communities' ability to access funds 
and will support EDA's mission to promote innovation in approaches to 
economic development and inform economic development decision-making, 
especially for communities impacted by the COVID-19 pandemic.
    In 2020, the Coronavirus Aid, Relief, and Economic Security (CARES) 
Act provided EDA with $1.5 billion for economic development assistance 
programs to help communities prevent, prepare for, and respond to 
coronavirus. The grants created by the CARES Act were proven to provide 
critical and effective programs. In March of 2021, The American Rescue 
Plan (ARP) was enacted and allocated $3 billion to assist communities 
nationwide in advancing their coronavirus recovery and resiliency 
strategies. The programs created will be crucial for economic 
development and infrastructure investment.
    In FY21 appropriations Congress funded $10 million for the Research 
and National Technical Assistance (RNTA) program to allow qualified 
non-profits to assist economically disadvantaged small, rural, and 
underserved communities with activities associated with building 
capacity to access EDA programs and services. While any support for 
this crucial program is appreciated, funding for this program should be 
increased to $20 million to better reflect the need in our most 
vulnerable communities.
    Rural places are often slower to recover from periods of economic 
disruption than urban and suburban areas--evidenced by the fact that 
employment and prime-age labor force participation in many of the 
communities we serve had not yet recovered from the 2008 economic 
recession when the pandemic hit last year. Increased funding for EDA, 
including increased national technical assistance funding through RNTA 
programs will confront this issue by leveraging best practices for 
local, state, and regional leaders to carry out economic development 
activities as we recover from the harmful impacts of COVID-19.
    We appreciate the committee holding this important hearing to 
evaluate the current level of need in disadvantaged communities and the 
supportive role that EDA must play as we aim to quickly bounce back 
from the pandemic. We stand ready to work with you and your colleagues 
to ensure rural communities receive adequate development and technical 
assistance funding to recover from the pandemic in a strong and 
equitable manner.
        Thank you,
                                               Nathan Ohle,
                       CEO, Rural Community Assistance Partnership.

                                 <F-dash>
  ``EDA Reauthorization Priorities for the 117th Congress'' from the 
 Economic Development Administration Stakeholder Coalition, Submitted 
                   for the Record by Hon. Dina Titus
    Economic Development Administration (EDA) Stakeholder Coalition
         eda reauthorization priorities for the 117th congress
    <bullet>  Enhance EDA's Role in Capacity Building:

      +  Increase EDA funding for Partnership Planning and enhance the 
scope of related activities:

        -  As communities continue to respond to the COVID-19 pandemic, 
they will need to reevaluate and revise their existing regional 
development plans and Comprehensive Economic Development Strategies 
(CEDS). Congress should significantly increase EDA funding for planning 
assistance for communities as they endeavor to build stronger and more 
resilient economies.

      +  Increase EDA funding for Research and National Technical 
Assistance (RNTA) and enhance the scope of related activities:

        -  Congress should enhance EDA's role and increase EDA funding 
for national technical assistance that helps support the ultimate 
success of economic development projects.

      +  Increase EDA funding for Public Works and enhance the scope of 
related activities, particularly related to broadband and resiliency:

        -  Congress should include direction for EDA to support both 
broadband access and adoption. Broadband is an essential missing piece 
in many communities with struggling economies. EDA is uniquely 
positioned to provide strategic direction and funding for broadband 
access and adoption and should be given further flexibility to seek out 
new capabilities and partnerships in this realm. Emphasis should be 
placed on ensuring equitable resource allocation among urban and rural 
communities.

        -  In support of EDA's role in disaster resiliency and impact 
mitigation, Congress should also direct the agency to take the current 
and future impacts of climate change into consideration for Public 
Works projects. In addition, a separate fund should be established 
within the Public Works program that is expressly dedicated to projects 
mitigating the impacts of climate change.

      +  Create a new EDA Capacity-Building Grant Program:

        -  Communities taking advantage of EDA's planning resources 
often lack the human and financial resources to implement those plans. 
Congress should establish a grant program within EDA to fund three-year 
positions for qualified economic development professionals to execute 
CEDS or economic development strategic plans and dedicated funding for 
economic development project pre-development work.

        -  Communities often struggle to move from economic development 
concept to economic development reality due to a lack of funding at the 
earliest stages of a project. Known as 'pre-development' work, these 
items must be completed before a project can move forward or even 
secure financing and partners. A dedicated funding source for pre-
development work at EDA would spark numerous economic development 
projects that would otherwise never advance.

        -  Many communities lack the human resources necessary to 
implement their CEDS or execute their strategic plans. Providing 
funding for communities to hire staff and engage professional 
consultants would allow projects to move forward with competent, 
sustained oversight and direction, dramatically increasing the chances 
for lasting success. This funding would be available to any 
organization or entity otherwise eligible to receive EDA funding.

    <bullet>  Reassess and Reconstitute EDA's Economic Distress 
Formula:

      +  Reassess and reconstitute EDA's economic distress formula and 
consider reducing local match requirements permanently. Currently, 
EDA's economic distress formula requires communities to invest as much 
as 50 percent of the total project cost via matching funds, with EDA 
providing federal funding for the remaining 50 percent of the total 
project cost. For the most distressed communities, EDA's standard 
Notice of Funding Opportunity (NOFO) guidance dictates that the maximum 
allowable federal investment rate is 80 percent, which still requires 
very distressed communities to contribute 20 percent of the project's 
overall cost via matching funds, except in rare cases when the EDA 
Assistant Secretary deems that an applicant has exhausted its taxing 
and borrowing capacity.\1\ Congress should include direction for EDA's 
economic distress formula to be reconstituted so that all communities 
with eligible projects--and especially distressed communities--are 
eligible to receive a higher overall percentage of federal funding.
---------------------------------------------------------------------------
    \1\ Source: https://www.grants.gov/web/grants/view-
opportunity.html?oppId=321695 EDA's FY20 NOFO, document name: ``FY20 
PWEAA NOFO including NCC and CARES.pdf'' PDF page 12 of 45

      +  Reducing EDA's matching fund requirements is important also 
because communities will be recovering from the COVID-19 pandemic for 
an extended duration of time. This reality should be taken into 
consideration and EDA's formula funding approach should be overhauled 
accordingly. We encourage eliminating local match requirements for the 
remainder of the declared COVID-19 Public Health Emergency (PHE) and 
---------------------------------------------------------------------------
for at least 3 years following its culmination.

    <bullet>  Codify EDA's Role in Disaster Resiliency and Recovery:

      +  Congress should amend the Public Works and Economic 
Development Act (PWEDA) to formally outline and designate EDA's 
significant role in post-disaster assistance for impacted communities.

      +  In EDA's reauthorization, Congress should establish an EDA 
Office of Disaster Resilience & Recovery to preserve institutional 
knowledge and leadership in the economic disaster resilience and 
recovery realm. Enhancing EDA's disaster recovery leadership and 
resources will help communities prepare for and mitigate negative 
economic impacts associated with disasters. Congress should authorize a 
dedicated fund with annual appropriations for immediate responses to 
economic crises associated with declared disasters or states of 
emergency.

      +  In cases where a major disaster or emergency has been declared 
under the Stafford Act, EDA should be required to increase the federal 
share to 100 percent of the project cost, waiving all match 
requirements for any funding appropriated for the purpose of disaster 
or emergency response.

      +  EDA has successfully utilized the flexible hiring authority 
Congress provided to the agency to aid in EDA's response to COVID-19. 
This authority was based in part on similar authorities provided to 
other disaster response agencies and should be made a permanent 
authority. Disasters and emergencies require increased resources to 
ensure timely delivery of services while the agency continues to 
provide vital services and resources through their normal, non-
emergency related work.

    <bullet>  Codify and Fund EDA's Economic Development Integration 
(EDI) Role:

      +  While EDA is the only federal agency with a focus solely on 
economic development, there are other agencies that engage in economic 
development efforts. Enhanced coordination among federal agencies and 
divisions supporting economic development can yield significant 
benefits for stakeholders of all kinds. Congress should formally 
establish an EDA Office of Economic Development Coordination & 
Integration to formalize EDA's leadership role in the economic 
development realm, and to emphasize its cross-cutting role in 
coordinating economic development resources across the federal 
government. Although EDA currently has an existing Economic Development 
Integration (EDI) practice, PWEDA should be amended to include language 
that formally establishes EDI and fully outlines its role.

      +  Congress should provide dedicated funding for EDI so that this 
practice can become a fully-resourced and fully-staffed division within 
EDA. This would enhance the ability of EDI specialists to conduct on-
the-ground technical assistance in communities across the country, 
ensuring the entirety of the federal government's resources are 
effectively and efficiently utilized in support of local and regional 
economic development.

    <bullet>  Strengthen Collaboration Between EDA, Economic 
Development Districts (EDD), and Economic Development Organizations:

      +  Economic Development Districts (EDDs) and Economic Development 
Organizations (EDOs) are core constituencies of EDA. As such, EDA 
should explore all avenues to partner with and support collaboration 
between EDDs and EDOs utilizing their authority and resources.

      +  EDDs have long partnered with the Agency and have a dedicated 
line of funding. EDOs are eligible to apply for competitive EDA funding 
as they are units of local, state and tribal government, non-
governmental organizations or public-private partnerships. However, 
many EDOs do not currently partner with EDA due to a combination of a 
lack of available funding, lack understanding of EDA programming, 
misperceptions related to eligibility and a perceived inflexibility at 
EDA to explore new partnerships. Unfortunately, for various reasons 
EDOs do not always partner with their local EDD either. This lack of 
collaboration between EDDs, EDOs and EDA negatively impacts communities 
as they look to better develop their economies. The disaster scenarios 
in recent years have emphasized a need to significantly increase 
collaboration between EDA, EDDs, and EDOs.

      +  Congress should include clear directive for EDA to 
collaborate, partner and support EDDs and EDOs in reauthorizing the 
agency. Such a directive would further cement the vital, balanced roles 
of planning and execution in supporting economic development. Congress 
should also establish a technical and operational capacity assistance 
program that provides resources to increase regional collaboration and 
to execute regional economic development strategic plans.

    <bullet>  Elevate EDA Leadership to an Under Secretary Level:

      +  EDA is currently headed by an Assistant Secretary-level 
appointee. Given EDA's role as the lead federal agency for economic 
development and the vital importance of this role during times of 
economic distress--and consistent with EDA's increased funding and its 
thereby heightened role in facilitating disaster resiliency and 
recovery and coordination among other agencies--Congress should elevate 
the Assistant Secretary position to an Under Secretary level position 
in EDA's reauthorization.

    <bullet>  Raise EDA's Authorization Level to $3 Billion:

      +  EDA's authorized funding level does not accurately reflect the 
importance of the role the agency plays as the lead federal economic 
development agency, nor does it adequately meet the demonstrated need 
for economic development leadership and resources that exists across 
America's communities and regions. EDA investments have a track record 
of leveraging additional investments and catalyzing new economic 
opportunity. Congress should significantly increase its annual 
investment in EDA to enhance the reach and impact of the agency.

      +  Between supplemental disaster response funding and annual 
appropriations EDA received nearly $2 billion in funding for FY 2020 
and more than $3 billion in FY 2021. In FY 2020 the agency received 
requests for funding that far surpassed EDA's available funding, which 
is indicative of both the value of EDA's leadership and programming, as 
well as the significant and growing need for federal economic 
development resources. Congress should increase EDA's annual authorized 
funding level to $3 billion.

Coalition Members:

International Economic Development Council (IEDC)
Main Street America
National Association of Counties (NACo)
National Association of Development Organization (NADO)
National Association of Regional Councils (NARC)
National League of Cities (NLC)
Rural Community Assistance Partnership (RCAP)
    Ms. Titus. I now recognize and call on the ranking member 
of the subcommittee, Mr. Webster, for his opening statement.
    Mr. Webster. Thank you, Chair Titus. It is great to be 
here, and there are important issues involved in this hearing, 
and I want to thank our witnesses for being here and joining us 
for this hearing.
    As you know, EDA has received a significant--you mentioned 
it--a significant amount of supplemental funding in recent 
years to help communities recover from disasters. Over the last 
year alone, EDA received $1.5 billion from the bipartisan CARES 
Act, and another $3 billion from the American Rescue Plan. 
These amounts are significantly above the level that EDA 
receives in base funding. So it is important that we ensure EDA 
is positioned to properly manage these taxpayer dollars in the 
most efficient way.
    Ultimately, in many rural communities across the Nation, 
access to broadband internet remains a major hurdle to 
retaining and attracting businesses and jobs. In cities with 
high-speed broadband options, many take broadband for granted. 
However, in many parts of my district and in places all over 
the country, meaningful access is just not available. This lack 
of broadband, in many areas, especially rural areas, is a 
serious impediment to many facets of American life, including 
economic development.
    Just about every business these days needs access to 
broadband internet. It may not be the first thing that comes to 
mind, but agricultural businesses today rely heavily on 
broadband for things like operations, maintenance, weather 
forecasting, and sales. Technology has created a huge 
opportunity for farming to be more efficient, and supporting 
growth in our agriculture communities ensures maintaining food 
security for our Nation.
    We also know that broadband impacts the ability of 
distressed communities to attract jobs and businesses across a 
host of other industries, including the healthcare and energy 
sectors. While EDA can and does fund some broadband projects, 
we must ensure any unnecessary hurdles are addressed so we can 
help more Americans get connected.
    Lastly, I want to make sure that those efforts to achieve 
this goal do not harm existing rural broadband providers, which 
often are small businesses themselves, and have spent capital 
and time trying to reach these communities, often in creative 
ways. So I look forward to hearing from our witnesses on these 
and other issues. Thank you, Chair Titus, I yield back.
    [Mr. Webster's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Daniel Webster, a Representative in Congress 
from the State of Florida, and Ranking Member, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    Thank you, Chair Titus. I wanted to thank our witnesses for joining 
us today for this important hearing.
    As you know, EDA has received a significant amount of supplemental 
funding in recent years to help communities recover from disasters. 
Over the last year alone, EDA received $1.5 billion from the bipartisan 
CARES Act and another $3 billion from the American Rescue Plan.
    These amounts are significantly above the level that EDA receives 
in base funding, so it is important that we ensure EDA is positioned to 
properly manage these taxpayer dollars in the most effective way.
    Ultimately, in many rural communities across the Nation, access to 
broadband internet remains a major hurdle to retaining and attracting 
businesses and jobs. In cities with high-speed broadband options, many 
take broadband for granted. However, in many parts of my district, and 
in places all over the country, meaningful access is just not 
available. This lack of broadband in many rural areas is a serious 
impediment to many facets of American life, including economic 
development.
    Just about every business these days needs access to broadband 
internet. It may not be the first thing that comes to mind, but 
agricultural businesses today rely heavily on broadband for things like 
operations, maintenance, weather forecasting, and sales. Technology has 
created a huge opportunity for farming to be more efficient, and 
supporting growth in our agricultural communities ensures continued 
food security for our Nation.
    We also know broadband impacts the ability of distressed 
communities to attract jobs and businesses across a host of other 
industries, including the healthcare and energy sectors.
    While EDA can and does fund some broadband projects, we must ensure 
any unnecessary hurdles are addressed so we can help more Americans get 
connected.
    Lastly, I want to make sure that efforts to achieve this goal do 
not harm existing rural broadband providers which are often small 
businesses themselves that have spent capital and time trying to reach 
these communities--often in creative ways.
    I look forward to hearing from our witnesses today on these and 
other issues.

    Ms. Titus. Thank you, Mr. Webster.
    Today we are going to be hearing testimony from witnesses 
on two panels. Each panel will be followed by questions from 
the Members.
    I would now like to welcome the witness on our first panel, 
Mr. Dennis Alvord, who is the Acting Assistant Secretary for 
Economic Development at the U.S. Department of Commerce.
    Thank you for joining us today. We look forward to hearing 
your testimony.
    Without objection, our witness' full statement will be 
included in the record.
    So, since your written testimony will be made a part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    Mr. Alvord?
    Mr. Alvord. Thank you, Chairwoman.

  TESTIMONY OF DENNIS ALVORD, ACTING ASSISTANT SECRETARY FOR 
ECONOMIC DEVELOPMENT, ECONOMIC DEVELOPMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Alvord. Chairwoman Titus, Ranking Member Webster, and 
members of the subcommittee, thank you for the opportunity to 
testify on behalf of the Economic Development Administration.
    EDA's mission is to lead the Federal economic development 
agenda by promoting innovation, competitiveness, and preparing 
American regions for growth and success in the worldwide 
economy. EDA's creation over 50 years ago has provided tens of 
thousands of catalytic grants to State and local governments, 
nonprofits, economic development districts, institutes of 
higher education, Tribal entities, and other organizations to 
help communities create jobs and generate private investment 
across the country.
    EDA grants support many of the country's most economically 
distressed areas, including regions that are recovering from 
economic shocks like those experienced by coal and nuclear 
powerplant communities, or other communities impacted by the 
decline of an important industry.
    EDA, through its organic statute, the Public Works and 
Economic Development Act of 1965, provides targeted investments 
that address a range of economic development needs, including 
research, planning, technical assistance, and construction and 
implementation projects. Using this flexible, comprehensive set 
of tools, EDA helps regions bounce back from economic setbacks 
and position themselves for long-term, sustainable economic 
growth.
    Since EDA was last authorized in 2004, the economic 
conditions that communities face have changed and evolved. Over 
the last 17 years, new industries have emerged while other 
sectors have declined. Regions have encountered and responded 
to devastating natural disasters, and we have all suffered the 
impacts of a global pandemic.
    EDA has also evolved. The bureau has improved its business 
practices to be more responsive to its customers, launch new 
evaluation tools and economic models, and, over the past 4 
years, grown exponentially in size and budget. In 2017, EDA had 
an annual appropriation of $276 million. In 2018 and 2019, 
through two disaster recovery supplementals, EDA's budget 
authority grew to $901.5 million and $904 million, 
respectively. In 2020, Congress provided the agency a historic 
influx of $1.5 billion under the CARES Act. Less than 1 year 
later, EDA has received an additional $3 billion in funding 
under the American Rescue Plan of 2021.
    This growth in appropriations has also resulted in rapid 
growth in EDA's headcount. Thanks to the additional hiring 
authorities EDA received under the CARES Act, we successfully 
solicited and reviewed over 3,000 resumes, and onboarded 83 
staff. These new staff have helped EDA obligate over two-thirds 
of the funding within 1 year of Congress enacting the CARES 
Act, and has EDA well positioned to obligate the $3 billion 
from the American Rescue Plan by the September 30, 2022, 
deadline.
    Notably, since our last reauthorization, EDA has been 
recognized for our work in disaster recovery as the lead in 
economic recovery under the National Disaster Recovery 
Framework, leadership in Federal resource integration and 
collaboration, and the creation of a robust regional innovation 
program that continues to grow, as authorized by the America 
COMPETES Act.
    What hasn't changed in the last 55 years is EDA's continued 
ability to rise to the challenge and ensure the funds entrusted 
to us are invested in an equitable, fair, and impactful manner, 
and that we are reaching the communities most in need of our 
assistance. We are proud of the bureau's accomplishments and 
believe that we can expand our work to assist distressed 
communities, especially in the current economic climate.
    EDA's investments are highly effective and generate 
significant impacts. As reported by SRI International in a 2017 
study, ``EDA makes a substantial number of infrastructure 
grants directly to organizations and communities across the 
Nation to support projects to improve roads, highways, water 
supplies, and other critical infrastructure components . . .
    ``In many situations, EDA funds act as the primary catalyst 
for other funding--that is, without the support and funding of 
EDA, many projects would struggle to attract the necessary 
capital. EDA grants act as a signaling mechanism to validate 
the project and mobilize outside investment.''
    Looking at EDA infrastructure investments, SRI 
International's analysis found that, for every dollar EDA 
invested, $17.5 in additional private investment dollars were 
generated. The same study also found that EDA-supported 
projects, and the investment they attracted, generated an 
average of an additional 56,554 jobs, $3.187 billion in wages 
and salaries, and $4.053 billion in personal income each year.
    While EDA has been exceedingly successful in implementing 
its programs, our rapid growth in recent years and the ever-
shifting economic development landscape means we must 
constantly be reassessing how we meet the challenges of the 
future. As such, we must broaden our horizon with an eye 
towards 21st-century technologies and sectors that our 
communities will need to access if they want to be competitive, 
looking forward.
    Chairwoman Titus, Ranking Member Webster, and members of 
the subcommittee, thank you for the opportunity to address you 
today.
    Restoring economic prosperity to all parts of the Nation is 
an important priority of the administration, and EDA is well-
positioned to leverage its strengths in furtherance of this 
goal. I look forward to answering any questions you may have.
    [Mr. Alvord's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Dennis Alvord, Acting Assistant Secretary for 
    Economic Development, Economic Development Administration, U.S. 
                         Department of Commerce
                              Introduction
    Chairwoman Titus, Ranking Member Webster, and members of the 
Subcommittee, thank you for this opportunity to testify on behalf of 
the Economic Development Administration (EDA). EDA's mission is to lead 
the federal economic development agenda by promoting innovation and 
competitiveness, and preparing American regions for growth and success 
in the worldwide economy.
    Since EDA's creation over 50 years ago, it has provided tens of 
thousands of catalytic grants to state and local governments, non-
profits, economic development districts (EDDs), institutes of higher 
education, Tribal entities, and other organizations to help communities 
create jobs and generate private investment across the country. EDA 
grants support many of the country's most economically distressed areas 
including regions that are recovering from economic shocks, like those 
experienced by coal and nuclear power plant communities, or other 
communities impacted by the decline of an important industry.
    EDA, through its organic statute, the Public Works and Economic 
Development Act of 1965 (PWEDA), provides targeted investments that 
address a range of economic development needs including research, 
planning, technical assistance, and construction and implementation 
projects. Using this flexible and comprehensive set of tools, EDA helps 
regions bounce back quickly from economic setbacks and position 
themselves for long-term, sustainable economic growth. The project 
examples below represent a range of the many notable successes as well 
as highlight the impact that these investments have made:
    <bullet>  In 2015, EDA awarded a $1.28 million public works grant 
to Lamb County for road infrastructure improvements to help attract the 
growing dairy industry and support regional economic diversification. 
The award came one year after the last denim mill closed in West Texas, 
leaving 300 workers without a job. Together with a local investment of 
$1.5 million and partnerships with the Texas Department of 
Transportation and the Texas Department of Agriculture, the EDA grant 
made it possible to build a wide, heavy load-bearing road with expanded 
capacity for dairy trucks. The county completed the road infrastructure 
project in 2018 and Continental Dairy Company renovated the denim mill, 
turning it into a state-of-the-art dairy processing plant that 
immediately employed 200 local residents. In addition, a special effort 
was made to reemploy those who previously worked at the denim mill. 
Today, the dairy processing plant is a key provider of powdered milk, a 
major component in everything from yogurt to ice cream. It is also 
expanding to incorporate butter manufacturing, a move that is expected 
to create an additional 100 jobs in the facility. Due to the health and 
safety precautions already in place for processing raw milk, the plant 
has not only continued operations, it has expanded during the COVID-19 
pandemic. The road project has also been an economic force multiplier: 
with the additional dairy truck traffic, more businesses have opened in 
the immediate area, including the county's first major truck stop and 
rest area, which has created new regional business opportunities, and 
advanced innovative ways for local economies to thrive.
    <bullet>  In May 2020, EDA awarded $2 million in 2018 Disaster 
Supplemental funds to support the city of Wells, Nevada with making 
critical storm water infrastructure upgrades to deepen and improve the 
existing storm water channels in Elko County. The project will help 
mitigate floodwater by adding culverts that will direct stormwater 
safely through the commercial core to a river basin, which will create 
a resilient roadway to the city's commercial and industrial enterprises 
and maintain operations during significant flood events. Once 
completed, the project will minimize flooding hazards, restore 
productivity to commercially zoned acreage, support job creation, and 
advance economic resiliency against future disasters.
    <bullet>  In September 2020, EDA awarded $10.2 million in 2019 
Disaster Supplemental funds to support the Leon County Research and 
Development Authority with making infrastructure improvements to 
support the critical need for expansion of the innovation-centric 
economy in Leon County, Florida, an area hit hard by Hurricane Michael 
in 2018. The project will construct a 40,000 square foot high-tech 
incubator with redundant power supply at the Innovation Park of 
Tallahassee to serve as a business continuity hub during power outages 
and to aid in the formation and expansion of technology businesses. 
Once completed, the project will promote resiliency, foster new 
manufacturing operations, train a workforce for new opportunities, and 
strengthen the regional economy.
    <bullet>  In August 2020, EDA awarded a $400,000 CARES Act grant to 
the North Central Regional Planning Commission (NCRPC), an EDA-funded 
EDD. Due to the COVID-19 pandemic, Kansas's nearly 500 manufacturers 
have experienced decreased market demand, supply chain disruption, and 
increased workforce instability. As a result of this funding, the NCRPC 
has contracted with Kansas State University's Technology Development 
Institute to provide technical assistance to area manufacturers and 
entrepreneurs with no-cost experts advising in areas such as market 
research, product innovation, product promotion, and opportunities to 
implement technological innovation to help rebound from challenges 
caused or exacerbated by COVID-19. NCRPC has also begun surveying small 
businesses and non-profits to determine which training topics would be 
relevant to their stakeholders, and will be hiring appropriate 
contractors to provide online and on-site trainings in Spring of 2021 
to revitalize small businesses and foster resiliency in the event of 
future disasters. Additionally, NCRPC hired a disaster recovery 
coordinator to stay on top of the ever-changing state requirements, 
funding opportunities, and serve as a point of contact for businesses 
and other stakeholders to find the latest information and services 
available during the recovery from the pandemic.
    <bullet>  In April 2021, EDA awarded a $2.5 million Assistance to 
Coal Communities grant to the Pea Ridge Public Service District to 
extend public sanitary sewer services to local businesses and allow for 
future economic growth in Barboursville, West Virginia. To assist this 
area that was negatively impacted by the decline in the coal and other 
extraction industries and the associated loss of jobs and income, this 
EDA investment will keep businesses in the area open and allow them to 
continue serving their community. Additionally, this investment will 
attract private investment, advance economic resiliency and directly 
impact the growth and viability of both current and future businesses 
throughout the region.

    EDA is an agile and dynamic organization that has been able to 
successfully meet the needs of thousands of grantees facing a wide 
array of economic development challenges. EDA's success is a direct 
reflection of the strong partnerships we have built and maintained with 
a range of stakeholders including over 390 EDDs, 60 University Centers, 
and 50 Tribal partners. These partnerships reflect the bedrock 
principle that sustainable economic development should be locally 
driven and responsive to the varied needs of communities.
    Since EDA was last authorized in 2004, the economic conditions that 
communities face have changed and evolved. Over the last seventeen 
years, new industries have emerged while other sectors have declined, 
regions have encountered and responded to devastating natural 
disasters, and we have all suffered the impacts of a global pandemic.
    EDA has also evolved. The bureau has improved its business 
practices to be more responsive to its customers, launched new 
evaluation tools and economic models and, over the past four years, 
grown exponentially in size and budget. In 2017, EDA had an annual 
appropriation of $276 million. In 2018 and 2019, through two disaster 
recovery supplementals, EDA's budget authority grew to $901.5 million 
and $904 million respectively. In 2020, Congress provided the agency a 
historic influx of $1.5 billion under the Coronavirus Aid, Relief, and 
Economic Security (CARES) Act, in addition to $333 million in annual 
appropriations. Less than one year later, EDA has received an 
additional $3 billion in funding under the American Rescue Plan (ARP) 
Act of 2021.
    This growth in appropriations has also result in rapid growth in 
EDA's headcount. Using the temporary hiring authority EDA received 
under the CARES Act, EDA successfully solicited and reviewed over 3,000 
resumes and on-boarded 83 staff (with three more pending), many within 
30-60 days, a record for EDA. These new staff helped EDA obligate over 
two-thirds of the CARES Act funding within one year of Congress 
enacting the CARES Act and has EDA well-positioned to obligate the $3 
billion from the ARP Act by September 30, 2022. By contrast, using 
regular hiring methods, EDA struggled to on-board staff quickly enough 
to deliver on the two $600 million disaster supplements. Thanks to the 
additional hiring authorities, and the dedication and hard-work of 
EDA's existing staff, EDA expects to be able to obligate $4.5 billion 
in supplemental pandemic-related funding in approximately two and a 
half years.
    Notably, since our last reauthorization, EDA has been recognized 
for 1) our work in disaster recovery as the lead in economic recovery 
under the National Disaster Recovery Framework, 2) leadership in 
federal resource integration and collaboration, and 3) the creation of 
a robust regional innovation program that continues to grow as 
authorized by the America Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Education, and Science (COMPETES) 
Act.
    What hasn't changed for the last 55 years is EDA's continued 
ability to rise to the challenge and ensure the funds entrusted to us 
are invested in an equitable, fair and impactful manner and that we are 
reaching the communities most in need of our assistance. We are proud 
of the bureau's accomplishments and believe that we can expand our work 
to assist distressed American communities especially in the current 
economic climate.
                    Economic Impacts and Assessments
    EDA's investments are highly effective and generate significant 
impacts. As reported by SRI International in a 2017 study, ``EDA makes 
a substantial number of infrastructure grants directly to organizations 
and communities across the nation to support projects to improve roads, 
highways, water supplies, and other critical infrastructure components 
. . .
    In many situations, EDA funds act as the primary catalyst for other 
funding--that is, without the support and funding of EDA, many projects 
would struggle to attract the necessary capital. EDA grants act as a 
signaling mechanism to validate the project and mobilize outside 
investment.''
    Looking at EDA infrastructure investments between 2000-2010, SRI 
International's analysis found that, for every dollar EDA invested, 
$17.5 in additional private investment dollars were generated. This 
same study also found that, across the 11 years of analysis, using the 
combined impact of project costs and private investment generated, EDA-
supported projects and the investment they attracted generated an 
average of an additional 56,554 jobs, $3.187 billion in wages and 
salaries, and $4.053 billion in personal income each year. From these 
results, SRI calculated that on average for every $6,368 in EDA 
funding, a new job was created.
    Additionally, EDA recently concluded an internal assessment of 
infrastructure projects awarded between 2001 and 2015, using grantee 
reporting of the number of jobs created or retained as a direct result 
of EDA investments. The timeframe of 2001 to 2015 was used to allow us 
to focus our analysis on data reported at six years following an award 
(2021 being six years after 2015), which EDA has found to be its most 
informative timeframe following award in terms of projects being 
completed and response rates from grantees. This analysis showed that 
for every $6,645 in EDA funding, a new job was created, consistent with 
SRI's findings in their 2017 report as adjusted for inflation. EDA is 
in the early stages of engaging another outside partner to update and 
validate this data.
                         Ensuring Effectiveness
    While EDA has been exceedingly successful in implementing its 
programs, our rapid growth in recent years and the ever-shifting 
economic development landscape means we must constantly be reassessing 
how we meet the challenges of the future.
    As noted above, over the past four years, EDA has increasingly been 
called on to play a prominent role in disaster recovery efforts, 
including two $600 million disaster supplementals in Fiscal Years 2018 
and 2019, $1.5 billion under the CARES Act, and now $3 billion under 
the ARP Act. Providing aid to communities in immediate need is one of 
the most important responsibilities we have been entrusted. To that 
effect, we are continuously looking for ways to streamline our internal 
processes. For example, we are continuing to assess new ways to onboard 
staff as quick as possible so we can be positioned to rapidly deploy 
economic development to communities in need during severe disaster 
seasons.
    We are also looking into ways to elevate our disaster recovery 
posture internally. Given this is a large and now consistent part of 
EDA's portfolio, we are analyzing how best to build a core staff with 
the capacity and expertise to respond to future disasters 
expeditiously.
    We are also looking into ways to improve our ability to deliver 
economic development results in key growing sectors. One such example 
is broadband. In many rural or underserved areas there is often only 
one for-profit provider that is willing to install broadband because 
the profit margins are too low. As such, communities often have to be 
able to work these companies on commercially attractive terms to ensure 
broadband is constructed in their area and operated effectively 
afterward. EDA is looking into ways to help facilitate our ability to 
catalyze broadband adoption more effectively in needy communities. As 
mentioned earlier, PWEDA is now over 50 years old, and was conceived 
with the aim of delivering traditional infrastructure like roads, 
water, and sewer. As EDA looks toward the future, we must broaden our 
horizon with an eye toward 21st century technologies and sectors that 
our communities will need access to if they want to be competitive 
moving forward. To that effect, EDA has programs like Build2Scale, 
which builds regional economies through scalable startups by supporting 
entrepreneurship and company growth, access to capital, and technology 
commercialization; and, the STEM Talent Challenge, which creates and 
implements innovative science, technology, engineering and mathematics 
(STEM) apprenticeship models that expand regional workforce capacity to 
support innovation driven businesses.
    Finally, throughout the last few disaster seasons and the pandemic, 
EDA's network of EDDs have shown their value in helping develop and 
adapt regional recovery plans to help communities build back stronger 
and more resilient, while also developing and managing key economic 
development projects in various jurisdictions. EDDs have been able to 
do this while often struggling to secure the local match required to 
participate in an EDA grant. As such, EDA is looking into ways to 
stabilize our EDD network to maximize their continued positive impact 
on EDA's work As we continue to assess how best to position EDA for 
future success, we look forward to working closely with our 
stakeholders, other Federal agencies and Congress.
                               Conclusion
    Chairwoman Titus, Ranking Member Webster, thank you for the 
opportunity to address you today. EDA's accomplishments reflect our 
commitment to encourage collaborative regional economic development, 
promote innovation, cultivate entrepreneurship, build a well-qualified 
workforce, and position our economic development partners to be more 
resilient, agile, and competitive in the global marketplace. Restoring 
economic prosperity to all parts of the nation is an important priority 
of the Administration and EDA is well-positioned to leverage its 
strengths in furtherance of this goal. I look forward to answering any 
questions you may have.

    Ms. Titus. Thank you very much, Mr. Secretary. We will now 
move on to the Members' questions. Each Member will be 
recognized for 5 minutes, and I will start by recognizing 
myself.
    I would like to talk to you, Mr. Secretary, about the new 
set-aside for communities that have been so hard hit by the 
drop in tourism. We know that that was just devastated by the 
pandemic. People were not traveling. They couldn't go anywhere. 
They didn't feel like being on holiday. Sixty-five percent of 
total unemployment last year was in that hospitality, travel, 
and tourism sector.
    Now, we set aside 25 percent for Economic Adjustment 
Assistance for those communities, and I wonder if you could 
tell us where you are in the process of getting that money out, 
setting up regulations. Is there anything else we need to do to 
help you move that along, and make that work the way it was 
intended?
    Mr. Alvord. Thank you, Chairwoman. You know, we 
unquestionably see the opportunity of assisting this particular 
industry sector, and that, as you mentioned previously, it has 
not been traditional for EDA to focus narrowly on a particular 
industry sector.
    But as you also mentioned, given the economic impacts from 
the pandemic, we unquestionably saw that the travel, tourism, 
and outdoor recreation sectors were among the most adversely 
impacted as a result of the global pandemic. So we are thankful 
to have the resources to be able to provide a very targeted 
approach in this case, and addressing those needs.
    I don't think that there are any additional authorities 
that we need in order to be able to implement this assistance. 
We are well along in the program design, and hope to be able to 
soon make that funding available to the broader economic 
practitioner community.
    And we are intending to be incredibly flexible in our use 
of those funds, so that we can meet a broad range of different 
needs.
    The impacts to the travel and tourism sector were very 
widespread, affecting small and large communities alike 
throughout the entire United States. So we certainly want to be 
able to ensure that we can meet all of their different needs.
    And you mentioned before, the importance of helping 
communities to diversify their economies, and we certainly 
couldn't agree more. So we hope that we will be able to put 
some of this funding to use to help communities do just that, 
as well as help bring back tourism, recreation, and other 
activities that have been idle during the pandemic period.
    So we will be funding a mix of strategies for recovery, 
assistance for marketing, to help areas to bounce back quickly, 
as well as core infrastructure investments to help the 
industry.
    Ms. Titus. I think flexibility is important, and I have 
been getting questions about the confusion: can it be used to 
promote, or advertise, or build infrastructure? So the sooner 
we can get those instructions out, I think the better. People 
will be very thankful for that.
    Another question: as we move towards reauthorization, it 
seems to me the need for a codified disaster recovery office at 
EDA just seems more and more necessary. This language was 
included when the House passed the Heroes Act, and I advocated 
for creating such an office. Could you address that, as part of 
our reauthorization considerations, and what capabilities you 
might see such an office having or performing?
    Mr. Alvord. Yes, Chairwoman, thank you for the question.
    Unquestionably, disaster recovery has taken over the 
majority of EDA's portfolio in the last 3 to 4 years, coming on 
the heels of the natural disasters in 2017 and 2018, and then, 
of course, the global pandemic.
    First, I should start by thanking Congress, you and your 
colleagues, for permitting a small reorganization within EDA, 
where we were able to align some of our disaster-related 
functions within the organization, bringing together economic 
development integration in our disaster recovery functions 
within a singular division. I think that is a good first step.
    But what we saw is that it was very beneficial for us to be 
able to aggregate these resources within the bureau. And we are 
particularly appreciative of the flexibility that Congress 
provided to us under the CARES Act and, again, under the 
American Rescue Plan, to be able to have additional hiring 
flexibility, so that we could act in a more agile manner in 
responding to these disasters, and be able to scale up, bring 
on staff quickly in order to be able to deploy resources to 
these hard-hit areas.
    So we would certainly be open to continuing discussions 
with you about that and other areas that we might build upon to 
enhance our role in this space.
    Ms. Titus. Thank you. We look forward to working with you 
on that, because I think that would be something to consider as 
an improvement as we look at reauthorization.
    Mr. Webster?
    [Pause.]
    Ms. Titus. I think you need to unmute, Mr. Webster.
    Mr. Webster. How is that?
    Ms. Titus. That is perfect, thank you.
    Mr. Webster. OK, thank you.
    Mr. Alvord, can you explain the different levels of local 
match under the EDA programs, and what is the process and 
criteria for EDA to adjust or possibly even waiver those 
matches?
    Mr. Alvord. Absolutely. So for EDA's core programs under 
the Public Works and Economic Development Act, generally, we 
require a matching component. Typically, that match starts at a 
50/50-percent match rate. Depending on the levels of economic 
distress exhibited by the community--and we typically look at 
factors such as unemployment and per-capita income--we do have 
the ability to go up to an 80-percent Federal share. In the 
case of Indian Tribes, you can go to a 100-percent share.
    Now, though that is true of our core programs under the 
Public Works and Economic Development Act, in the case of the 
supplemental appropriations that EDA has provided, Congress 
expressly provided authority for EDA to go up to 100 percent. 
So what we find is that a lot of the work that we have been 
doing under those disaster supplementals--the CARES Act and the 
American Rescue Plan--is really occurring at the higher grant 
levels, at 80 percent and above.
    And we do have the ability in truly exigent circumstances 
to be able to waive those matching requirements through our 
traditional programs, as well. Typically, we are looking for 
some indication that the community has effectively exhausted 
its taxing [inaudible] authority.
    Mr. Webster. Thank you. Just as it is with the chair, 
tourism and travel is important to us. I am from Florida. And 
with respect to set-aside in that particular area, what 
approach do you think you will be taking in order to facilitate 
that?
    Mr. Alvord. Yes, well, as I mentioned, we do want to ensure 
that we are able to meet a broad and diverse range of needs 
from across the country.
    And unfortunately, the funding that was provided under the 
American Rescue Plan was pursuant to our economic adjustment 
authority, which is our most flexible authority. It allows us 
to engage in a wide range of activities, including things like 
recovery strategies, market feasibility studies. We are able to 
capitalize locally and regionally through the revolving loan 
funds, as well as invest in various different types of 
infrastructure that can enable industries to diversify, bounce 
back, and grow.
    And in the case of travel and tourism in particular, we are 
aware that there is high demand for things like marketing in 
order to encourage tourism to return to areas that have seen a 
significant downfall during the pandemic, but as well as 
infrastructure, to diversify the economies of areas that have 
been highly reliant on a single industry sector such as 
tourism.
    So we fully anticipate making a range of different types of 
investments.
    Mr. Webster. Mr. Alvord, how critical is broadband to 
farmers to keep up with the evolving agriculture industry?
    Mr. Alvord. You know, I truly believe that there are no 
low-tech industries any longer. As we look at the 21st-century 
economy, broadband has become a critically important enabling 
tool for almost every industry sector. The pandemic certainly 
shined a spotlight on that need, where we saw significant 
demands for broadband in underserved areas, in particular. So 
media can play a critically important role in helping to 
address those needs.
    Mr. Webster. Thank you so much. I yield back.
    Ms. Titus. Thank you, Mr. Webster.
    Ms. Norton, you are recognized for 5 minutes.
    Ms. Norton. Thank you, Madam Chair.
    Mr. Alvord, I am interested that environmentally 
sustainable economic development is, of course, a priority for 
your agency, because it is also essential for improving our 
country's competitiveness.
    EDA is tasked with supporting green, and this is my 
interest: green or nature-based versions of its traditional 
grant-based investments. And I am pleased that your agency 
recognizes it is a key component of advancing and, indeed, 
growing the economy. The benefits of using nature-based 
approaches to tackle economic and infrastructure challenges are 
becoming more widespread, and I am pleased that they are 
becoming more commonly accepted as good practice for enhancing 
resilience, while creating private-sector jobs and spurring 
innovation.
    I wonder if you could share with us what steps EDA is 
taking to ensure its grant awards are supporting sustainable, 
nature-based economic development, and whether EDA is working 
with experts to guide these investments.
    Mr. Alvord. Thank you, Congresswoman, for the question. I 
appreciate that very much. This is an area that I feel, 
personally, very passionate about. In fact, I came to public 
service as the agency's first national brownfields coordinator, 
which, of course, had a focus on the dual objectives of both 
spurring economic development, but also ensuring environmental 
cleanup and environmentally sustainable development.
    So we have had a long history, actually, working in the 
environmentally sustainable development space. We, as I 
mentioned, have been involved with brownfield revitalization 
for many years. We also implemented, some years ago, the Global 
Climate Change Mitigation Incentive Fund, which focused very 
much on green buildings, and ensuring greater levels of energy 
efficiency as part of some of our infrastructure development.
    And now, of course, we have just launched a new investment 
priority on environmentally sustainable development, and we are 
taking an even broader approach there. This investment priority 
will focus on how we can leverage green products, processes, 
places, and buildings to ensure a more sustainable economy.
    And as you mentioned, there are significant opportunities 
in the growing green energy and environmental sector for 
innovation, commercialization, and future investment to grow 
our economy. But there are also significant opportunities to 
leverage improvements in the way that we undertake our 
development to ensure that it is done in a more sustainable 
manner, and EDA intends to incentivize exactly those types of 
investments through this priority.
    Ms. Norton. I note your mention of climate change, which, 
as far as I am concerned, should be a number-one priority in 
our country. I wonder if you would elaborate more on the 
current and perhaps even future impacts of climate change, and 
how you take that into consideration when evaluating 
applications for public works projects.
    Mr. Alvord. Yes, that is such an important question, and it 
is something that we have been more and more involved in as we 
have become more and more involved in disaster recovery work. 
And it complements, I think, very well another one of our 
assessment priorities, which is economic and environmental 
resilience.
    And so, when we are looking at helping economies to bounce 
back and build back more quickly, we want to make sure that we 
are putting infrastructure in place that is going to be more 
resilient. And of course, we are also sensitive to the cost of 
that infrastructure, and recognize that there is a significant 
cost in terms of energy and developing construction materials. 
Of course, there is embodied carbon within those materials. And 
we want to make sure that we are building sustainably, so that 
we don't have to deconstruct and reconstruct over and over 
again to support our economy.
    So we are certainly very focused on that, both at the front 
end, in terms of the types of investments that we support, but 
also on the back end in the way that we are implementing those 
projects.
    Ms. Norton. Thank you very much. My time has expired.
    Ms. Titus. Thank you. Certainly, that would be a priority 
that, if you have this special division for disaster 
mitigation, it could fit right into.
    Mr. Alvord. Absolutely.
    Ms. Titus. I now recognize Mr. Guest for 5 minutes.
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Secretary, first I want to thank you for being with us 
today to discuss the importance of the reauthorization of EDA. 
I was excited to read in your report, where you say: ``We are 
also looking into ways to improve our ability to deliver 
economic development results in key growing sectors. One such 
example is broadband.'' And I know that you spoke on broadband 
moments ago with Representative Webster.
    I believe that we have seen, particularly in the world of 
COVID-19, the importance of high-speed internet for families 
and individuals. We see individuals who are working from home, 
who are being educated from home, who are shopping from home, 
worshiping from home, who are receiving their healthcare from 
home through telemedicine.
    And I also believe that broadband is a key component in 
economic development, particularly in rural and remote 
communities. And I would often argue that the deployment of 
high-speed and reliable broadband is the most important thing 
that we can do for rural America. Whether it be manufacturing, 
agriculture, or small business, high-speed internet, which once 
was a luxury, is now becoming a necessity.
    With that in mind, that is why my office was proud to 
partner with Ranking Member Graves on the E-BRIDGE Act, which 
would expand the capabilities of your agency to provide high-
speed broadband development initiatives with existing grant 
programs.
    And so I would like, Mr. Secretary, if you will for just a 
few moments, if you can expand on the role that EDA plays in 
broadband development, and how the enhancement of legislation 
like the E-BRIDGE Act would better allow EDA to assist our 
communities.
    Mr. Alvord. Thank you, Congressman Guest, for the question. 
I couldn't agree with you more about the importance of 
broadband as a critical enabling factor for successful economic 
development. Just in the way that roads and water and sewers 
and rural electrification was critically important to enabling 
our economy in the past, broadband has served that role today. 
And EDA supports broadband in a variety of different ways.
    We have done a lot of work supporting planning and market 
feasibility studies to help communities figure out the best 
solution for their regions. There is a lot of variability 
across our diverse country. In some cases, it makes sense to 
run fiber. In other cases, wireless solutions are more 
appropriate, given the geography. And we can certainly help 
communities with that aspect of exploring broadband.
    We have also supported broadband infrastructure, actually 
helping to bring fiber to communities. We haven't had adequate 
appropriations to do large investments in trunk lines to bring 
broadband to previously underserved areas, but we have had some 
success on a smaller scale, particularly in a business context, 
being able to support broadband, bringing broadband to an 
industrial park or a science park, helping to bring broadband 
maybe that last mile, or at a building scale.
    I think one of the things that we found is that, unlike 
more traditional infrastructure, which was based on a public-
public relationship, broadband infrastructure is quite often 
based on a public-private partnership in order to be able to 
deploy that. And so this is one area where EDA's authorization 
statute perhaps has not kept up with traditional times.
    And we were pleased to provide some technical drafting 
assistance to the sponsors of the E-BRIDGE Act, and we would 
certainly be open to continuing to explore what might be most 
appropriate in the context of a future EDA reauthorization.
    Mr. Guest. Mr. Secretary, thank you again for joining us, 
and thank you for your continued support for broadband. Please, 
as there are ways in which we, as Members of Congress, can 
continue to make sure that we are making broadband available to 
our rural communities, that we are promoting that economic 
development, please continue to have an open dialogue with us, 
and let us know what we can do to better partner with you.
    Mr. Alvord. Thank you.
    Mr. Guest. Thank you, Madam Chairman, and I yield back.
    Ms. Titus. Well, thank you, Mr. Guest. Be sure you keep us 
up to date with your E-BRIDGE bill, so we can build some of 
that into our reauthorization. It sounds like there is a lot of 
interest in that, and a lot of need for it. It would be very 
helpful.
    I will now go to Mr. Pappas for 5 minutes.
    Mr. Pappas. Well, thank you very much, Madam Chair.
    And Mr. Alvord, I appreciate your comments, and really look 
forward to working in a bipartisan fashion to realize a 
reauthorization of EDA, which is so crucial. I want to thank 
you for all the work that you have done through this tough 
time. And I appreciate the attention that you have brought to 
some of the critical programs here.
    One of the issues that I hear about when I talk to 
businesses in my district, especially manufacturers, is 
challenges around workforce. I mean, we are already seeing, in 
my State of New Hampshire, a 3.2-percent unemployment rate. We 
know there are more that still have to return to the workforce. 
But this is going to be a long-term challenge to figure out how 
we recruit, retain, train the workforce of tomorrow to make 
sure that we are aligning the skills with the needs of our 
companies.
    So I am wondering if you could offer some thoughts about 
how EDA can help employers with these necessary efforts to find 
skilled workers, to help them recruit, and to ensure that they 
can really reach their full economic potential.
    Mr. Alvord. Thank you, Congressman, for your support, and I 
certainly look forward to working with you, as well.
    Workforce is an area that we have seen significant 
increased demand for EDA assistance over the last several 
years. And so we have begun to invest more and more heavily in 
this area. And it is certainly an area that we see receiving 
some enhanced focus under the American Rescue Plan 
implementation, as well.
    Over the last year we had the opportunity, for the first 
time, to implement a program that has been on the books and 
authorized for quite some time under section 28 of the 
Stevenson-Wydler Act or America COMPETES, called the STEM 
apprenticeship program.
    And for the first time last year, we received $2 million in 
appropriations to implement that program, which is not a lot in 
the context of the greater workforce development needs across 
the country, but it did give us the opportunity, for the first 
time, to have a very targeted competition in this space. And we 
had a very robust competition that was highly subscribed, and 
we ended up making seven awards for that $2 million across a 
diverse range of applicants.
    We had an Alaska Native community, a small rural community 
college, an urban recipient, and so we are very much looking 
forward to seeing the results of this initial cohort of 
awardees, and what lessons we might take away from that 
experience that we would be able to scale, then, in the context 
of our other programming.
    Unquestionably, one of the trends that we have seen is 
that, when we are able to align specific industry needs within 
a region and the workforce training programs, we get much 
better results. And EDA is able to, again, invest in both the 
hard and the soft infrastructure to support workforce 
development and training.
    Mr. Pappas. Well, terrific. Well, thanks for that, and I 
would be interested to hear the impact that that $2 million 
makes for those seven awardees. And if there is any additional 
detail on that, please let us know.
    One final question. I know, contained within the proposal 
that the administration has put out, the American Jobs Plan, it 
mentions lifting the $3 million infrastructure cap on how much 
can go to projects. I am just wondering if you have thoughts on 
EDA-funded infrastructure projects, as they can be a catalyst 
for economic growth, and what level of investment do you see as 
necessary to address our infrastructure needs.
    Mr. Alvord. Yes, thank you, Congressman, for that question. 
It is a great opportunity to clarify in that way.
    So there is not a statutory cap on any of EDA's programs, 
not in our public works and infrastructure programs, or any of 
our other programs. I can certainly understand why there may 
have been a perception that there is a cap, because, 
practically speaking, EDA does entertain a lot of investments 
in that price range. We have a variety of different types of 
proposals. They quite often come in a $1.5 to $3 million range. 
So I can see why there might have been a sense that there was a 
cap.
    In essence, it was probably largely driven by the fact 
that, at our appropriation levels, we can only support so many 
investments at a certain level. What we have seen, under the 
various disaster supplemental appropriations, is quite a lot 
more investment activity at higher levels. And there is, in 
fact, a significant demand for that type of investment at the 
$5, $10, even $15 million infrastructure range.
    Mr. Pappas. Well, terrific. Thanks for the clarification on 
that. I appreciate your work, and I yield back.
    Mr. Alvord. Thank you.
    Ms. Titus. Thank you. Mr. Carbajal, you are recognized for 
5 minutes.
    Mr. Carbajal. Thank you very much, Chairwoman Titus.
    Across the Nation, U.S. nuclear capacity is estimated to 
fall by 10.5 gigawatts by 2025 with the closing of 12 reactors, 
including the Diablo Canyon nuclear reactor in my district. The 
closure of the Diablo Canyon nuclear powerplant will have a 
significant economic impact in my region and my district. The 
powerplant currently employs roughly 1,500 individuals, with an 
average salary of $157,000.
    Many of my constituents are rightfully worried about the 
job loss that will happen after the closure of the Diablo 
Canyon powerplant. In Congress, I have worked with my 
colleagues to include over $15 billion to the Economic 
Development Administration to be able to provide funding for 
competitive grants, and assist communities facing closure of 
nuclear powerplants.
    I have a three-part question for you.
    Can you provide an update on how this funding is being 
allocated?
    Two, how is EDA working with communities to create plans to 
mitigate job loss, and is workforce retraining part of those 
efforts?
    And lastly, are there success stories or examples you could 
share with us on this program?
    I am currently exploring ways to continue to support it.
    Mr. Alvord. Thank you very much, Congressman, for that 
question. And this is a newly emerging priority area within 
EDA's portfolio, and we appreciate the additional resources 
Congress has provided us to do work in this area.
    As you mentioned, for the last couple of years, we have 
received dedicated funding to assist communities that have 
nuclear powerplants that have come to the end of their useful 
life, and they are looking at transitioning their economies 
into new areas.
    We have begun to implement that assistance. We developed an 
allocation algorithm to allocate that assistance across EDA's 
six regional offices based on a variety of criteria, including 
the number of such facilities that they have, and the various 
phases that those facilities are in, as well as various 
economic distress and other traditional criteria that we look 
at. And they have begun to reach out to communities and solicit 
applications for that assistance.
    The communities are at very different stages. Some have 
plants that have already closed, and they have already faced 
the economic impacts, and the outfall that has resulted from 
that closure. Others are facing an imminent closure, and they 
are beginning to plan and prepare for that. And for others, 
that closure may be much further out, but we certainly 
encourage them to also consider diversifying their economy.
    One of the challenges that many of these communities have 
is that they were not highly diversified. They were very, very 
focused on the power generation, and the resulting supply chain 
industries. And as a result, when they go away, it does have a 
very, very significant impact on the economy.
    Now, we don't have a lot of successes to report in this 
area to date, because we are just beginning our investment 
activity. But I do think we have a number of relevant and 
germane examples from work that we have done across other 
sectors.
    So for the last several years EDA has been investing very, 
very heavily in assistance to coal communities. And many of the 
characteristics are very similar, where, you know, the main 
industry that the community is reliant upon has changed, 
something has changed that undermines the base of the economy. 
And therefore, they need to look at new opportunities to 
diversify.
    To your question about workforce, workforce has to be part 
of the equation. It is a critically important building block. 
And in most cases, what we need to be able to do is work with 
industry closely to be able to understand what needs they have, 
what skill sets they are looking to acquire, so that we can 
then work with community providers to develop systems and 
training programs to be able to transition the workforce into 
those new jobs.
    Mr. Carbajal. Thank you. With the remainder of my time, one 
of the EDA's new investment priorities is an effort to increase 
planning or implementation projects that advance equity. How 
does EDA plan to incorporate equity considerations into its 
grant programming?
    Mr. Alvord. Yes, we have recently revised our investment 
priorities, and we have made equity our number-one priority, 
recognizing that it is critically important that we go out of 
our way to focus our attention on those communities that are 
most in need of our assistance. Statutorily, we have a focus on 
economically distressed areas and regions.
    With the equity priority, we will be taking a very 
proactive approach to reaching out to underserved communities, 
to minority communities that may not have been aware of EDA 
assistance in the past, and educating them about the resources 
that are available, and frankly, providing a little bit of 
extra technical assistance to ensure that they are able to 
competitively compete for the resources that we have available. 
And we will also be considering that as part of our evaluation 
criteria, to make sure that we are getting to those 
communities.
    I recently had an occasion to participate as part of a 
Department-run Tribal consultation, and I was very struck by 
hearing many of the Tribal leaders comment about the fact that 
they just weren't familiar with the full panoply of programs 
that the Commerce Department provides. I think it is really 
incumbent upon us to be proactive in reaching out to these 
underserved communities to make sure that they are, and can 
avail themselves of those opportunities.
    Mr. Carbajal. Thank you, Mr. Alvord. I am out of time.
    I yield back, Madam Chair.
    Ms. Titus. Thank you. You bring up a very good point, 
though. Maybe some of your staff would be willing to work with 
our offices to do roundtables or public hearings to inform 
different communities about the programs that you have 
available. So we would like to work with you on that. I know my 
district would benefit from it, so I am sure----
    Mr. Alvord. Chairwoman, we would welcome the opportunity, 
we really would.
    Ms. Titus. Great, all right. We will work on that. Well, 
thank you, Mr. Secretary. Your comments have been very 
enlightening. We have certainly appreciated your time. And we 
will be working with you pretty extensively as we move this 
reauthorization forward, and as we get some of your folks out 
into the district.
    We will add all those comments to the record. And if there 
are no further questions, I will call up panel 2.
    Thank you so much, Mr. Assistant Secretary.
    Mr. Alvord. Thank you for having us.
    Ms. Titus. I would ask the witnesses on panel 2 to please 
turn their cameras on and keep them on for the duration of the 
panel.
    I would now like to welcome the witnesses on the second 
panel: Ms. Lisa Cooper is executive director of the Northern 
Kentucky Area Development District; Mr. Garrett Hawkins is 
president of the Missouri Farm Bureau; Mr. Jonas Peterson is 
president and CEO of Las Vegas Global Economic Alliance; the 
Honorable Lenny Eliason is the commissioner of Athens County, 
Ohio; and Mr. Dan Carol is the director of the Milken Institute 
Center for Financial Markets.
    So thank you all for being with us today. We look forward 
to hearing your testimony.
    Without objection, your full testimony will be included in 
the record. And, as with the previous panel, since it is 
included, the committee would request that you limit your oral 
testimony to 5 minutes.
    I would now like to recognize Mr. Massie, who is connected 
to our first witness, and can give us an introduction to her.
    Mr. Massie. Thank you, Madam Chairwoman. It is my honor and 
pleasure to introduce my friend and northern Kentucky native, 
Lisa Cooper.
    She got her bachelor of business administration degree at 
the University of Kentucky, and her master's in public 
administration from Northern Kentucky University. And she is 
the executive director of the Northern Kentucky Area 
Development District. It covers eight counties in northern 
Kentucky, and it is one of the most prosperous areas of 
Kentucky. Even though we have been hit by COVID, as everybody 
else has been hit, it is one of the lowest areas for 
unemployment.
    And so I would just like to say in the introduction that I 
think it is prosperous, based in large part, on her work and 
her leadership as the executive director at that area 
development district. She has worked on community development, 
human services, and workforce development, which was mentioned 
in the previous panel. So she has a great perspective, and I 
welcome her today.
    Ms. Cooper. Thank you so much, Congressman Massie, for 
those kind words. I really appreciate it.
    Ms. Titus. Thank you, Mr. Massie.
    Just a second, Ms. Cooper. OK, now you are recognized, and 
you can proceed for 5 minutes.

TESTIMONY OF LISA COOPER, EXECUTIVE DIRECTOR, NORTHERN KENTUCKY 
     AREA DEVELOPMENT DISTRICT, ON BEHALF OF THE NATIONAL 
  ASSOCIATION OF DEVELOPMENT ORGANIZATIONS; GARRETT HAWKINS, 
PRESIDENT, MISSOURI FARM BUREAU, ON BEHALF OF THE AMERICAN FARM 
    BUREAU FEDERATION; JONAS PETERSON, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, LAS VEGAS GLOBAL ECONOMIC ALLIANCE, ON 
BEHALF OF THE INTERNATIONAL ECONOMIC DEVELOPMENT COUNCIL; HON. 
LENNY ELIASON, COMMISSIONER, ATHENS COUNTY, OHIO, ON BEHALF OF 
THE NATIONAL ASSOCIATION OF COUNTIES; AND DAN CAROL, DIRECTOR, 
         MILKEN INSTITUTE CENTER FOR FINANCIAL MARKETS

    Ms. Cooper. Thank you so much, Chairwoman Titus, Ranking 
Member Webster, and members of the subcommittee. Thank you for 
the opportunity to testify today on the U.S. Department of 
Commerce and Economic Development Administration, and its 
importance to my community, our region, and our country.
    As Congressman Massie said, my name is Lisa Cooper, and I 
am the executive director of the Northern Kentucky Area 
Development District. We are a regional planning and 
development organization based in Florence, Kentucky. And we 
serve 8 counties and 54 cities. Our core mission is to 
facilitate economic development and community development 
efforts in our region, and to serve as a regional convener. We 
have a board that is made up of both local elected officials, 
as well as regional community leaders.
    In addition, I also serve as a board member of the National 
Association of Development Organizations, known as NADO. NADO 
represents hundreds of organizations like mine that are EDA-
designated economic development districts across the country. 
We help deploy Federal funding into local projects, support 
business growth, facilitate both urban and rural planning, and 
provide community services and technical assistance, and ensure 
compliance and accountability with a lot of the programs that 
we work with EDA on.
    So today I would like to take a few minutes and share a few 
examples of the significance of EDA to my community.
    EDA investments have many important impacts across our 
region. One example is the recent EDA SPRINT grant that has 
been received by Northern Kentucky University. This is going to 
help leverage the university's expertise in data analytics, 
healthcare, technology, and logistics into a regional incubator 
and regional projects. This grant supports innovation and 
entrepreneurship, and does help promote economic 
diversification throughout our region.
    Another very different project involved EDA funding through 
its public works program for Carroll County, which is one of 
our rural counties, and three surrounding rural counties for a 
regional wastewater treatment plant. This project not only 
helped mitigate some very concerning environmental hazards for 
the area, but it has allowed for the consolidation of a number 
of smaller treatment plants. So this is resulting in things 
like cost savings, better services to residents and businesses, 
and it has also allowed them to expand their economic 
development efforts.
    And then thirdly, I wanted to talk just a little bit about 
our EDA revolving loan fund. We have operated this program for 
24 years. And last year, when it was recapitalized after EDA 
received some supplemental funds for the CARES Act, this 
allowed us to provide loans to small businesses to help them 
stay afloat and stay in business through the COVID-19 pandemic.
    For all of these reasons, I do want to emphasize the 
importance of reauthorizing the EDA. But in doing so, I would 
also like to ask you to consider making some further 
enhancements to EDA programs and funding.
    So first, a very critical component of EDA's investment 
approach is the EDA partnership planning grants that are 
provided to economic development districts like mine. These 
planning grants lay the foundation for subsequent investments 
into community projects.
    So, in my experience, the basis for successful project 
implementation begins with a robust and inclusive planning 
process that promotes regional input.
    Secondly, I would recommend consideration of amending the 
Public Works and Economic Development Act of 1965 to specify 
that EDA investments into high-speed broadband development are 
eligible uses. NADO did endorse, last session, the bipartisan 
E-BRIDGE legislation that Congressman Guest and Chairwoman 
Titus mentioned earlier. And we would encourage the committee 
to pursue reforms of this nature that we think could be very 
beneficial.
    In reauthorizing EDA, I respectfully request Congress to 
place some emphasis on increased funding for EDA's public works 
program, research and national technical assistance program, 
and the partnership planning grants. These funding sources are 
the most important to organizations like mine, but most 
importantly to the communities and the residents that we serve.
    I would also ask you to consider an overhaul of EDA's 
economic distress formula to ensure a more inclusive and 
equitable pattern of investment across the country. Currently, 
the formula requires communities to invest as much as 50 
percent of the total project cost, and this can be prohibitive. 
Even for the most underserved and distressed communities, the 
maximum allowable Federal grant at this point is 80 percent, 
except in very rare cases. So I would encourage Congress to 
consider including direction for EDA's economic distress 
formula to be overhauled, and they can have a more reliable 
pattern.
    And finally, I would encourage support for the 
recommendation made by EDA's Stakeholder Coalition, a group of 
national organizations that have come together in support of 
EDA's funding and program, to increase EDA's annual authorized 
funding level to $3 billion. EDA's current funding level does 
not accurately reflect the importance of EDA's role as the 
leading Federal agency with a focus solely on economic 
development.
    So, in closing, EDA has been a crucial Federal partner for 
my region, and EDA's investments have a proven record of 
success. I encourage you to support not only the 
reauthorization, but also the increased funding for the agency.
    Thank you so much for the opportunity to address you today, 
and I look forward to answering any of your questions.
    [Ms. Cooper's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Lisa Cooper, Executive Director, Northern 
     Kentucky Area Development District, on behalf of the National 
                Association of Development Organizations
    Chairwoman Titus, Ranking Member Webster, and members of the 
Subcommittee, thank you for the opportunity to testify today on the 
U.S. Department of Commerce Economic Development Administration (EDA) 
and its importance to my community, my region, and our nation.
    My name is Lisa Cooper, and I am the Executive Director of the 
Northern Kentucky Area Development District (NKADD), a regional 
planning and development organization which is based in Florence, 
Kentucky and serves a geographic region comprised of eight counties. My 
organization's core mission is to facilitate economic and community 
development and regional collaboration. Our board is comprised of local 
officials including mayors and county officials as well as non-elected 
citizen members from each county in our region.
    I also serve as a board member for the National Association of 
Development Organizations, known as NADO. NADO represents hundreds of 
other Regional Development Organizations (RDOs) and EDA-designated 
Economic Development Districts (EDDs) like mine across the country. 
These regional organizations serve as catalysts for regional economic 
development, urban and rural planning, business growth and support, 
public-private partnerships, and strategic initiatives designed to 
fulfill locally-identified priorities. Regional Development 
Organizations and EDDs across the country collectively assist thousands 
of cities and counties across the country with initiatives and projects 
focused on economic development, workforce training, transportation 
planning, public infrastructure, affordable housing, disaster 
prevention and response, public health, and other community services.
    Today, I will address three core issues pertaining to the U.S. 
Economic Development Administration:
    1.  First, I will explain the importance of EDA funding and 
programs to my community and my region.
    2.  Second, I will highlight the significance of the EDA 
supplemental funding that my organization received through the CARES 
Act, and I will explain how it is helping my community's economy 
recover from the impacts of the pandemic.
    3.  Finally, I will underscore the importance of reauthorizing the 
EDA, and I will recommend opportunities for reforms and enhancement of 
the EDA and its programs that could be implemented through 
reauthorization.

    First, I will begin by highlighting the significance of EDA to my 
community and my region. My organization acts as a convener of local 
elected officials, economic development practitioners, business 
leaders, non-profit organizations, educators, and other stakeholders 
within a defined geographic region in Kentucky. We serve the region by 
providing services and technical assistance, such as strategic 
planning, project development and implementation, and by facilitating 
access to capital. We also help deploy federal, state, and local funds 
into the region, and we help to ensure compliance, accountability, and 
implementation of projects.
    EDA investments have had a very significant and positive impact in 
my region, as they have supported many successful economic development 
projects, including some that I will highlight today.
    For example, EDA provided funding for the Carroll County Regional 
Wastewater Treatment Plant through its Public Works program to 
regionalize wastewater treatment for Carroll County and three 
surrounding counties. This project not only mitigated environmental 
hazards in the area, but also allowed for the consolidation of a number 
of smaller treatment plants. This has resulted in costs savings through 
economies of scale, better service to residents and businesses, and 
economic development opportunities that were not possible prior to the 
building of the plant.
    Another regional example is the Northern Kentucky University (NKU) 
SPRINT Grant that was provided through EDA's Scaling Pandemic 
Resilience Through Innovation and Technology (SPRINT) Challenge. This 
project leverages NKU's expertise in data analytics, healthcare, 
technology, and logistics into regional projects. It also facilitates 
entrepreneurial innovation and provides the tools that entrepreneurs 
need to thrive, including access to knowledge, access to data, access 
to talent, and access to capital. This project is increasing regional 
competitiveness by enhancing the region's entrepreneurial opportunities 
and capacity, overcoming challenges inhibiting innovation and job 
creation, driving innovations from the initial idea through 
commercialization, and supporting rural and underserved founders, to 
create an ecosystem in which innovators and entrepreneurs will 
strengthen and diversify the regional economy.
    EDA's success stories also extend far beyond my region. In my role 
serving on NADO's board, I work with the executive directors of similar 
organizations across the country whose regions have also benefitted 
immensely from job growth and community development brought about by 
EDA investments. Particularly in economically distressed and rural 
areas of the country, EDA investments are essential.
    Another critical component of EDA's investment approach is the 
Partnership Planning grant funding provided to EDDs. EDA planning 
grants serve as essential building blocks that lay the foundation for 
subsequent investments into community projects and local priorities. 
EDA has been a key partner in helping communities develop Comprehensive 
Economic Development Strategies (CEDS) that facilitate a process of 
assessing distressed regions' changing economic drivers and helping 
them refocus their efforts on investing in locally-identified 
priorities and projects that ultimately lead to job creation and 
retention in our communities, and that help leverage other sources of 
federal, state, and local funding into communities. The network of 
hundreds of EDA-designated EDDs across the country have decades of 
experience in implementing strategic economic development planning. It 
is crucial for EDA to continue funding this planning process as 
communities are called upon to continue to reassess their long-term 
strategic development plans and continue to adjust to changing economic 
conditions. I strongly believe that the basis for effective project 
implementation is to begin with a robust, equitable, and inclusive 
planning process that promotes regional input.
    The second core topic I would like to highlight today is the 
significance of the EDA supplemental funding that my organization 
received through the CARES Act, and how it is helping my region 
recover.
    The $1.5 billion in supplemental relief funding that EDA received 
through the passage of the CARES Act has been essential for my 
community. Since my organization is an EDD in good standing, my 
organization therefore received an invitation letter from our EDA 
Regional Office which invited us to request up to $400,000 in non-
competitive, automatic funding at 100% federal share.
    EDA utilized this automatic, non-competitive process to distribute 
funding to its institutional partners during the pandemic because this 
was the most expedient and efficient way to quickly inject funding into 
communities during a national emergency, and I applaud EDA for using 
this efficient method to quickly distribute needed emergency relief 
funding.
    I truly cannot stress enough how important and valuable the 
automatic, non-competitive approach to provision of relief funding was 
for my organization and region. The infusion of supplemental relief 
funding allowed my organization to quickly hire a disaster recovery 
coordinator to help coordinate my region's response to the pandemic. It 
also allowed our staff to work with our local governments on planning, 
applications, and compliance the myriad of pandemic funding 
opportunities and grants. Many of our communities have volunteer 
elected officials and limited staff, and they would have likely been 
either left out of funding opportunities or unable to comply with 
funding guidelines without the staff we have in place through EDA 
funding to assist them on a daily basis.
    Additionally, the EDA funding provided through the CARES Act also 
allowed my organization to recapitalize our existing EDA Revolving Loan 
Fund (RLF) which we have operated for 24 years. In the past, we have 
used the EDA RLF program to provide loans to small businesses in need 
of working capital. Typically, the EDA RLF program is especially 
beneficial for small businesses and entrepreneurs that might not 
otherwise be able to borrow working capital, because through the EDA 
RLF program, we can provide gap financing at or below market rates. 
During the pandemic, the EDA RLF program became a vital lifeline 
through which my organization could provide small loans that were 
desperately needed by local businesses in order to stay afloat 
throughout the pandemic.
    I also want to express my gratitude and comment EDA for providing 
CARES Act funding to institutional EDA partners at 100 percent federal 
share, with no local match requirement during the pandemic. The 
provision of 100% federal share relief funding allowed my organization 
and region to tap into EDA resources without having to sacrifice local 
resources, and without having to devote significant time to identifying 
and securing other partners and/or other sources of local investment 
during an already severely challenging time, when community resources 
needs far outpaced available resources.
    It is my hope that EDA will continue to use a similar approach to 
the one that was used after the passage of the CARES Act when 
administering the supplemental funding that the agency has received 
through the American Rescue Plan Act. I would also encourage Congress 
to ensure that a similar approach is used to administer any future 
supplemental funding that is provided to EDA for the purpose of 
disaster response or emergency relief.
    The third and final point I would like to highlight today, for all 
the aforementioned reasons, is the importance of reauthorizing the EDA. 
In doing so, I ask that you further enhance elements of EDA's programs 
and funding that are most important to communities like mine, and I 
also encourage you to take advantage of some opportunities for reforms 
of the EDA's that could be accomplished via EDA reauthorization.
    Although EDA continues to operate from year-to-year through the 
annual congressional appropriations process, its last authorization 
lapsed in 2008. I encourage the Committee to support a reauthorization 
of EDA that would protect and elevate EDA's standing as a driver of 
long-term economic growth and federal investment in communities across 
the country.
    In reauthorizing EDA, I encourage you to support an increase in 
EDA's annual authorized funding level to $3 billion. EDA's current 
authorized funding level does not accurately reflect the importance of 
the role the agency plays as the leading federal economic development 
agency, nor does it adequately meet the existing need for community 
development resources. Between supplemental disaster response funding 
and annual appropriations, EDA received nearly $2 billion in funding 
for FY 2020 and more than $3 billion in FY 2021. In FY 2020, the agency 
received requests for funding that far surpassed EDA's available 
funding, which is indicative of both the value of EDA's programs as 
well as the significant and growing need for federal economic 
development resources.
    I also encourage you to place emphasis especially on increasing 
funding for EDA Partnership Planning grants, EDA Public Works funding, 
and EDA's Research and National Technical Assistance (RNTA) programs. 
These funding sources are among the most important to organizations 
like mine across the country, as they serve as the foundations of 
strategic development plans, guide the development and implementation 
of locally-identified projects, and help leverage other sources of 
investment into communities.
    In reauthorizing EDA, I also encourage you to take advantage of 
some opportunities for reform, including the following recommendations.
    <bullet>  I encourage you to reassess and reconstitute EDA's 
economic distress formula, and consider reducing local match 
requirements permanently, in order to ensure a more equitable pattern 
of investment across the country. Currently, EDA's economic distress 
formula requires communities to invest as much as 50 percent of the 
total project cost via matching funds, with EDA providing federal 
funding for the remaining 50 percent of the total project cost. Even 
for the most distressed communities, EDA's standard Notice of Funding 
Opportunity (NOFO) guidance dictates that the maximum allowable federal 
investment rate is 80 percent, which still requires the nation's most 
underserved and severely economically distressed communities to 
contribute 20 percent of the project's overall cost via matching funds, 
except in rare cases as determined by the EDA Assistant Secretary. I 
encourage Congress to consider including direction for EDA's economic 
distress formula to be reconstituted so that all communities--and 
especially distressed communities--can reliably receive a higher 
overall percentage of federal funding. Reducing EDA's matching fund 
requirements is important also because communities will be recovering 
from the COVID-19 pandemic for an extended duration of time.
    <bullet>  I also recommend that you consider amending the Public 
Works and Economic Development Act of 1965 to specify that EDA 
investments into high-speed broadband deployment are an eligible use of 
EDA funds, and to provide funding expressly for this purpose, with an 
emphasis on improving sufficient broadband infrastructure in rural 
communities especially. EDA should make targeted investments into 
broadband projects that provide, expand, or improve high-speed 
broadband access, and EDA funding should support planning and technical 
assistance activities related to enhancing broadband access, as well as 
engineering and construction costs. NADO endorsed the E-BRIDGE 
legislation that was introduced during the last session of Congress, 
and I would encourage the Subcommittee to further pursue this reform in 
reauthorizing the EDA. I also encourage the Subcommittee to generally 
elevate the role EDA plays in helping rural and economically distressed 
communities keep pace with technological advancements, automation, and 
economic shifts.
    <bullet>  I encourage you to amend PWEDA to formally outline and 
designate EDA's significant role in post-disaster assistance for 
impacted communities as well. In EDA's reauthorization, Congress should 
establish an EDA Office of Disaster Resilience & Recovery to preserve 
institutional knowledge and leadership in the economic disaster 
resilience and recovery realm. Enhancing EDA's disaster recovery 
leadership and resources will help communities prepare for and mitigate 
negative economic impacts associated with disasters. I encourage 
Congress to authorize a dedicated fund with annual appropriations for 
immediate responses to economic crises associated with declared 
disasters or states of emergency. In cases where a major disaster or 
emergency has been declared under the Stafford Act, EDA should be 
required to increase the federal share to 100 percent of the project 
cost, waiving all match requirements for any funding appropriated for 
the purpose of disaster or emergency response. EDA has also 
successfully utilized the flexible hiring authority Congress provided 
to the agency to aid in EDA's response to COVID-19. This authority was 
based in part on similar authorities provided to other disaster 
response agencies and should be made a permanent authority. Disasters 
and emergencies require increased resources to ensure timely delivery 
of services while the agency continues to provide vital services and 
resources through their normal, non-emergency related work.
    <bullet>  Finally, I recommend that you codify and provide funding 
for EDA's Economic Development Integration (EDI) role. Although EDA is 
the only federal agency with a focus solely on economic development, 
there are other agencies that engage in economic development efforts. 
Enhanced coordination among federal agencies and divisions supporting 
economic development can yield significant benefits for stakeholders of 
all kinds. Congress should formally establish an EDA Office of Economic 
Development Coordination & Integration to formalize EDA's leadership 
and to emphasize its cross-cutting role in coordinating economic 
development resources across the federal government. Although EDA 
currently has an existing Economic Development Integration (EDI) 
practice, PWEDA should be amended to include language that formally 
establishes EDI and fully outlines its role. I also encourage Congress 
to provide dedicated funding for EDA's EDI practice so that this 
function can become a fully-resourced and fully-staffed division within 
EDA. This would enhance the ability of EDI specialists to conduct on-
the-ground technical assistance in communities across the country, 
ensuring the entirety of the federal government's resources are 
effectively and efficiently utilized in support of local and regional 
economic development.

    As Congress considers proposals to rebuild our nation's 
infrastructure, support economically distressed and rural communities, 
facilitate disaster recovery, and invest in drivers of economic growth, 
EDA remains a strong federal partner to assist in these endeavors. EDA 
has a proven record of success and has been an essential partner, and I 
encourage you to support reauthorization and increased funding for the 
agency.
    Thank you again for the opportunity to address the Subcommittee 
today, and I look forward to answering your questions.

    Ms. Titus. Thank you very much, Ms. Cooper. That was great, 
some good suggestions for us to work on in the reauthorization.
    We will now go to Mr. Hawkins.
    Mr. Hawkins. Good afternoon, Madam Titus, Ranking Member 
Webster, and members of the subcommittee. My name is Garrett 
Hawkins, and I am a fifth-generation farmer from Appleton City, 
Missouri. We live and farm just about 85 miles south of Kansas 
City, and we are the third generation in our family to operate 
the farm that we currently live on today.
    Agriculture runs deep in our family, and spans livestock, 
row crop, and dairy production. I am a proud husband and 
father, and currently serve as president of the Missouri Farm 
Bureau. I appreciate the opportunity to provide input on the 
necessity of rural broadband and its importance to economic 
development in rural America.
    Broadband connectivity is critical in stimulating and 
revitalizing the rural economy. It is essential to modern 
agriculture, the farmers and ranchers who grow our food, and 
the quality of life for those of us who live and work in rural 
America.
    In Missouri, I see the need for broadband in rural 
communities every day. One family I know operates a soil lab, 
with customers worldwide. Until recently, they struggled to 
find an affordable, reliable broadband service. They were 
paying hundreds of dollars a month for subpar internet. 
However, with broadband investments made in Missouri, they now 
have reliable service at the farm and at the lab, which has 
boosted their global business.
    Other families I know use online marketing tools to market 
their products nationwide. Farms and agribusinesses use 
broadband every day. Last month, I visited a fellow farmer in 
southern Missouri who was thrilled to see a fiber optic line 
being installed a few miles from his farm. His comment to me 
was, ``Maybe it will come my way in a year or so.''
    In Missouri, we have taken action to bring broadband to 
rural communities. In 2017, Farm Bureau convened the Missouri 
Broadband Working Group. Over 120 diverse stakeholders formed 
recommendations for our Governor and congressional delegation. 
As a result, our Governor established a statewide Office of 
Broadband to keep its finger on the pulse of all things 
broadband in Missouri. It would not have been established 
without the collaborative efforts of Farm Bureau, our State 
departments of agriculture and economic development, and the 
University of Missouri.
    We also successfully advocated for the Missouri Broadband 
Grant program, which helps providers deploy broadband in 
unserved and underserved areas. Last year, our legislature 
passed a bill supported by Farm Bureau allowing community 
improvement districts and neighborhood improvement districts to 
facilitate broadband deployment.
    We have seen recent success with EDA-funded projects in 
rural Missouri. One community is receiving EDA funds to deploy 
broadband infrastructure and enhance business and telework 
capabilities. Many of our Regional Planning Commissions have 
been able to identify potential projects: 5 of our 19 RPCs are 
working on EDA-funded broadband deployment projects through the 
CARES Act.
    Farmers and ranchers depend on broadband, just as they do 
highways, railways, and waterways. Today we use precision 
agricultural tools to reduce the amount of fertilizer we apply 
to fields, to decide how much water we need to sustain crops, 
and determine the amount of pesticides to keep our crops 
healthy.
    Off the farm, rural communities need access to healthcare, 
Government services, and educational and business 
opportunities. As more physicians leave rural communities, 
telemedicine has become a necessity for our families. In my 
hometown of Appleton City, I serve on the board of one of the 
smallest critical-access hospitals in the State. The hospital, 
which my great aunt and uncle founded in the early 1930s, 
employs over 100 people, and is one of our community's largest 
employers. We work hard to keep our rural hospital thriving and 
adapting with the latest medical technology. Unfortunately, 
even though we can find providers for telehealth services, our 
lackluster internet connection hinders us in providing care.
    Broadband has also helped revitalize our rural economy and 
promoted entrepreneurship. Several people now are using 
connected workspaces along our main street in buildings that 
were once empty. This lets them stay and contribute to our 
community, while injecting their income into our local economy. 
Farm Bureau appreciates the subcommittee's interest in rural 
broadband and the economic viability of our rural communities. 
Broadband is essential to modern agriculture and our quality of 
life.
    Thank you for the opportunity to testify on such an 
important issue for our members, and I look forward to 
answering your questions. Thank you, Madam Chair.
    [Mr. Hawkins' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Garrett Hawkins, President, Missouri Farm Bureau, 
            on behalf of the American Farm Bureau Federation
    Good afternoon Chairwoman Titus (D-NV), Ranking Member Webster (R-
FL) and members of the Subcommittee. My name is Garrett Hawkins, and I 
am a fifth-generation farmer and the third generation in my family to 
own and operate the farm on which we live today. Agriculture runs deep 
in our extended family and spans livestock, row crop, and dairy 
production. I am a proud husband and father, and I serve as President 
of Missouri Farm Bureau (MOFB). I appreciate the opportunity to provide 
input on the necessity of rural broadband deployment and its importance 
to economic development across rural America.
    Deployment of broadband technology is a critical link in 
stimulating and revitalizing the rural economy. Rural broadband (fixed 
and mobile) is essential to modern agriculture, the farmers and 
ranchers who grow our food, and the quality of life for rural 
Americans. While most Americans take broadband for granted, according 
to the Federal Communications Commission (FCC) 17% of rural Americans 
lack access to fixed terrestrial 25 Mbps/3 Mbps broadband, compared to 
only 1% of urban Americans. This is discouraging. Additionally, the 
data and methodology used to collect broadband coverage has failed to 
accurately determine broadband access resulting in an unreliable 
estimate of rural Americans with broadband access. Farm Bureau members 
have recognized the urgent need to deploy broadband in rural 
communities and have elevated broadband access and affordability as a 
priority due to its impact on their daily lives.
    In Missouri, I see the need for broadband in rural communities 
every day. One family I know operates a soil testing lab with customers 
worldwide. Until recently, they struggled to find affordable, reliable 
broadband service. They were paying hundreds of dollars a month for 
sub-par broadband to barely run their business. However, with the 
advancements and investments that have been made over the past few 
years, they are now able to access reliable service at their farm and 
at their lab, making it easier to conduct their global business.
    Other families I know use online marketing tools to market their 
products throughout the country. Farms and agribusinesses utilize 
broadband every day to make their business model a success. Whether it 
is a business that provides an agricultural service to a local 
community or a company that ships products all over the country, this 
service is critical to our everyday life. Just last month I was 
visiting a farmer in southern Missouri who was thrilled to see a fiber-
optic line being installed just a few miles from his farm. ``Maybe'', 
he said, ``they'll come my way in just a year or so.''
    In Missouri, we have taken strong action to bring more broadband to 
rural communities. In 2017, Missouri Farm Bureau convened the 
``Missouri Broadband Working Group.'' This group was comprised of over 
120 stakeholders from all industries that formed legislative and 
regulatory recommendations that were ultimately taken to our Governor 
and Congressional delegation. As a result, Missouri's Governor 
established the Office of Broadband within our Department of Economic 
Development. This office is responsible for keeping their finger on the 
pulse of all things broadband in Missouri. The creation of this office 
would not have been possible without the collaborative efforts of Farm 
Bureau, our state Departments of Agriculture and Economic Development, 
and the University of Missouri.
    In addition, we successfully advocated for the Missouri Broadband 
Grant Program, which provides financial assistance to providers who are 
seeking to deploy broadband in underserved and unserved areas. Last 
year, the Missouri legislature passed legislation supported by MOFB 
that would allow our Department of Economic Development's Community 
Improvement District and Neighborhood Improvement District programs to 
be used to facilitate broadband deployment within those districts.
    Just recently, we have seen success with a few EDA-funded projects 
in rural Missouri. One community has been awarded funds that will bring 
additional broadband infrastructure to the community and enhance both 
business and telework capabilities in this town of approximately 3,000 
people. In addition, many of our Regional Planning Commissions (RPCs) 
and Councils of Government have been able to identify projects in their 
jurisdiction. Five out of our 19 RPCs are in the process of funding 
projects with EDA funds that were awarded via the CARES Act which will 
help deploy broadband.
    Although we have been able to make significant strides in our 
state, the work is far from finished. Farm Bureau has and will continue 
to advocate for significant investment to support broadband deployment 
in rural communities. Knowing where adequate broadband services do and 
do not exist is critical to crafting sound public policies related to 
broadband deployment in rural areas.
    The ability of the FCC and all other relevant agencies to utilize 
accurate broadband coverage maps has been a priority. Last Congress, 
Farm Bureau advocated for the passage of the Broadband Deployment 
Accuracy and Technological Availability Act (Broadband DATA Act) which 
was signed into law March 2020 as part of the CARES Act. This 
bipartisan and comprehensive bill improves the accuracy of broadband 
coverage maps and better directs federal funds for broadband buildout. 
Specifically, this bill requires the FCC to improve the accuracy and 
granularity of its maps by establishing a serviceable location fabric, 
which will serve as a baseline for served, underserved and unserved 
broadband areas, an outcome that Farm Bureau policy supports. We were 
pleased Congress provided funding to implement this Act in December 
2020 and look forward to its full implementation.
    Farmers and ranchers depend on broadband just as they do highways, 
railways and waterways to ship food, fuel and fiber across the country 
and around the world. Many of the latest yield maximizing farming 
techniques require broadband connections for data collection and 
analysis performed both on the farm and in remote data centers. 
However, 29 percent of U.S. farms have no access to the Internet 
according to the USDA report, ``Farm Computer Usage and Ownership, 
2017.''
    America's farmers and ranchers embrace technology that allows their 
farming businesses to be more efficient, economical and environmentally 
responsible. Today's farmers and ranchers are using precision 
agricultural techniques to make decisions that impact the amount of 
fertilizer they need to purchase and apply to their fields, the amount 
of water needed to sustain crops, and the amount and type of herbicides 
or pesticides needed. These are only a few examples of how farmers use 
broadband connectivity to achieve optimal yield, lower environmental 
impact and maximize profits.
    Knowing exactly where further buildout is needed is critical to 
ensuring American farmers and ranchers can continue to innovate here at 
home and globally. Farmers and ranchers rely on broadband access to 
manage and operate successful businesses, the same as small businesses 
do in urban and suburban America. Access to broadband is essential for 
farmers and ranchers to follow commodity markets, communicate with 
their customers, gain access to new markets around the world and, 
increasingly, to ensure regulatory compliance.
    Beyond specific on-farm needs, rural communities need access to 
health care, government services, and educational and business 
opportunities. For many rural communities, access can only be gained by 
using broadband services and sophisticated technologies that require 
high-speed connections. The coronavirus pandemic has only exacerbated 
and made more apparent the need for rural broadband in rural 
communities as employees shifted to working from home, school districts 
closed and resorted to distance learning platforms, and patients sought 
health care through telemedicine platforms.
    As more and more primary care physicians and specialists leave 
rural communities, telemedicine has become a necessity to provide 
critical healthcare to our parents and kids. In my hometown of Appleton 
City, Missouri, I serve on my local hospital board. Our hospital is one 
of the smallest critical access hospitals in the state. The hospital, 
which was founded by my family several generations ago, employs over 
100 people in our local community and is one of our largest employers. 
As we strive to keep our rural hospital thriving and adapting to the 
latest and greatest medical technology, we often find that having 
enough providers to serve our telehealth patients is not the problem--
our unstable internet connection hinders us in providing these popular 
services.
    Healthcare is not the only area where broadband can help revitalize 
our rural economy. As we continue to weather the COVID-19 pandemic and 
individuals continue to embrace telework options, our rural communities 
can thrive if they have stable internet connections. In my hometown, I 
know many individuals who, although they may not have broadband at 
their homes or farms, are able to utilize connected work spaces in our 
once-empty downtown. These individuals are able to stay and contribute 
to their local community and inject their income into our local 
economy, rather than being tethered to an urban center.
    As Congress and the Administration deliberates proposals to advance 
the deployment of broadband to rural communities, please consider the 
following principles.
    <bullet>  Data Accuracy & Mapping: We continue to advocate for 
additional mapping and the use of more granular data sets when 
determining which areas are eligible for federal (and state) funding.
    <bullet>  Plan for the Future: When awarding broadband projects, we 
should consider speeds that account for teleworking and remote 
education needs, rather than just recreational use of broadband.
    <bullet>  Foster Local, State, and Federal Partnerships: Close 
working relationships between local, state, and federal partners are 
critical to maximize the use of funds available for broadband 
deployment. Various entities that deploy broadband should work together 
to the greatest extent possible in order to ensure the needs of rural 
America are being met.
    <bullet>  Focus on Precision Agriculture: Too often, federal 
programs do not take into account the specific needs of agriculture and 
rural America when developing programs that incentivize deployment. 
Agriculture as a whole has the potential to be a strong beneficiary of 
rural broadband services, and it will be important to take these needs 
into account. Access to broadband and data services can result in more 
data-driven decisions on the farm, if the technology is available.

    Farm Bureau appreciates the Subcommittee's interest in rural 
broadband deployment and the economic viability of rural communities. 
Rural broadband (fixed and mobile) is essential to modern agriculture, 
the farmers and ranchers who grow our food and the quality of life for 
rural Americans. Thank you again for the opportunity to testify on an 
issue so critically important to the individuals Farm Bureau 
represents. I look forward to answering any questions you may have.

    Ms. Titus. Thank you so much, Mr. Hawkins, we appreciate 
your being here. It was very interesting to hear all the 
different ways that broadband can make such a difference. It is 
today what electricity was when it was first invented: you just 
can't exist without it.
    I would now like to welcome Mr. Peterson.
    Before you start, Mr. Peterson, I would take just a minute 
to share your credentials with the committee.
    Mr. Jonas Peterson is president and CEO of the Las Vegas 
Global Economic Alliance. LVGEA is southern Nevada's leading 
economic development organization. Mr. Peterson serves on the 
boards of a variety of national and local organizations, 
including as a board member of the Governance Committee of the 
International Economic Development Council, whom he is 
representing here today.
    So welcome, it is nice to see you here, Mr. Peterson. Thank 
you.
    Mr. Peterson. Well, good afternoon, Chairwoman Titus, 
Ranking Member Webster, and distinguished members of the 
committee. Thank you so much for inviting me to participate in 
today's hearing. My name is Jonas Peterson. I am the president 
and CEO of the Las Vegas Global Economic Alliance. We are a 
regional, public-private partnership that is focused on 
diversifying and strengthening the economy here, in southern 
Nevada. I am here today on behalf of the International Economic 
Development Council, which is the world's largest professional 
trade association, representing economic developers and the 
practice of economic development.
    During our current crisis caused by COVID-19, IEDC and our 
5,000 members have worked tirelessly to provide resources to 
communities struggling to respond and recover. Over the past 13 
months, our families, our communities, and economies have all 
taken a hard hit from the effects of COVID-19. In Las Vegas, 
our unemployment rate spiked to 34 percent in April of 2020. 
That is the highest level ever recorded.
    Our tourism industry, which accounts for roughly one out of 
every three jobs in southern Nevada, has been particularly hard 
hit. Visitor volume fell by over 55 percent last year, compared 
to the previous year, and we lost billions from canceled 
events, trade shows, and conventions.
    At my organization, revenue fell by over 20 percent during 
the pandemic, straining our ability to deliver critical 
economic development planning and access to business support 
services during a time of great need. So we applied for our 
first-ever EDA grant in May of 2020. And after nearly a year of 
review, I am pleased to say we were finally approved for 
approximately $300,000 of Federal assistance in March of this 
year.
    So the review process took much longer than we were 
expecting. The final amount was about one-third of our original 
application. But I want to say that we are absolutely grateful 
for the funding. It will fuel a new recovery strategy for our 
region, and boost our critical business support services.
    Now, our shared belief in the importance and effectiveness 
of EDA serves as a very strong foundation to build upon as 
Congress looks at reauthorization. In addition to significantly 
increasing the funding authority of the agency, expanding its 
ability to coordinate Federal economic development resources 
across the Government, and providing EDA with robust resources 
and authorities to expand broadband access and adoption, we 
also recommend that Congress focus on the key areas of capacity 
building and disaster recovery while considering EDA 
reauthorization.
    Many communities have economic development strategic plans, 
and a list of projects they would undertake, but lack the 
resources needed to put those plans fully into action. From 
lacking the predevelopment resources to get a project moving, 
to not having the staff needed to fully execute plans--I can 
relate to that--low capacity can have a chilling effect on 
economic growth. Our regional economies would benefit greatly 
from resources dedicated to advancing local capacity.
    Congress should consider a pilot program at EDA that is 
dedicated to addressing capacity for economic development, both 
financial and human.
    We also recommend that Congress establish an EDA office of 
disaster resilience and recovery to preserve institutional 
knowledge and leadership in this space. Enhancing EDA's 
disaster recovery leadership and resources will help 
communities prepare for and mitigate the negative economic 
impacts associated with disasters. This office should have 
annual appropriations provided and dedicated staff.
    In cases where a major disaster or emergency has been 
declared under the Stafford Act, EDA should be required to 
increase the Federal share to 100 percent of the project cost, 
waiving all match requirements for any funding appropriated for 
the purpose of disaster or emergency response. Requiring 
communities to pay to access disaster funding runs contrary to 
the goal of funding, which is to help. Not waiving match 
requirements for disaster funding hurts communities, and leaves 
many out who did not possess the financial and human capacity 
to access these desperately needed resources.
    Finally, the events of the past several months have further 
highlighted the great divide between those who are empowered by 
economic opportunity and those denied equal access to economic 
opportunity. So, no matter which part of the country we live 
in, where we are from, how big or how small our community is, 
we can and we must do more to create opportunities to achieve 
economic success and security for all people.
    IEDC is committed to that end, and we look forward to 
working with EDA in support of that goal. We encourage Congress 
to consider this imperative as you deliberate over the future 
of EDA.
    On behalf of IEDC, our members, my fellow economic 
developers across the country, thank you so much for your 
support of EDA, and your support of regional economic 
development efforts at home. Thank you.
    [Mr. Peterson's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Jonas Peterson, President and Chief Executive 
     Officer, Las Vegas Global Economic Alliance, on behalf of the 
               International Economic Development Council
    Chair Titus, Ranking Member Webster, and distinguished Members of 
the Committee:
    Thank you for inviting me to participate in today's hearing. My 
name is Jonas Peterson. I am President and CEO of the Las Vegas Global 
Economic Alliance, a regional, public-private partnership focused on 
diversifying and strengthening the economy in Southern Nevada. I am 
here today on behalf of the International Economic Development Council 
(IEDC), the world's largest professional trade association representing 
economic developers and the practice of economic development, where I 
serve as Secretary/Treasurer of the board of directors. I would like to 
thank you for this opportunity to provide testimony on the important 
issue of reauthorizing the Economic Development Administration. I would 
also like to acknowledge my fellow panelist and thank them for their 
support for economic development and EDA.
    IEDC represents roughly 5,000 economic development professionals 
and stakeholders, most of whom are located in the United States. Our 
organization has been dedicated to the advancement of economic well-
being for 95 years. During the public health and economic crisis caused 
by COVID-19, IEDC and our members have worked tirelessly to provide 
resources to communities struggling to respond and recover. We have 
convened thousands of people through a series of free webinars covering 
topics ranging from accessing federal resources to working with 
downtown retailers struggling to hang on. We have worked hand-in-hand 
with our fellow stakeholders here in Washington to help Congress and 
the administration understand what the situation on the ground looked 
like from the perspective of economic development and what help was 
needed most. While not perfect and not as fast as we would like, we are 
proud of the results thus far. IEDC's work in aiding communities 
impacted by disasters and hardship did not start with this pandemic. 
Since Hurricane Katrina ravaged the gulf coast in 2005, IEDC has 
responded to major disasters throughout the United States, including 
Puerto Rico, the U.S. Virgin Islands, and the Northern Mariana Islands, 
often with the support of EDA. From 2010 to 2020, IEDC completed 184 
disaster recovery and resiliency projects in 18 states and territories. 
This work includes technical assistance projects, strategic planning, 
business retention & expansion, and much more. From 2017 to 2020, over 
150 volunteers participated in disaster recovery and resiliency 
projects, taking time off from their day jobs to go to communities in 
need and helping them rebuild their economies. We are proud to partner 
with EDA and have firsthand experience with its power to change for the 
better.
    The Economic Development Administration is the only federal agency 
with the sole mission of economic development. Since the passage of the 
Public Works and Economic Development Act of 1965 that established the 
agency, EDA has played an essential role in providing federal resources 
and leadership in support of regional economic development. Through 
programs such as Economic Adjustment Assistance and Public Works, EDA 
has broad authority to provide resources tailored to the specific needs 
of a community, be they infrastructure, technical assistance, or 
planning. It is this broad authority that provides EDA flexibility in 
assisting communities that is unmatched in any other federal program. 
EDA resources help economic developers on the ground in several 
different ways. From last-mile infrastructure that may be the final, 
essential piece that brings together an entire project to Revolving 
Loan Funds that are providing capital access to entrepreneurs and small 
businesses throughout the region, EDA has a tangible, positive impact 
on the economic health of communities across the country.
    Over the past thirteen months our families, communities and 
economies have taken a hard hit from the public health and economic 
crisis caused by COVID-19. In Las Vegas, we have felt the impact of the 
virus. In April of last year, our unemployment rate spiked to 34%, the 
highest level ever recorded. Our tourism industry, which accounts for 
almost one out of every three jobs in Southern Nevada, has been 
particularly hard hit. Visitor volume fell by over 55% in 2020 compared 
to the previous year, and we lost billions from cancelled conventions 
and tradeshows.
    At the Las Vegas Global Economic Alliance, our revenue fell by over 
20% during the pandemic, straining our ability to deliver critical 
economic recovery planning and access to business support services 
during a time of great need. So, in order to support our work, we 
applied for our first-ever EDA grant in May of 2020. After nearly a 
year of review, we were finally approved for approximately $300,000 of 
federal assistance in March. The review process took much longer than 
we expected and the final amount was approximately one-third of our 
original application. However, we are extremely grateful for the 
funding. It will fuel a new recovery strategy for our region and 
support critical business support services.
    Our shared belief in the importance and effectiveness of EDA serves 
as a strong foundation to build upon as we move forward with 
reauthorization. In addition to significantly increasing the funding 
authority of the agency, expanding its ability to coordinate federal 
economic development resources across the federal government, and 
providing EDA with robust resources and authorities to help expand 
broadband access and adoption, we recommend that Congress focus on the 
key areas of capacity building and disaster recovery while considering 
EDA reauthorization.
    We recommend that Congress include capacity building as a key 
component of EDA's reauthorization. Many communities have robust 
economic development strategic plans and a list of projects they would 
undertake but lack resources to put those plans fully into action. From 
lacking pre-development resources to get a project moving, to lacking 
the staff needed to fully execute plans, low-capacity can have a 
chilling effect on economic growth. Regional economies would greatly 
benefit from resources dedicated to advancing local capacity to act. 
Congress should consider a pilot program at EDA that is dedicated to 
addressing regional capacity for economic development, both financial 
and human.
    We recommend that Congress establish an EDA Office of Disaster 
Resilience & Recovery to preserve institutional knowledge and 
leadership in the economic disaster resilience and recovery realm. 
Enhancing EDA's disaster recovery leadership and resources will help 
communities prepare for and mitigate negative economic impacts 
associated with disasters. This Office should have annual 
appropriations provided and dedicated staff. Through this office EDA 
can continue to support the work of organizations like IEDC. IEDC has 
for many years participated in recovery efforts, including providing 
technical assistance and training, as well as marshalling volunteer 
economic developers, who are eager to go to disaster impacted areas to 
help their counterparts rebuild.
    We also recommend in cases where a major disaster or emergency has 
been declared under the Stafford Act, EDA should be required to 
increase the federal share to 100 percent of the project cost, waiving 
all match requirements for any funding appropriated for the purpose of 
disaster or emergency response. It has been suggested in the past that 
EDA has the existing authority to waive local match requirements. It 
has not chosen to do so with the funding received through the CARES 
Act. By its very nature, disaster funding is an intentional effort to 
aid communities that need funding to rebuild following a disaster. It 
seems then that requiring communities to pay to access that funding, 
which they are being offered because something so devastating has 
occurred that it has attracted the attention of the very top of the 
federal government and Congress, runs contrary to the goal of the 
funding, which is to help. Not waiving match requirements for disaster 
funding hurts communities by taking from the stricken, delaying 
distribution of those funds while scrambling to gather match money or 
securing a waiver, and because it is leaving out untold communities 
that do not possess the financial and human capacity to access these 
desperately needed funds.
    Finally, the events of the past several months have further 
highlighted the great divide between those who are empowered by 
economic opportunity and those denied equal access to economic 
opportunity. We must commit to do more to bridge and eliminate this 
divide and see to it that no such divides form again in the future. EDA 
is in a unique position to help our nation address racial and 
socioeconomic inequity and should be charged with helping to advance 
economic opportunity for all. No matter which part of the country we 
live in, where we are from, how big or how small our community is, we 
can and must do more to create more opportunities to achieve economic 
success and security for all people. IEDC is committed to that end and 
we look forward to working with EDA in support of that goal. We 
encourage Congress to consider this imperative as you consider the 
future of EDA in this reauthorization.
    On behalf of IEDC, our members and my fellow economic developers 
across the country, thank you for your support of EDA and your support 
for regional economic development efforts at home. EDAs mission at its 
core is to help communities recover from economic distress. They are 
the experts in economic recovery and resiliency at the federal level. 
As this body considers statutory reauthorization of the agency, I 
encourage you to engage with the economic developers in your 
communities. Hear from them about how EDA's investments have worked or 
not worked and what more the agency can do in their community. Given 
the tools and support necessary, the EDA can play a larger role in 
assisting communities in achieving robust, equitable and lasting 
economic prosperity.
    Thank you.

    Ms. Titus. Thank you very much.
    We will now move to Commissioner Eliason.
    Mr. Eliason. Thank you, Chairwoman Titus, Ranking Member 
Webster, and distinguished members of the subcommittee. I 
appreciate the invitation to testify before you today on behalf 
of the EDA reauthorization. I am the president of the board of 
commissioners here, in Athens County, and also serve on the 
board of the National Association of Counties, which represents 
3,069 counties in the country.
    Counties play a major role in financing, administering, and 
coordinating Federal workforce and economic development 
programs. This includes the EDA, which is a key pillar of the 
Federal, State, and local partnership.
    EDA programs and grants are the catalyst to spur recovery 
and innovation in communities across the country, and they are 
uniquely tailored to meet local and regional needs and 
conditions. EDA is a program that works on the ground, because 
it is essential to help communities transition from one economy 
to the next at the local level, with local efforts. It is 
successful because it gives us, the local communities, the 
tools and the knowledge to help ourselves, and counties 
strongly believe the program should be continued to be 
reauthorized, and continuously funded.
    I have seen firsthand the difference that EDA can make in 
mitigating economic downturns and supporting our efforts to 
create a stable and diversified economy here, in Athens County.
    For a little bit of background, Athens County is a rural 
county with a population of around 65,000 residents in 
southeastern Ohio. We remain heavily weighted, from an 
employment perspective, in the following industry sectors: 
Government, accommodations, food services, retail trade, and 
healthcare. The county is also the home to Ohio University, and 
the school holds an integral position in the local community 
and economy, being its largest employer. While the community 
has been significantly impacted by the downturn in the coal 
industry, we have experienced growth in other sectors, 
including energy, manufacturing, healthcare, finance, and 
construction.
    Preexisting challenges to economic development in our 
county include issues related to broadband infrastructure and 
accessibility, workforce and affordable housing, and site 
development and infrastructure. Athens County has worked to 
respond to these challenges, both before and during the 
pandemic, and assistance provided by the EDA has been critical 
to this response.
    EDA's engagement and financing and support have been vital 
to economic development here in Athens County. While we receive 
assistance from EDA for business attraction, capital 
construction, and workforce training efforts, perhaps the most 
critical assistance has come in the form of a grant to help our 
community transition away from coal to the modern 
diversification of our economy.
    Just this past January, the Ohio University Voinovich 
School of Leadership and Public Affairs was awarded a $2.2 
million EDA investment, which has been matched by $550,000 in 
local funds, to accelerate the region's transition from a coal 
economy to a new initiative called the Resilience Initiative 
for Southeastern and Eastern Ohio, otherwise known as RISE 
Ohio.
    RISE Ohio is a 2-year program, led by the Voinovich School, 
alongside the Buckeye Hills Regional Council and the Ohio Mid-
Eastern Governments Association, which is focused on supporting 
communities in 18 counties in the region, including Athens 
County, to make an economic transition to new industries, and 
ensuring continued job creation, as well as economic growth and 
diversification. This project will help regional leaders devise 
strategies to accelerate the economy's transition to new 
industries, and help utilize the region's Opportunity Zones. 
Once completed, the project will catalyze the process of 
strategic recovery and ongoing economic resilience within a 
critical part of Appalachian Ohio.
    Without the assistance of EDA, we would not have the 
resources to pursue these kinds of transformational initiatives 
and economic developments. EDA investments in our region, 
coupled with local and State funds, have helped to launch a 
robust economic recovery and job expansion in our community.
    Counties strongly support the EDA because the program 
focuses on investments in the Nation's most distressed areas, 
especially those suffering from sudden or severe economic 
downturns caused by both preexisting issues and those that have 
been made worse by the COVID-19 pandemic. Counties across the 
country urge your continued support for the Economic 
Development Administration, including increased funding 
[inaudible] reauthorization to continue assisting with building 
prosperity from the ground up at the local, regional, and 
national levels.
    Thank you again for the opportunity to testify today on 
behalf of NACo, and we look forward to partnering with Congress 
moving forward, in conjunction with the EDA. And I will be 
happy to answer any questions.
    [Mr. Eliason's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Lenny Eliason, Commissioner, Athens County, 
        Ohio, on behalf of the National Association of Counties
    Chairwoman Titus, Ranking Member Webster, and distinguished members 
of the subcommittee, thank you for the opportunity to testify on 
``Investing in America: Reauthorization of the Economic Development 
Administration.'' The U.S. Department of Commerce's Economic 
Development Administration (EDA) and its programs are vital for 
economic recovery, expansion, and job creation in counties across the 
country, facilitating economic and job growth at both the local and 
regional levels. As the nation continues to respond to the COVID-19 
pandemic and pivot towards recovery, support for EDA and its programs 
is more important than ever.
    My name is Lenny Eliason, and I am the President of the Board of 
Commissioners in Athens County, Ohio. As county commissioners, my 
colleagues and I play key roles in economic development by bringing in 
new business and industries to our communities, as well as keeping 
established employers from moving way. I also serve on the National 
Association of Counties (NACo) Board of Directors in my capacity as 
Past President, and I am glad to be representing NACo here today.
                        About America's Counties
    Counties are highly diverse, not only in my state of Ohio, but 
across the country. They vary immensely in natural resources, social 
and political systems, cultural, economic, and structural 
circumstances, and public health and environmental responsibilities. 
Counties range in size from 26 square miles to 87,860 square miles and 
have populations varying from just under 100 residents to over ten 
million.
    Counties' responsibilities are often mandated by both the states 
and federal government. In many states, we are responsible for public 
health, child welfare, consumer protection, economic development, 
employment and workforce training, emergency management, land use 
planning, zoning, and environmental protection.
    Local and regional economic and workforce development is a critical 
component of these responsibilities. Day-to-day, counties tackle such 
challenges as unemployment and underemployment, and we work to develop 
local economic growth strategies. According to a 2014 NACo workforce 
survey, 84 percent of counties have established workforce training 
partnerships with local chambers of commerce, cities, state governments 
or regional economic development organizations. That same survey showed 
that more than 90 percent of counties participate in economic 
development activities, including workforce development, business 
recruitment and retention, regional marketing, small business support 
and infrastructure investments.
    Additionally, counties play a major role in financing, 
administering, and coordinating federal workforce and economic 
development programs. This includes the EDA, a key pillar of the 
federal, state, and local partnership.
                       About Athens County, Ohio
    Athens County is a rural county with a population of just under 
65,000 in southeastern Ohio. The County remains heavily weighted from 
an employment perspective in the following industry sectors: 
government, accommodations and food services, retail trade and 
healthcare and social services. The county is also home to Ohio 
University, and the school holds an integral position in the local 
community and economy.
    While Athens County has been significantly impacted by the decline 
of the coal industry, which once played a leading role in the region's 
economy, other industries have begun to grow in the area. Since 2016, 
Athens County has experienced growth in the energy, manufacturing, 
health care, financial and construction sectors. The county also 
continues to build and support its entrepreneurial and technology 
ecosystems and expects jobs in these areas to grow. A region's 
workforce is a critical measure of its economic success.
       Challenges to Economic Development in Athens County, Ohio
    Athens County, like others across the country, has been heavily 
impacted by the COVID-19 pandemic and has experienced a downturn in 
economic development since the public health emergency began. Programs 
have been suspended and canceled, pre-existing issues with access to 
technology and broadband have been exacerbated, revenue loss continues 
to be a major issue and nearly all forms of in-person economic 
activities have been reduced. The county is having difficulty keeping 
up with the increased demand for food aid, online learning, financial 
assistance, and other benefits. The coal industry, which was already in 
dramatic decline, has been hit especially hard.
    All these issues have directly impacted tax revenues, which in turn 
impacts the county's ability to advance an economic development 
strategy for the region. Following closures in certain sectors, many of 
our residents have struggled to find new job opportunities matching 
their career skills. Athens County has a labor force of 27,100 with 
roughly 24,800 people actively employed.
    We have worked to respond to these challenges by developing a 
multi-step plan that directly addresses many of the negative impacts 
experienced by local businesses due to the COVID-19 pandemic. The 
Athens County Economic Development Council, Athens Area Chamber of 
Commerce and Athens County Convention and Visitors Bureau have created 
a resource guide to help area businesses navigate current financial 
challenges. The resource guide categorizes assistance into three 
priority focus areas: resources, relief and rebound. Each of these 
priority areas are only strengthened by the work done by the EDA via 
programs provided to our county.
    Other common challenges to Economic Development in Athens County 
include:
    <bullet>  Broadband Infrastructure and Accessibility: This is a 
challenge that extends beyond Athens County throughout the southern 
Ohio region. A 2019 Appalachian Regional Commission funded study of 
eight counties, including Athens found that between 80-90 percent of 
households in areas of 20 or less households per square mile have no 
access to broadband services. The lack of adequate service also hinders 
economic development efforts around the county's remote work strategy, 
which aims to attract and incentivize those who can work remote 
completely to move to Athens.
    <bullet>  Workforce and Affordable Housing: Athens County has a 
housing shortage that ranges from workforce and affordable housing to 
mid-level housing stock. This housing shortage has a direct negative 
impact on retaining and attracting talent to the county.
    <bullet>  Site Development and Infrastructure: As with many rural 
communities, access to capital for building projects and infrastructure 
improvements is a challenge. Athens County is unable to take advantage 
of site certification programs that make the county competitive for 
attraction and expansion projects due to lack of available sites and 
adequate infrastructure.

    EDA investment in building and infrastructure projects helps the 
county leverage additional private sector funding and make projects 
less risky for developers and bank participation. More EDA investments 
for broadband infrastructure and accessibility would be helpful as 
well.
               EDA Grant Projects in Athens County, Ohio
    EDA's engagement, financing and support have been integral to our 
economic revitalization in the wake of the COVID-19 pandemic and its 
negative economic impacts, as well other, pre-existing challenges to 
economic development in the county including issues related to 
broadband infrastructure and accessibility, workforce and affordable 
housing and site development and infrastructure. Recognizing the need 
to diversify and stabilize our economy, the county has partnered with 
Ohio University on several projects related to economic and workforce 
development.
    In September 2018, EDA awarded just over $1.6 million through the 
Assistance to Coal Communities (ACC) initiative to Ohio University and 
the Ohio Valley Regional Development Commission of Athens to establish 
the Building Opportunities Beyond Coal Accelerating Network. The 
Network has supported workforce development, cluster expansion and 
opportunity zone enhancement and identified infrastructure investments 
needed to access local, national, and global markets. The project has 
led to job creation and served as a catalyst for economic development 
in southern Ohio communities that have been impacted by the decline of 
the coal industry.
    In August of the following year, the county and our collaboration 
with the local university received an additional $1.15 million through 
the Assistance to Coal Communities initiative, matched by a little over 
$287,000 in local dollars, to fund infrastructure upgrades to the Ohio 
University Innovation Center in Athens County.
    This project included the renovation of offices to provide an array 
of business incubation resources to expand, diversify and create new 
entrepreneur business opportunities. This in turn has led to job 
creation and served as a stimulant for economic development in the 
communities that have been impacted by the decline in the coal 
industry. The economic impact of companies supported by the innovation 
center since 2019 has resulted in the creation of 335 jobs, $22.8 
million in employee compensation and $78 million in generated economic 
output for the region.
    And, in January of this year, the county received a $2.2 million 
investment through the EDA's Assistance to Coal Communities initiative, 
which has been matched by $550,000 in local funds. The funding will go 
to Ohio University, the Buckeye Hills Regional Planning Council, and 
the Ohio Mid-Eastern Government Association to support an 18-county 
partnership by providing technical assistance to communities affected 
by the decline in the coal industry in Athens County.
    The project will help regional leaders devise strategies to 
accelerate the economy's transition to new industries and develop 
prospectuses to help utilize the region's Opportunity Zones. Once 
completed, the project will catalyze a process of strategic recovery 
and ongoing economic resilience within this critical part of 
Appalachian Ohio.
    This funding comes at a critical time, as the COVID-19 pandemic 
continues to compound the negative economic impacts of the decline in 
the regional coal industry and as long-term unemployment and 
underemployment grows.
    Frankly, without the assistance of the EDA, we would not have the 
resources to pursue these kinds of transformational initiatives and 
economic development. EDA investments in our region, coupled with local 
and state funds, have helped to launch robust economic recovery and job 
expansion in our community.
            EDA Programs Benefit Counties Across the Country
    Since 1965, EDA has worked with local and regional stakeholders to 
address the fundamental building blocks for economic growth: 
infrastructure investment, business development, loans and financing, 
regional innovation strategies and public-private partnerships.
    Counties strongly support EDA because the program focuses 
investments on the nation's most distressed areas, especially those 
suffering sudden or severe economic downturns caused by both pre-
existing issues and those made worse by the COVID-19 pandemic. EDA's 
grants are particularly critical for rural areas, where resources for 
economic development can be scarce. Grants are awarded on a competitive 
basis, based on regional comprehensive economic development strategies 
(CEDs), and are developed and prioritized by local communities. This 
helps to ensure that projects have significant local support and are 
part of a broader regional plan, rather than isolated, uncoordinated 
local projects. Through local and regional partnerships, counties and 
the EDA are well-positioned to collaborate to address economic 
challenges impacting communities.
    One major use of EDA grants for counties is for disaster recovery 
and economic assistance, which has been critical to counties' ability 
to respond to the COVID-19 pandemic. Earlier this month, EDA provided a 
grant of $750,000, which was matched by a local investment of $187,500, 
to the Medical Center of the Americas Foundation in El Paso County, 
Texas, that it will also share with the city of El Paso. The money 
provided will fund the Product and Supplier Development Lab program, 
which will create a lab of the same name, that will support innovators 
and companies working to address the shortage of PPE and other medical 
supplies, diagnostics, and devices.
    The creation of this lab will generate impact in the community 
through the growth of new companies, living wage jobs and technology-
based industry development. The program will serve three main purposes:
    <bullet>  bolster supply chain development and manufacturing 
expertise to produce critical items through assisting medical device 
suppliers and manufacturers to complete and meet necessary regulatory 
standards for the industry;
    <bullet>  support innovation and the development of new medical 
device production through design thinking;
    <bullet>  product development, and prototyping assistance; and
    <bullet>  Address public health concerns by increasing 
manufacturing capacity for PPE and medical devices, diagnostics, and 
ancillary supplies.

    The $1.5 billion in supplemental funding that EDA received through 
the CARES Act for COVID-19 recovery assistance has been helpful for 
counties across the country. In November of last year, EDA provided a 
grant of $600,000 to the City of Gallup in McKinley County, New Mexico. 
Matched with $150,000 in local dollars, the grant helped to support the 
city with recovery efforts from the COVID-19 pandemic by advancing 
transportation, logistics and autonomous vehicle industries in the 
county. The project will support a master planning process for the 
municipal airport and autonomous vehicle industries in efforts to 
resume commercial air travel, which will in turn allow the transport of 
healthcare professionals and patients in need of critical care. Once 
completed, the project will diversify the regional economy by offering 
commercial air services, creating employment opportunities, helping 
businesses expand operations and advancing economic resiliency 
throughout the region.
                          EDA Reauthorization
    Looking towards reauthorization of EDA, counties support increased 
funding and program flexibilities to expand EDA's reach to communities 
in need of economic revitalization and development and to enhance the 
program's utilization. EDA should receive a robust increase in funding 
to meet the demands of local communities for economic development 
resources and to properly reflect the leading role EDA plays in job 
creation in distressed areas. EDA's local match requirement may need to 
be reduced or waived to ensure severely distressed communities can 
apply and receive funding with a reduced or without a matching 
requirement, similar to CARES Act funding. Furthermore, increasing 
funds targeted towards essential infrastructure investments, including 
water, sewer and broadband would be beneficial counties, particularly 
rural ones in need but lacking basic resources to attract economic 
development investments.
                             In Conclusion
    EDA has proven to be an effective program for counties, 
communities, and regions to aid in economic development and job 
creation. EDA programs and grants are a catalyst to spur recovery and 
innovation in communities, and they are uniquely tailored to meet local 
and regional needs and conditions. As we continue to respond to the 
COVID-19 pandemic, and shift towards recovery, EDA remains a vital tool 
for economic recovery. I have seen firsthand the difference the EDA can 
make in mitigating economic downturns and in supporting our efforts to 
create a stable and diversified economy here in Athens County.
    The EDA is a program that works on the ground, is essential to 
helping communities' transition from one economy to the next and helps 
to broaden local economic development efforts. EDA helps provide the 
needed funding to make many projects come to fruition. It is successful 
because it gives local communities, the resources, tools, and knowledge 
to help ourselves, and counties strongly believe EDA should be 
reauthorized and receive increased funding.
    Chairwoman Titus, Ranking Member Webster, and distinguished members 
of the subcommittee--thank you for having me here today. We appreciate 
your attention to this vital program, and I urge your continued support 
for the Economic Development Administration which helps build 
prosperity from the ground up at the local, regional, and national 
levels.
    Thank you again for the opportunity to testify today on behalf of 
America's 3,069 counties. I would be happy to answer any questions.

    Ms. Titus. Thank you very much, Commissioner. We appreciate 
that input from the counties, and we will be calling on you to 
help us as we reauthorize this.
    We will now go to Mr. Carol.
    Mr. Carol. Good afternoon. Thank you, Chair Titus, Ranking 
Member Webster, and members of the subcommittee for inviting me 
to testify today and offer some recommendations on the future 
of the EDA, especially as it pertains to infrastructure.
    My name is Dan Carol. I am a director at the Milken 
Institute Center for Financial Markets, and serve as adjunct 
faculty at Georgetown University, where I teach infrastructure 
finance. Formerly, I served as a senior advisor for 
infrastructure and energy for Governor Jerry Brown of 
California.
    My testimony today will be pretty simple: as Congress 
wisely considers bold investments to make U.S. infrastructure 
globally competitive and equitable for all, we must ensure that 
a small portion of new spending is carved out to incentivize 
long-term resilience and better infrastructure system 
performance. Otherwise, without the right carrot, sticks, and 
technical assistance capacity in place, we won't be able to 
overcome the Nation's multitrillion-dollar deferred maintenance 
hole, a hole that existed long before the pandemic, let alone 
marshal the trillions we will need by 2050 to address climate 
change and extreme weather.
    A substantial body of research finds that the key 
investment Congress can make to move U.S. infrastructure 
systems from 19th-century creakiness to 21st-century 
performance is predevelopment funding. Recent reports by the 
Milken Institute and others highlight the importance of 
predevelopment capital to turn good project plans into shovel-
worthy and investment-ready projects.
    What is predevelopment? Predevelopment pays for the 
critical tasks that need to be completed before project 
construction can begin, such as financial feasibility studies, 
site acquisition costs, architectural and engineering work, and 
permitting. This predevelopment gap is especially acute for 
smaller, rural, and historically underserved areas that cannot 
access the technical assistance they need for broadband and 
other community-scale infrastructures to get off the ground.
    Over its history, Congress has used the EDA several times 
as an accelerator mechanism to address pressing economic and 
innovation challenges. Now the time has come, in my view, for 
another mission. EDA should return to its public works roots, 
and jumpstart the next generation of resilient infrastructure 
projects that thousands of local communities are demanding, 
post-COVID.
    Shifting America's infrastructure towards resilience and 
performance will not be easy. We will need a series of 
strategic investments, beginning with predevelopment funding, 
to deliver better outcomes over the next 3 to 10 years. The 
payback, however, will far outweigh the pay-for. Based on past 
studies looking at the value of predevelopment, we would expect 
$20 in economic activity to flow from each dollar spent on 
predevelopment. That would mean $300 billion in economic 
activity could be generated by the $15 billion Federal 
predevelopment fund we have proposed.
    This shift, however, does not have to wait for the final 
set of infrastructure bills now under discussion, nor for EDA 
reauthorization later this year. In my written testimony, I 
suggest specific steps that EDA can take now to kickstart a new 
pipeline of resilient infrastructure projects in high demand, 
such as emergency centers, and public buildings, and rural 
hospitals with microgrids, broadband, critical water systems, 
and regionally significant projects across the EDA system.
    This would not be the first time that EDA has taken on the 
infrastructure problem at scale. In fact, in the mid-1970s, the 
agency was appropriated $6 billion in funding--that is $28 
billion in today's dollars--to accelerate local and State 
public works projects to help the country out of a recession.
    How? As this committee assesses the future for EDA, my 
testimony calls for the creation of regional resilience centers 
housed in the six EDA regions to incubate 21st-century, whole-
of-Government Federal coordination from the bottom up, across 
all infrastructure modes. These regional centers would house 
project finance and tech assistance teams to help communities, 
EDDs, and others successfully build projects from a focus menu 
of ready-to-go and replicable projects that are in high demand 
in each region, based on distinct regional resilience 
challenges.
    Many of these recommendations are supported by a diverse 
set of groups, including the U.S. Chamber of Commerce, the 
National Association of Manufacturers, the Coalition for Green 
Capital, the IEDC, NADO, and others. My written testimony 
provides an indepth discussion of each of these issues, and I 
am happy to answer any questions you have.
    Again, thank you.
    [Mr. Carol's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Dan Carol, Director, Milken Institute Center for 
                           Financial Markets
    Good afternoon. Thank you Chair Titus, Ranking Member Webster, and 
Members of the Subcommittee on Economic Development, Public Buildings, 
and Emergency Management for inviting me to testify today.
    My name is Dan Carol, and I am a Director of the Milken Institute 
Center for Financial Markets.\1\ Formerly I served as the Senior 
Advisor for Infrastructure and Energy for Governor Jerry Brown of 
California and led efforts to create the West Coast Infrastructure 
Exchange, a 2015 winner of the Harvard Ash Center award for government 
innovation. I also serve as adjunct faculty in the Master's Program in 
Urban and Regional Planning at Georgetown University. I am testifying 
today on my own behalf.
---------------------------------------------------------------------------
    \1\ The Milken Institute is a nonprofit, nonpartisan think tank 
that promotes evidence-based research that serves as a platform for 
policymakers, industry practitioners, and community members to come 
together in catalyzing practical solutions to challenges we face both 
here in the U.S. and globally. The Center for Financial Markets 
conducts research and constructs programs designed to facilitate the 
smooth and efficient operation of financial markets--to help ensure 
that they are fair and available to those who need them when they need 
them. More information on the Milken Institute's work on Resilient 
Infrastructure can be found here: https://milkeninstitute.org/
resilient-infrastructure
---------------------------------------------------------------------------
    Thank you for the opportunity to offer input and recommendations 
today on the future of the Economic Development Administration (EDA) 
and the reauthorization of the Public Works and Economic Development 
Act (PWEDA), especially as it pertains to infrastructure. My message 
today will be pretty simple. While maintaining important core programs 
supporting regional economic innovation and economic development, EDA 
should return to its roots as a public works agency with an updated 
mission for the future focused on resilient infrastructure. Over its 
long history, EDA has served as an effective incubator for new federal 
initiatives in rural development, economic adjustment assistance due to 
globalization, and disaster relief, among others.
    When combined with 21st Century updates such as predevelopment 
investment \2\, EDA's regional structure and existing authorities are 
perfectly positioned to accelerate the innovations we need to address 
the nation's most pressing challenge: funding and financing the 
infrastructure that communities need today in order to compete in the 
economy of tomorrow.
---------------------------------------------------------------------------
    \2\ Predevelopment pays for tasks that need to be completed before 
project construction can begin, such as economic feasibility studies, 
site acquisition costs, architectural and engineering work, and 
permitting. https://www.federalregister.gov/documents/2015/01/22/2015-
01256/expanding-federal-support-for-predevelopment-activities-for-
nonfederal-domestic-infrastructure
---------------------------------------------------------------------------
    My testimony today will be divided into three parts.
      I.  First, I will briefly describe the infrastructure moment we 
are in and identify some key research-based strategies which I believe 
can ``unstick'' the infrastructure debate.
     II.  Second, I will offer ideas about what EDA can do now, without 
new Congressional authority, to help to accelerate the deployment of 
resilient infrastructure projects, job creation, equitable growth, and 
regional competitiveness.
    III.  Third, I will outline recommendations for the Committee to 
consider as it looks towards reauthorizing the agency and modernizing 
the mission of the EDA, including the creation of a Federal 
Infrastructure Predevelopment Fund and additional outcome-focused 
recommendations for the Committee to consider to strengthen the 
performance of U.S. infrastructure systems.
                      I. The Infrastructure Moment
    America's multi-trillion dollar infrastructure systems are in the 
midst of profound transformation. Disruptions from big data, extreme 
weather events, and driverless cars were already transforming how 
traditional infrastructure systems were funded, financed, and designed 
before the COVID-19 pandemic.
    What's not new is that most of the funding shortfall identified by 
the American Society of Civil Engineers' annual report card is due to 
deferred maintenance that has built up over decades. This downward 
trend arises from several factors, from political preferences for 
above-ground ribbon cuttings over underground pipe replacement to the 
lack of technical capacity in communities experiencing fiscal 
distress.\3\ The biggest issue, however, is poor procurement and asset 
management practices. Governments often receive negative media coverage 
if they don't choose the low-cost capital bid and generally don't get 
penalized for failing to maintain valuable assets meant to last a 
lifetime.
---------------------------------------------------------------------------
    \3\ It is worth recalling that U.S. state and local sector hadn't 
fully recovered from the 2008 crash even before COVID-19 hit. States 
missed out on $283 billion in otherwise expected revenue from 2008-2018 
due to the slow recovery, increasing the rate of deferred maintenance 
in many areas. https://www.pewtrusts.org/en/research-and-analysis/
issue-briefs/2019/06/lost-decade-casts-a-post-recession-shadow-on-
state-finances
---------------------------------------------------------------------------
    Each year, we see the long-term effects of decades of deferred 
maintenance and local fiscal challenges revealing themselves in 
dramatic new ways, from Flint's water crisis, to dam and levee failures 
in the Carolinas and Mississippi regions, to wildfire-induced utility 
bankruptcy in the West and the recent grid failure in Texas.
    The size of this infrastructure performance problem, for both 
public and private infrastructure, is enormous. According to an Oxford 
Economics 2017 infrastructure study, U.S. infrastructure needs by 2050 
are conservatively estimated to be $17.3 trillion dollars.\4\ That 
means that without substantial investment now in innovation and 
technical assistance capacity to improve the performance of America's 
public, public-private, and private infrastructure systems, we stand to 
lose $6.9 trillion in available savings that could be realized through 
more effective infrastructure productivity and procurement reforms. 
Business as usual, when it comes to infrastructure, is going to be 
very, very costly. These estimates don't even include the multi-
trillion potential costs of infrastructure outages and economic losses 
for communities vulnerable to the effects of extreme weather and 
climate change.
---------------------------------------------------------------------------
    \4\ Projected based on U.S. funding gap data found in Oxford Global 
Outlook 2017 and McKinsey estimates of infrastructure performance 
potential using life-cycle asset management and other best practices. 
Note ASCE's annual report cards only project out needs for five years, 
hence the difference. ``Infrastructure Productivity: How to Save $1 
Trillion a Year,'' McKinsey Global Institute and https://
www.mckinsey.com/business-functions/operations/our-insights/bridging-
infrastructure-gaps-has-the-world-made-progress
---------------------------------------------------------------------------
    Happily, we don't have to reinvent the wheel to begin to fix these 
persistent performance problems with future rounds of federal 
infrastructure investments. According to study \5\ after study,\6\ 
there are successful models for building high-performance 
infrastructure systems that can be adapted to the U.S. context. We 
simply need to deploy these techniques more effectively.
---------------------------------------------------------------------------
    \5\ Richard Dobbs, Herbert Pohl, Diaan-Yi Lin, Jan Mischke, Nicklas 
Garemo, Jimmy Hexter, Stefan Matzinger, Robert Palter, and Rushad 
Nanavatty, ``Infrastructure Productivity: How to Save $1 Trillion a 
Year,'' McKinsey Global Institute, January 2013.
    \6\ Georgetown University, Beeck Center, Performance-Based 
Infrastructure: Making the Shift, A Leadership and Economic 
Competitiveness Opportunity for Maine and the Northeast, 2015, https://
repository.library.georgetown.edu/handle/10822/1051507. Also see 
Building California's Future, 2016, https://www.treasurer.ca.gov/
publications/biennial/2016.pdf
---------------------------------------------------------------------------
    Shifting America's massive infrastructure systems and practices 
will not be easy. We will need a series of strategic investments and 
interventions to deliver better outcomes over the next 3 to 10 years, 
using both existing infrastructure authorities and programs, and new 
investments designed to catalyze bottom-up success. I recommend to the 
Committee that it consider a series of strategic interventions 
beginning with these three acceleration pathways:
    <bullet>  Invest in base levels of technical capacity and support 
to allow state and local governments and community organizations, which 
fund \2/3\ of all public infrastructure, to institute life-cycle asset 
management systems;
    <bullet>  Use regional approaches to break down jurisdictional 
implementation silos and align investments based on landscape-level 
infrastructure outcomes and other performance objectives, including 
resilience and equity;
    <bullet>  Engage cross-sectoral leaders and investors to create 
innovative infrastructure delivery systems and policy incentives, 
recognizing that many forms of infrastructure are privately financed or 
funded through public-private partnerships.\7\
---------------------------------------------------------------------------
    \7\ For example, critical infrastructure sectors such as energy and 
telecommunications are largely privately-funded or structured as 
public-private partnerships. See American Council on Renewable Energy, 
2020 https://acore.org/new-acore-analysis-reflects-on-u-s-renewable-
energy-and-energy-storage-finance-amid-covid-19/
#::text=ACORE%20launched%20the%20%241T,
to%20help%20realize%20this%20goal. Also see US Telecom Industry Metrics 
& Trends 2020,https://www.ustelecom.org/wp-content/uploads/2020/02/
USTelecom-State-of-Industry-2020.pdf

    I will now address these pathways in the context of EDA's role in 
infrastructure and what it can do now and in the next three years.
                       II. What EDA Should Do Now
    As I outlined in a recent piece in Barron's,\8\ the time is now for 
EDA to focus on resilient infrastructure deployment using eligible 
funding it has received under the American Rescue Plan Act (ARPA). With 
a focused strategy to meet frontline community demand, EDA could use 
its ARPA allocation to accelerate and pilot long-overdue efforts to 
move the U.S. infrastructure system from 19th-century creakiness to 
21st-century performance. To do that, the agency should consider four 
strategies to ensure that it effectively spends out its available 
funding by September 30, 2022.
---------------------------------------------------------------------------
    \8\ ``The $3 Billion That Can Kick-Start U.S. Infrastructure 
Spending'' https://www.barrons.com/articles/the-3-billion-that-can-
kickstart-u-s-infrastructure-spending-51617894284?tesla=y
---------------------------------------------------------------------------
    Support Only a Limited ``Menu'' of Community Resilience Projects. 
EDA programs can be used for a wide range of infrastructure projects, 
which means that scores of communities will bring hundreds of good and 
not-so-good project ideas forward for grant funding. Given the short 
window for EDA's Rescue Plan funding, I recommend serving up a focused 
menu of ready-to-go and replicable projects that are in high demand. In 
an era of grid failures, water failures, repeated floods, derechos, and 
droughts, thousands of communities are looking to build a common set of 
projects: from better broadband access \9\ to shored-up levees to data-
smart, urban water systems. For example, there are 130,000 schools, 
hospitals, and community colleges that want to copy what the Blue 
Rancheria Tribe built in Northern California: a community emergency 
center with micro-grids and wi-fi, so there was a place to go after the 
2018 wildfires.\10\ Each of the 6 EDA regional centers could offer a 
different menu of replicable resilience projects matched to differing 
regional needs and known demand.
---------------------------------------------------------------------------
    \9\ Arctaris Impact Funds, 2021. https://www.businesswire.com/news/
home/20210217005595/en/Arctaris-Funds-Broadband-Fiber-in-Opportunity-
Zones-to-Increase-Digital-Equity
    \10\ https://www.washingtonpost.com/climate-solutions/2020/01/01/
amid-shut-off-woes-beacon-energy/?arc404=true
---------------------------------------------------------------------------
    Fund Predevelopment Capacity, Not Planning. For distressed 
communities struggling to jumpstart local economies and create 
investment-ready projects, the critical funding gap is catalytic 
predevelopment capital. Predevelopment pays for tasks that need to be 
completed before project construction can begin, such as economic 
feasibility studies, site acquisition costs, architectural and 
engineering work, and permitting. Recent reports by the Council of 
Development Financing Agencies, International Council of Sustainable 
Infrastructure, and the Milken Institute have highlighted the 
importance of predevelopment capital for local projects that struggle 
to find support within existing federally-funded programs.\11\ The 
predevelopment gap is especially acute for smaller and historically 
underserved communities that lack the fiscal condition to acquire 
specialized technical assistance.\12\
---------------------------------------------------------------------------
    \11\ For more on the Value of Predevelopment, see: Milken Review, 
April 2020, https://www.milkenreview.org/articles/the-case-for-an-
infrastructure-predevelopment-fund US Treasury, ``Recommendations of 
the Build America Investment Initiative Interagency Working Group'', 
2015 (https://www.treasury.gov/resource-center/economic-policy/
Documents/Build%20America
%20Recommendation%20Report%201-15-15%20FOR%20PUBLICATION.pdf) 
Presidential Memorandum, January, 2015 (https://
www.federalregister.gov/documents/2015/01/22/2015-01256/expanding-
federal-support-for-predevelopment-activities-for-nonfederal-domestic-
infrastructure) International Coalition of Sustainable Infrastructure: 
https://sustainability-coalition.org/ Council of Development Financing 
Agencies, Policy Priorities, 2021, page 17 https://www.cdfa.net/cdfa/
cdfaweb.nsf/pages/CDFA-2021-Policy-Agenda.html/$file/CDFA-2021-
Adminstration-Policy-Paper-Final.pdf
    \12\ A recent practical example of interest to this Subcommittee's 
jurisdiction which highlights the need for expanded predevelopment and 
technical assistance funding involves the excellent new integration 
efforts under the FEMA's Building Resilient Infrastructure and 
Communities (BRIC) program where many states are reporting that the 
$600,000 limit for capacity support to local governments is limiting 
the number of communities with the expertise and skill set to write and 
access project grants.
---------------------------------------------------------------------------
    Using some of the EDA's allocated funding under the American Rescue 
Plan for predevelopment could supplement the existing predevelopment 
programs at EDA,\13\ which are already over-subscribed. Not only are 
these funds a boon to communities, but they're also a smart venture 
investment, generating $16-20 in economic payoff \14\ for every 
predevelopment dollar spent. No wonder a diverse set of groups \15\ 
from the U.S. Chamber of Commerce and the National Association of 
Manufacturers to the Coalition for Green Capital and the International 
Economic Development Council, support expanding predevelopment 
investment in this Congress.
---------------------------------------------------------------------------
    \13\ For example: https://eda.gov/pdf/about/Local-TA-and-UC-
Program-1-Pager.pdf
    \14\ https://www.epa.gov/brownfields/brownfields-program-
environmental-and-economic-benefits
    \15\ https://milkeninstitute.org/sites/default/files/2021-01/
LettetoCongresThValuoPredevelopmen
InvestmentForStrengtheningandSustainingU.S.Infrastructure.pdf
---------------------------------------------------------------------------
    In sum, the EDA can pave the way to better 21st century 
infrastructure by delivering funding and technical assistance for a 
focused portfolio of replicable resilience projects.
    Be Nimble and Adaptive. There are too many stories where government 
relief checks take too long to reach affected individuals, and 
historically underserved communities find it impossible to access 
grants. To meet the moment, incoming EDA leadership needs to look at 
new ways to accelerate on the ground results and scale. While the EDA 
has many technical assistance delivery mechanisms, the greatest scale 
at this time can be achieved by relying on the EDA's 50-state 
University Center network to ramp up expanded technical assistance to 
service the proposed resilient infrastructure project menu. In turn, 
EDA's university partners need to think and act anew about their role 
in 21st century infrastructure deployment, partnering with project 
finance experts and impact investors to create project acceleration 
centers to help build next-generation resiliency projects and train up 
community leaders and students with the skill sets needed for life-
cycle innovation.
    Emphasize Life-Cycle Outcomes Such As Equity and Resilience. To 
meet the moment, EDA leadership should also allocate some of its ARPA 
funding to pilot performance-based infrastructure investment 
incentives. For larger projects, a portion of EDA infrastructure 
funding could be conditioned on requiring local project sponsors to do 
an infrastructure risk & resilience assessment (IRRA) to ensure that 
life-cycle project costs, maintenance needs, and other risks are 
considered, along with alternative financing and project management 
systems. The pause created by the IRRA, like the old environmental 
impact assessment under the National Environment Policy Act, would 
offer a clear moment in the procurement process for improvements.\16\ 
Taking this step is also likely to attract private and impact capital.
---------------------------------------------------------------------------
    \16\ As noted, most U.S. infrastructure projects (be it a public 
university building or a transportation project) are promoted by a 
single public agency and only the capital costs of the project are 
initially funded by the governing legislative authority. Little regard 
is given to the life-cycle costs of the project over its 30-year or 
more life, which studies show is fueling the nation's extreme deferred 
maintenance gap. Even less consideration is given to managing life-
cycle operational risks or performance outcomes that drive up project 
costs. Richard Dobbs, et al ``Infrastructure Productivity: How to Save 
$1 Trillion a Year,'' McKinsey Global Institute, January 2013, http://
www.mckinsey.com/industries/infrastructure/ourinsights/infrastructure-
productivity.
---------------------------------------------------------------------------
  III. What Congress Should Consider for ``EDA Next'': A New Mission 
                  Focused on Resilient Infrastructure
    EDA, created by the Public Works and Economic Development Act of 
1965, has long punched above its weight as one of the few federal 
agencies focused exclusively on economic development. I know this from 
personal experience. I have worked closely with EDA Administrators 
serving both the Obama and Trump Administrations, helping to advance 
bottom-up technical assistance and regional innovation competitions, 
including the Invest in Manufacturing Community Partnership \17\ and 
efforts to expand community technical assistance to promote the 
innovative use of Opportunity Zone funding for resilient infrastructure 
projects.\18\
---------------------------------------------------------------------------
    \17\ IMCP: https://www.eda.gov/archives/2016/imcp/overview/
    \18\ https://milkeninstitute.org/articles/opportunity-zone-
workshop-series-opens-mississippi https://www.eda.gov/archives/2021/
news/blogs/2019/10/01/success.htm
---------------------------------------------------------------------------
    Until recent infusions of federal funding through the CARES Act 
(2020) and the American Rescue Plan (2021), the agency has had an 
annual budget hovering around $250-300 million for the last two 
decades. Over the last five decades, the agency's Congressionally-
mandated mission has grown over time to cover economic adjustment 
assistance, manufacturing, regional innovation clusters, and disaster 
relief.\19\ EDA currently has seven investment priorities: Equity, 
Recovery & Resilience, Workforce Development, Manufacturing, 
Technology-Based Economic Development, Environmentally-Sustainable 
Development, and Exports & Foreign Direct Assistance.\20\ EDA retains a 
diffuse footprint across the United States for a small agency. Within 
its six designated federal regions, the agency also funds 377 Economic 
Development Districts, over 50 University Centers \21\ and 11 Trade 
Adjustment Centers.\22\
---------------------------------------------------------------------------
    \19\ As noted in the CRS Report, Economic Development 
Administration: A Review of Elements of Its Statutory History: ``The 
agency evolved from a cluster of programs targeted primarily to 
distressed communities to an agency that was also called upon to direct 
assistance to urban areas, and to address issues confronting 
communities experiencing sudden and abrupt economic dislocation caused 
by factory shutdowns, foreign competition, base closures and 
disasters.'' CRS R41241, June 3, 2011.
    \20\ Commerce Department release, April 14, 2021. https://
content.govdelivery.com/accounts/USEDA/bulletins/2ccd92e
    \21\ https://www.eda.gov/programs/university-centers/current-list/. 
Note: EDA's UC program includes four Historically Black Colleges and 
Universities (HBCUs)
    \22\ See http://www.taacenters.org/locations.html
---------------------------------------------------------------------------
    Over its history, Congress has used the EDA several times as an 
accelerator mechanism to address pressing economic challenges.\23\ Now 
the time has come, in my view, for another mission. EDA should pave the 
way for shifting best practices for the deployment of resilient and 
equitable 21st century infrastructure.
---------------------------------------------------------------------------
    \23\ Phillip Singerman, Repurposed Federal Economic Development 
Programs: A Practitioner Perspective, Economic Development Quarterly, 
May 2008.
---------------------------------------------------------------------------
    This would not be the first time EDA has taken on the 
infrastructure problem at scale. In fact, in 1976-1977, the agency was 
appropriated $6 billion in funding ($28 billion in today's dollars!) to 
accelerate counter-cyclical, state and local public works projects to 
help the country come out of recession.\24\ The Local Public Works 
program awarded funds to state and local governments through a bottom-
up process.
---------------------------------------------------------------------------
    \24\ Public Works Employment Act of 1976, P.L. 93-369. Recognizing 
local fiscal conditions, EDA program grants covered 100% of the costs 
of predevelopment and actual construction. CRS Report, Economic 
Development Administration: A Review of Elements of Its Statutory 
History`` CRS R41241, June 3, 2011, pages 12-13.
---------------------------------------------------------------------------
    I argued above that in order to save as much as $7 trillion dollars 
by 2050, Congress should consider strategic investments now to 
accelerate the shift of the U.S. infrastructure system towards an 
outcomes-based system anchored by performance, resilience, and equity. 
EDA can lead the way by returning to its Public Works roots. The 
mission: scaling up resilient, community-scale infrastructure for a new 
era of extreme weather and addressing post-COVID equitable 
infrastructure needs like broadband, clean water, and more.
    This new mission for resilient communities and public works should 
have three objectives: meeting basic community infrastructure needs to 
drive equitable growth outcomes, incentivizing performance-based 
infrastructure investments for projects of regional significance, and 
incubating 21st century whole-of-government federal coordination from 
the bottom up across all infrastructure modes. Along with the reforms 
recommended above regarding focused project deployment menus and 
University Center investments, this new effort should be anchored by 
the creation of a Federal Predevelopment Fund to catalyze the next 
generation of shovel-worthy projects.
    Create a Federal Infrastructure Predevelopment Fund at EDA. A 
Federal Infrastructure Predevelopment Fund, as originally proposed,\25\ 
would support a three-year base investment in flexible predevelopment 
funding designed to jumpstart a pipeline of community-level resilience 
projects, offer competitive predevelopment funding for projects of 
regional and national significance and catalyze the needed, long-term 
shift to performance-based infrastructure funding by the federal 
government.
---------------------------------------------------------------------------
    \25\ https://www.milkenreview.org/articles/the-case-for-an-
infrastructure-predevelopment-fund
---------------------------------------------------------------------------
    The fund would support local technical assistance grants and loans 
to rapidly develop community-led projects while acting as a catalyst 
for investment-ready resilience partnerships. As noted earlier, 
existing predevelopment programs offering this form of technical 
assistance are either over-subscribed for large resilient 
infrastructure projects or hard-to-access for smaller communities who 
need this support to advance projects from concept to completion. 
Eligible infrastructure investments would include water systems, 
energy, transportation, broadband, housing, and natural infrastructure 
projects alone or in combination with these other investments.
    The fund would address local capacity and barriers that impede a 
pipeline of shovel-worthy projects and help communities reform broken 
public procurement systems that fail to create the incentives for long-
term resilience and timely maintenance. This investment in life-cycle 
asset management \26\ would also attract sidelined private capital into 
community infrastructure at greater scale because the political risks 
would be removed through predevelopment work.\27\
---------------------------------------------------------------------------
    \26\ American Society of Civil Engineers, Changing The 
Infrastructure Equation: Using Asset Management to Optimize Investments 
https://www.asce.org/uploadedFiles/Issues_and_Advocacy/Infrastructure/
Content_Pieces/changing-infrastructure-equation-report.pdf
    \27\ NRDC, Taking the High Road to More and Better Infrastructure, 
2016 https://www.nrdc.org/sites/default/files/taking-high-road-more-
and-better-infrastructure-ip.pdf Also see: European Investment Bank, 
``European PPP Expertise Center,'' 2016, www.eib.org/epec/ (accessed 
May 2, 2016).
---------------------------------------------------------------------------
    Stand Up Regional Resilience Centers. Congress could further 
leverage its investment in local capacity by linking the Predevelopment 
Fund to a nationwide network of regional acceleration centers, housed 
at EDA. These Regional Resilience Centers would accelerate capacity-
building on the ground, transfer best practices and successful models 
among states and regions, and promote federal whole-of-government 
closer to where projects are developed.
    Although it is no secret that Congress has been considering a 
``national infrastructure bank'' for 15 years, an idea predicated on 
the prevalence of Hoover Dam-scale projects, studies show these 
projects are relatively limited.\28\ EDA Regional Resilience Centers, 
however, could focus on innovations that America needs now, like 
broadband for remote work, energy-efficient hospitals, and modern water 
management systems. These Regional Centers could house project finance 
and technical assistance teams, acting as expert leads to help 
communities successfully build one of the replicable projects on the 
EDA resilience project short-list.
---------------------------------------------------------------------------
    \28\ U.S. Treasury, 2016: 40 Proposed U.S. Transportation and Water 
Projects of National Significance https://www.treasury.gov/connect/
blog/Documents/final-infrastructure-report.pdf
---------------------------------------------------------------------------
    Whether it's a region where there is too much water, not enough 
water, or another location-specific resilience challenge, going 
regional would bring resources and performance accountability closer to 
the ground, as recommended in recent reports by the Kinder and Milken 
Institutes.\29\ A regional delivery strategy for federal engagement 
would allow communities to act quickly to deliver on the most pressing 
projects in their region without being slowed down by federal 
programmatic requirements, funding silos that don't fit post-COVID 
community priorities, or local matching requirements that make it 
harder for smaller and underserved communities to access the technical 
assistance they need to innovate.
---------------------------------------------------------------------------
    \29\ Kinder Institute, 2021. A Bottom-Up Strategy for American 
Renewal.https://kinder.rice.edu/research/bottom-infrastructure-
strategy-american-renewal Milken Institute, 2021. Accelerating 
Infrastructure Investment Across the Country https://
milkeninstitute.org/reports/infrastructure-investment. US DOT Regional 
Infrastructure Accelerator Program, 2021 https://
www.transportation.gov/buildamerica/financing/tifia/regional-
infrastructure-accelerators-program Harvard Ash Center, Government 
Innovations, https://www.innovations.harvard.edu/west-coast-
infrastructure-exchange
---------------------------------------------------------------------------
    Link Funding To Performance Improvements. Access to predevelopment 
funding would hinge on a commitment to evaluating economic and equity 
outcomes as well as to long-term performance improvements in key 
economic resilience criteria, such as life-cycle asset management, 
budgeting, and other fiscal best practices. As noted earlier, based on 
past economic studies by EDA and EPA, each $1 spent on predevelopment 
will generate $16-20 in total economic outcomes and funding 
leverage.\30\
---------------------------------------------------------------------------
    \30\ EPA: https://www.epa.gov/brownfields/brownfields-program-
environmental-and-economic-benefits EDA: https://www.eda.gov/
performance/
---------------------------------------------------------------------------
    Match Fund Size to Community Need. Because a diverse set of groups, 
from the American Society of Civil Engineers and the Local Initiatives 
Support Corporation to the Natural Resources Defense Council and the 
Center for Rural Innovation, are calling for expanded predevelopment 
investment,\31\ the Milken Institute was asked recently: exactly how 
much predevelopment support is needed right now to jumpstart more 
projects?
---------------------------------------------------------------------------
    \31\ Letter to Congressional Leaders, January 25, 2021. See: 
https://milkeninstitute.org/sites/default/files/2021-01/
LettetoCongresThValuoPredevelopmenInvestmentForStrengtheningand
SustainingU.S.Infrastructure.pdf.
---------------------------------------------------------------------------
    Based on our analysis, the benefit of/the case for a $15-25 billion 
predevelopment fund to jumpstart community, state, and regional-scale 
innovation over the next three years is easily supported by the data.
    We compiled estimates on the national need for flexible 
predevelopment funding based on two methods. One looked at historical 
and projected gaps between municipal bond spending on infrastructure 
and known gaps, using the more conservative estimates prepared by 
Oxford Research.\32\ The other method was compiled working with project 
finance experts who are already funding and financing high-demand 
infrastructure project types, such as community broadband, community 
micro-grids, and other projects. Each method confirmed that on-the-
ground predevelopment demand far exceeded $15 billion. Based on past 
studies by the EPA and the EDA, we would expect $16-20 in benefits to 
flow from each $1 spent on predevelopment, or $240-320 billion in total 
benefits accruing from a $15 billion fund.
---------------------------------------------------------------------------
    \32\ Oxford Global Infrastructure Report, 2017 U.S. data is drawn 
from pages 65 and 148 for the key US data.
---------------------------------------------------------------------------
Estimate #1: Predevelopment Needs Based on Oxford Economics Gap 
        Analysis
    Charts 1 and 2 below indicate a gap between municipal spending in 
the United States and the need of about $200 billion for 2019; 
municipal spending is projected to fall short by an average of $162 
billion annually between 2020 and 2040 based on the Oxford data.
    These charts are based on Oxford Research's more conservative 
analysis of U.S. infrastructure needs). Chart 1 assessed the gap 
between actual municipal infrastructure spending based on data from the 
Securities Industry and Financial Markets Association and then looked 
at projected gaps based on current municipal trends and the Oxford 
needs estimate (Chart 2).
    Based on average predevelopment costs of 10% of capital costs,\33\ 
an additional $15 billion or more in predevelopment funding would lead 
to a minimum of 9x in infrastructure spending, not including any 
additional economic multiplier effects or project investment due to 
market standardization. As we have already seen with solar 
installations, this standardization is likely to produce additional 
investment.
---------------------------------------------------------------------------
    \33\ Predevelopment costs generally range between 7-12% of final 
capital cost at ribbon cutting, depending on the project type. Based on 
sources from our project developer database, 10% is our working rule of 
thumb for cost and need estimation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Estimate #2: Predevelopment Needs Based on Replicable Project Category 
        Estimates
    We reached out to project finance experts to aggregate estimates of 
predevelopment need and impact for a set of high-demand projects that 
communities are asking for where skill set and project development 
funding are unavailable.
    The table below summarizes the aggregated data for predevelopment 
for the four high-demand use cases we analyzed.

------------------------------------------------------------------------
               Project Type                     Aggregated Estimates
------------------------------------------------------------------------
Multi-Purpose Community Center/Emergency    Project size: $5-20 million.
 Center with micro-grid for small           $5M x 30,000 projects =
 communities to be located at 130,000+       $150B
 schools, hospitals, or in other multi-     Projected Predevelopment
 purpose facilities.                         Costs: $15B
------------------------------------------------------------------------
E.V. Charging Stations for advanced         Project Size: $2-12 M
 mobility and equity services in urban      Total Costs (Based on White
 neighborhoods, specifically commercial      House goal for 500K E.V.
 business centers.                           Chargers): $10.7 Billion*
                                            Projected Predevelopment
                                             Costs: $1.07 Billion
------------------------------------------------------------------------
Broadband for rural coops nationwide......  Project size: $5-100 M
                                            Number of rural coops: 838
                                            Projected Predevelopment
                                             Costs: $1.7 billion
                                            Source: Post Road analysis,
                                             based on EIA data
------------------------------------------------------------------------
Water projects for (a) rural, upstream      Advanced wastewater
 conservation infrastructure                 treatment needs estimates
 implementations to improve downstream       from EPA for 18 target
 municipal water quality and urban and/or    states on (a) is $11.333 B
 coastal green infrastructure to address    The combined national need
 flooding, stormwater, sea rise, and waste   on (b) for ``combined sewer
 recycling or sewer outflows.                overflow'' and ``stormwater
                                             management'' is $67.2 B
                                            Projected Predevelopment
                                             Costs: $7.8 B
------------------------------------------------------------------------
Predevelopment Needs for 4 Major Use Cases  $25.5 billion
------------------------------------------------------------------------

                IV. Concluding Recommendations: EDA Next
    As Congress wisely considers big and bold investments to make our 
nation's infrastructure globally competitive and equitable to all, we 
must also ensure that a small portion of new spending is carved out to 
incentivize long-term resilience and infrastructure system performance 
for both public and private infrastructure.
    Without the right carrots, sticks, and technical assistance 
capacity investments designed to promote better infrastructure 
outcomes, we won't be able to overcome the multi-trillion-dollar 
deferred maintenance funding gap that existed long before the pandemic, 
let alone marshal the trillions we will need by 2050 to address climate 
change and extreme weather. That's because a fix for what ails us is 
not just a question of how much we spend but also how well we buy and 
maintain these life-cycle investments.
    In my testimony today, I have proposed that EDA use its existing 
funding and authority to deliver focused support to communities seeking 
critical resilient infrastructure projects, such as emergency centers 
with micro-grids, broadband, critical water systems, and regionally-
demanded projects in each of its six regions.
    Moving forward, as the Committee assesses the future for EDA and 
EDA reauthorization, I believe a return to its roots as a unique 
project accelerator is advised. With additional funding and direction 
from this Subcommittee and Congress, EDA can catalyze a growing 
pipeline of next-generation, community-scale infrastructure projects, 
promote better local best practices, and break down federal agency 
silos over time. These would be wise investments to make.
    While the critical performance shifts we need for better U.S. 
infrastructure cannot happen overnight, these challenges and 
opportunities can be addressed realistically in stages. It begins with 
the proposed three-year investment to help distressed communities now 
with predevelopment support and the creation of Regional Resilience 
Centers to find cross-modal efficiencies and lift up equitable 
outcomes.
    Thank you for bringing attention to these critical issues and for 
the opportunity to testify here today. I am happy to answer any 
questions you may have.

    Ms. Titus. Thank you. It is always good to have some 
academic input into anything that we consider. I appreciate 
that.
    We will now move on to Member questions. Each Member will 
be recognized for 5 minutes. And I will start by recognizing 
myself.
    Mr. Peterson, you and Mr. Carol both mentioned this need 
for predevelopment funding. We know there is pencil-ready, 
there is shovel-ready. Now we are hearing predevelopment, 
something I think we need to learn more about. I don't know if 
you want to jump in there, Mr. Peterson, and add to what Mr. 
Carol was saying.
    Mr. Peterson. Yes, I would be happy to. Thank you so much 
for the question.
    Here is what I know. Every community has a list of 
potential projects that remain on the shelf because they don't 
have the initial resources to get the ball rolling. So a 
dedicated source of predevelopment project funding would allow 
communities to access critical resources that would help them 
get more of those projects off the shelf.
    Also, staff capacity is a major issue, likely as much as 
project funding, that could be addressed through this type of a 
pilot program. It is critically important that communities have 
access to the resources that can make all those great projects 
in our comprehensive economic development strategies a reality, 
so they are not just well-conceived, well-intentioned ideas.
    So we need to address that space between the plan and 
getting to the finished product that we all want. Capacity 
building, in my mind, including predevelopment funding, would 
go a long way.
    Mr. Carol. If I could just add to that, Madam Chair, so we 
have available more detailed language on the types of 
predevelopment elements that happen after planning has 
determined the needs. But I think here--and I am happy to share 
that with the committee, in addition to the written testimony--
I think here are just a few examples.
    There are existing predevelopment programs. EPA brownfields 
is a perfect example. Only the public sector will remediate a 
site that can then lead to private development and create a lot 
of activity. The TIGER bill, now RAISE program, is another 
example for large projects, where cities like Las Vegas and 
others can do innovative projects. Both of those programs are 
always oversubscribed.
    And I think the other element I would put out there, the 
committee has done some great work around the FEMA BRIC 
program, which is a great example of helping communities access 
funding that is there for resilient infrastructure projects. 
But there is a $600,000 State cap on technical assistance, so 
each State only has $600,000 to help communities access money 
that is there--grant writers, down the line--what Jonas was 
saying--that is actually cutting off communities from getting 
funding that is already there. So skipping that predevelopment 
step after planning is unrecommended.
    Ms. Titus. Thank you, very interesting. I would go back to 
you, Mr. Peterson, since you are in Las Vegas and have seen the 
devastating impact of COVID on travel and tourism. Can you 
share with us some of the things that you all are doing that we 
might consider, as we look at reauthorization, now that EDA has 
a special set-aside for communities hit by downturns in this 
area?
    Mr. Peterson. Thanks again, Chairwoman Titus, for the 
question.
    So in southern Nevada--so the Las Vegas Convention and 
Visitors Authority really takes the lead on all things tourism. 
But, as the regional economic development group, we very much 
are strategically aligned, and partner on a variety of 
projects.
    So here is what I would share. It is absolutely critical 
that we get America's tourism economy firing on all cylinders 
again. A lot of damage has been done. And Chairwoman Titus, as 
you know, we have definitely seen that damage here, in Las 
Vegas. So investments in health and safety infrastructure, 
investments in tourism infrastructure, I think, will prove 
essential. Flexibility is important here, because communities 
look so different.
    We definitely appreciate the set-aside funds for tourism 
communities impacted by the pandemic, and I would submit 
Congress should consider speedy, equitable distribution of 
those funds to help tourism reemerge, really, in a way that 
benefits those markets like Las Vegas that have a very 
recognized brand, but also our small and medium communities, 
even emerging markets.
    Ms. Titus. Yes, you don't have to have the famous Las Vegas 
Strip to be a tourist destination, you can have some place of 
natural beauty, some historic site. I think someplace in Kansas 
has the world's largest ball of twine. There is always 
something somebody wants to see. So we need to encourage it in 
other places, as well as Las Vegas, certainly.
    Well, thank you, both of you, for those good answers. We 
will now go to Mr. Webster for questions.
    [Pause.]
    Ms. Titus. Unmute.
    Mr. Webster. OK, is that better? Am I on now?
    Mr. Peterson, you recommended support for the capacity 
building at a local level, and the chairman also asked about 
that same thing. Can you talk more about what types of 
resources are needed and why, and where in the mix of projects, 
or whatever it is, do those kick in?
    Do they start early? Give me a little idea about that.
    Mr. Peterson. Yes, great question. Again, thank you.
    You know, I think capacity building is critically 
important. Let me give you a very specific example, and that 
would be in my organization, the Las Vegas Global Economic 
Alliance.
    As a result of the pandemic, we have seen cuts to some of 
our funding sources and, as a result, to balance our budget we 
have had to pull back in some areas, including operations 
staff. So I think there is very much a need for capacity 
building in terms of staff for operations that will allow 
economic development organizations to make more projects become 
a reality.
    And again, I can't emphasize enough that so many 
communities across the country have incredible comprehensive 
economic development strategies, where I think we need the help 
in capacity building, some of that predevelopment project 
funding, to better scope out projects, get the ball rolling, 
and then capacity building for staff and resources directly to 
EDOs to help them make those projects become a reality.
    Mr. Webster. OK, Mr. Carol, along the same lines there, it 
seems like I am hearing the same thing, but maybe it is not. 
Can you give us some examples of why predevelopment support was 
mentioned, and how does that differ from what we just talked 
about?
    Mr. Carol. Sure, so--and I think, as an engineer, 
Representative Webster, you can certainly understand, there is 
that initial phase of what outcomes do we need to buy, in terms 
of the size of a wastewater treatment plant, or any level of 
service, and then there is how do you actually make the project 
happen. And those steps, to decide what technology, what 
design, where are you going to do it, assembling the land, 
those are all the things that have to happen before a municipal 
bond deal is done, or before a public-private partnership is 
done, or before even a grant is gotten.
    A good example, I think, would be in northern California 
there is the Blue Lake Rancheria microgrid center that was 
built in 2018. This is a new technology to use microgrids in a 
community center. It was a, I believe, $6.2 million deal. At 
least $1\1/2\ million was predevelopment to do something that 
now thousands of communities want: a small hospital, a school 
building, a place to go where you can charge your phone and 
sleep after the next flood, fire, or alien invasion.
    That is new technology that needs a certain type of 
expertise, and the same, really, with broadband, because there 
are different sizes of broadband deals that--I think we could 
stretch broadband investment by using predevelopment to make 
sure that we have--here are the different tiers of projects 
that you can do.
    Mr. Webster. So I got that, but you listed off several 
places where money is needed. It's one thing applying for a 
grant, going through a process, getting that. On the other 
hand, there are a couple of places along the way, including 
what we are doing here, where speed wins. So how do you balance 
that?
    Sometimes you can't have enough time to do maybe 
predevelopment, or whatever you want to call it. Or is it that 
we are not starting soon enough?
    Mr. Carol. Well, in my full written testimony, what I am 
identifying is right now infrastructure in the U.S., our $2 
trillion deferred maintenance gap is a procurement problem. We 
buy the low-cost capital bid with no plan to maintain it, and 
have been doing that for decades across red and blue States, 
and I think----
    Mr. Webster. Oh, we are great at that.
    Mr. Carol. Excuse me?
    Mr. Webster. We are great at that.
    Mr. Carol. And so, if we could use the predevelopment 
carrot as a way to incentivize communities to think what is the 
life-cycle outcomes that we want to buy, in terms of vehicle-
miles traveled or broadband delivered, I think that is where 
EDA could play a real innovative role as kind of an initial 
startup engine to think about this life-cycle resilience, 
particularly for post-COVID infrastructure needs in some 
categories that everyone is demanding at high scale, including 
broadband.
    Mr. Webster. Thank you very much, and I yield back.
    Ms. Titus. Thank you. We will go to Ms. Norton for 5 
minutes.
    Ms. Norton. Thank you, Madam Chair. This question is for 
Mr. Peterson.
    As you know, Mr. Peterson, communities taking advantage of 
EDA's planning resources often lack the human and the financial 
resources to implement those plans. I was interested in the 
notion you indicated of a pilot program. How would that benefit 
economic developers?
    Mr. Peterson. Thank you so much for the question. I think 
it goes--the concept of the pilot program that we have in mind 
goes to exactly what you said, the financial but also the human 
needs of organizations to build capacity with economic 
development groups in a variety of ways.
    And once again, flexibility, I think, is important here, 
but designed around getting more of those projects that are 
scoped out, are in those great plans, to fruition. So 
operations, project funding, staffing, and staffing that has 
multiple years to see projects to fruition, I think, is 
important. I can speak for my organization when we look at 
grants. We don't need them to last forever, but we do need a 
time horizon that allows us to staff up, implement, and staff 
back down without disrupting the organization.
    So those are the areas that we see are critically 
important. Thank you.
    Ms. Norton. I think that if that pilot program was spread 
across the board, it would be very helpful.
    Mr. Peterson, may I ask yet another question? You are in a 
position to address racial and socio-economic inequality. And 
you describe that in your testimony. Could you elaborate as to 
how EDA, in particular, can provide more opportunities to those 
who are underserved?
    Mr. Peterson. Well, another excellent question. Thank you. 
And I will share, on behalf of IEDC, this is an issue that is 
near and dear to our hearts. So we have built equity, as a 
priority, into our programs, our services, our planning--
everything we do as an organization. From an EDA point of view, 
I appreciate the efforts that are already underway to look at 
underserved communities.
    I love the idea of doing even more to get the word out. I 
think it is--it amazes me how often parts of our community 
don't know about the great resources already available through 
EDA, and so I think more can be done there.
    And then I think we need to take a systematic look at how 
we prioritize projects to make sure we are hitting the right 
areas that address a critically important equality issue.
    Ms. Norton. Thank you very much.
    I have a special interest in climate change. And Mr. Carol, 
I have a question for you.
    Climate resiliency is a key goal of the Transportation and 
Infrastructure Committee on which I serve. In your testimony 
you illustrate how EDA, in particular, can play a role in that. 
Why is it important for EDA to be involved in the fight against 
climate change?
    What does it bring to the table, what does EDA bring to the 
table, that other agencies and funding sources lack or do not?
    Mr. Carol. Thank you very much for the question. I guess I 
would answer it in two ways.
    One, what we are seeing on the ground is the--if you are a 
local or State official, it is the integration of modes, so 
there is a bunch of great Federal programs. Sometimes they are 
siloed. And if you are a local official trying to put 
together--and you know, 25 sources of capital, it is super 
hard. That is one of the skill sets that Jonas Peterson was 
talking about that is missing. And so EDA, because it is 
multimodal, is able to help with that.
    I mentioned the example of, really, what we are hearing 
from many communities around the country, is that they want an 
emergency microgrid public building. Is it a library? Is it a 
school? Is it a rural health center? Does it involve broadband? 
It is all of those things.
    And so we are seeing a lot of new types of community-scale 
projects--energy-efficient wastewater, we have all these 
wastewater facilities, that are usually the largest energy 
user, built in the 1970s. There are dams and levees, waste to 
value.
    So EDA has this regional footprint, which is great. We have 
regional innovation strategies they have developed. And as they 
look and scan for where are--I sort of see this as: EDA can 
create a food truck offering, you know, these are the six types 
of projects in highest demand, and we can help you with those, 
rather than--particularly with the ARPA money, the rescue plan 
money, to be able to spend that out in the next, you know, 18 
months is not going to--looking at thousands of projects, I 
don't think, would be as efficient.
    Ms. Norton. Thank you very much, Madam Chair.
    Ms. Titus. Thank you. You know, we are hearing from these 
answers--this is what we heard from the Secretary earlier, and 
it reinforces that need for maybe some of us to get staff to 
come out and do roundtables or townhalls in our district to 
[inaudible] some of these communities about just what is 
available.
    We now go to Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Hawkins, I want to speak with you about the importance 
of rural broadband. I know that that is contained within the 
essence of your report. You say in there that Farm Bureau has 
continued ``to advocate for significant investment to support 
broadband deployment in rural communities.''
    Then you go to list out very eloquently that ``the 
coronavirus pandemic has only exacerbated and made more 
apparent the need for rural broadband in rural communities as 
employees shifted to working from home, school districts closed 
and resorted to distance learning platforms, and patients 
sought healthcare through telemedicine platforms.''
    Then you go on to say ``farmers and ranchers depend on 
broadband just as they do highways, railways, and waterways to 
ship food, fuel, and fiber across the country and around the 
world. Many of the latest yield-maximizing farming techniques 
require broadband connections for data collection and analysis 
performed both on the farm and in remote data centers.''
    Then lastly, you say, ``however, 29 percent of U.S. farms 
have no''--and again, you say ``no''--``access to the 
internet.''
    And so, Mr. Hawkins, if you will for just a moment, could 
you please expand on, again, how important broadband 
infrastructure is to the agriculture and ag industry suppliers, 
especially how they relate to rural remote communities?
    And then also speak, if you will, about what Congress can 
do to expand the availability of broadband to rural America.
    Mr. Hawkins. Thank you, Congressman, for the question. I 
would say one of our members summed it up best for me the other 
day, when he described broadband as the invisible thread that 
connects agriculture, our rural communities, and our urban 
centers. It truly is key, as we talk about economic 
revitalization across rural America.
    And so, if we have learned anything as a result of the 
pandemic, we saw several things. In our communities, especially 
my hometown of 1,100 people, we saw very quickly that, while we 
have service, the need is great. The service that we have for 
high-speed internet, essentially, goes from the east to the 
west city limits of Appleton. And for our farm families that 
live outside of town, data plans were quickly getting used up 
on cell phones, as families scrambled to try to help their kids 
adjust to the new way of life and get through school. And so, 
quickly, we learned yet again, just at the home level, how 
important it is to keeping things going, from an education 
standpoint.
    In our community and in our county, we have roughly about 
17 percent poverty. And we do have a real issue with substance 
abuse. And, as we talk about--as a health community, as we talk 
about telemedicine, I mentioned in my testimony that unreliable 
internet is the biggest impediment for us to utilizing 
telemedicine. And the number-one service we need is access to 
mental health services, followed by cardiac services. So it is 
not like we can't find a provider. It is being able to do it 
via the internet in a reliable fashion.
    And then finally, as we think about the farm gate, you 
know, when we saw supply chains break down during COVID, and 
when, for the first time, some Americans went to a grocery 
store and saw a near-empty meat case, it led everyone to be 
reminded that they depend on us, as farmers and ranchers, three 
times a day, at least, right?
    And so I can assure you that the kink in the supply chain 
wasn't at the farm gate. We had plenty of product. We had 
plenty of animals. We had plenty of crops. The issue was at the 
processing site. But what we learned is that we have farmers 
who are willing to adjust to use the internet and to reach 
consumers directly. That is why we started a meat processor 
database within our Missouri Farm Bureau website, so that our 
farmers could connect with consumers and vice versa.
    So time and time again, we see opportunities with basic 
broadband service. As we think about the future of agriculture, 
what we don't know, we don't know. There are farmers who have 
access to high-speed internet who are clearly at the head of 
the curve, in terms of adopting cutting-edge technology. Then 
you have folks like my grandfather, growing up, that still used 
a spiral-bound shirt pocket notebook, that would do his data 
collection in that notebook, and then crunch the numbers on the 
back of a Post Toasties box. So we span everything in 
agriculture, and that is what truly makes us so incredibly 
diverse, as well as resilient.
    So bottom line, though, is we talk about bringing home the 
next generation to our communities and to agriculture. High-
speed internet is critical, absolutely critical to agriculture, 
to entrepreneurship, to healthcare, to education. It is that 
thread of life that our rural communities need.
    Mr. Guest. Mr. Hawkins, thank you so much for being with us 
today. And please pass along my thanks to all the farmers, 
particularly those related to Farm Bureau that work so hard 
every day to feed America. Thank you again.
    Mr. Hawkins. Thank you.
    Ms. Titus. Commissioner, you mentioned the internet in your 
comments. Do you want to weigh in on this question?
    Mr. Eliason. One of the things that is important to 
understand is that the FCC needs to modernize its data 
collection. So when you look at the maps that are being used, 
it is important to understand that using census block is not a 
good way to figure out where the service areas are.
    We are putting a lot of money out there for broadband 
development, and we have to make sure that we implement it in a 
manner where it actually goes to the best service. There have 
been a lot of restrictions by States to local development of 
the broadband service. So it is something that we have to work 
from our side to try to get those of us that don't have 
providers that are not investing in the local areas, especially 
rural areas, because they are not as financially profitable to 
be able to get those. So there is a lot of work to be done.
    But as we go through the process of implementing the 
moneys, it is important to make sure that the money actually 
gets built, and it gets used and done, because it is not only 
accessibility, but affordability. So there are two sides to 
that coin, when it comes to the development of rural broadband. 
So it is important to understand.
    We did a study here, in our Buckeye Hills Regional Council, 
and it turned out it was going to be $8 billion to get fiber to 
all the homes, because we are in a hilly area, so you can't use 
satellite, and you can't use some of the other things out there 
that are available in areas that have much more line-of-sight 
availability. So it is really an expensive proposition, so we 
have to make sure we take a look at that.
    And I can tell you lots of stories about kids having to go 
to McDonald's and Wi-Fi hotspots here in our county to try and 
get their work done. So they are falling behind. And that 
happens in a lot of rural areas because they don't have the 
accessibility.
    Ms. Titus. Thank you. Thank you very much.
    Miss Gonzalez-Colon, is she still with us?
    [Pause.]
    Ms. Titus. Well, while we wait for her, I would just go 
back and ask Ms. Cooper.
    You mentioned the SPRINT grant that you got with a 
university campus there in your area. Could you talk a little 
bit more about your relationship with the university, and how 
the university can help with the Economic Development 
Administration, and that whole kind of scenario?
    Ms. Cooper. Oh, absolutely. Thank you so much for the 
question.
    We are very fortunate to have Northern Kentucky University 
as, not only a great educational institution, but a great 
partner in our region. I had mentioned the data analytics. We 
have an incredible economic data center there that our 
businesses rely on, that we rely on, so that we can make proper 
decisions. Local government, small businesses, and our large 
businesses all partner together with this university to try and 
not only address the needs of our region as a whole, but 
individual business issues that may come up, so that they can 
grow and develop.
    The entrepreneurship piece of it is huge. It is going to be 
an incubator for entrepreneurs, where they can come and not 
only help develop their project, but also take that idea, and 
take it to commercialization. And those of you who work with 
entrepreneurs know that that is always a step that folks 
struggle with. They have the idea, they know what they want to 
do, but having that support system around them, and having that 
ability to take that project to commercialization is something 
that is key. And it often keeps a great idea and a great 
entrepreneur from becoming a success story.
    So we are really excited about this opportunity, and this 
EDA investment will help us work with these folks through our 
revolving loan fund. Once they get these ideas, we can take 
them, work with them, with their business plans, and take them 
to that next step. So it is really exciting.
    Ms. Titus. It sounds like it. And I have talked to the 
economic development folks here at UNLV, and they are working 
on something similar, with the incubator and then the 
accelerator, I think they called it. You know, get the idea, 
and then push it out there, and then it becomes part of the 
business world. So it really can make a difference. So thank 
you for that.
    Any further questions from any of the Members, Mr. Webster?
    We are good?
    Mr. Webster. We are good.
    Ms. Titus. What?
    Mr. Webster. I just said I am good.
    Ms. Titus. OK.
    Mr. Webster. It was a great, great, great hearing.
    Ms. Titus. Well, thank you all very much. I think it has 
been a good hearing. We got some good information to use, and 
we are all excited on both sides of the aisle about 
reauthorizing the EDA, and we have seen what kind of good work 
it can do in the time of a disaster, or just in sponsoring and 
helping us to develop when times are good. So thank you. Your 
comments have been very helpful.
    I now ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of the hearing.
    Without objection, so ordered.
    And so we will be talking to you all again, I am sure, as 
we move forward with this effort.
    And now the subcommittee stands adjourned, thank you.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you to Chair Titus and to today's witnesses.
    I also want to welcome Mr. Hawkins, President of the Missouri Farm 
Bureau. His knowledge and work in Missouri will help us better 
understand how we can better position EDA to support farming businesses 
and economies.
    EDA was created in a time when a lack of traditional 
infrastructure--like water, sewerage, or roads--prevented many 
distressed communities from attracting businesses and jobs. 
Unfortunately, many areas still have these challenges. And to make 
matters worse, many rural communities now have the added challenge of a 
lack of broadband connectivity.
    While EDA can and has funded certain broadband projects, updating 
EDA's authorities to remove hurdles to more viable projects is 
critical.
    Last Congress, I introduced H.R. 6491, the E-BRIDGE Act, to do just 
that so that more broadband projects could be considered by EDA. I look 
forward to working with Members of the Committee and stakeholders as we 
prepare to reintroduce this legislation.

                                 <F-dash>
 Letter of April 27, 2021, from Morgan W. Reed, President, ACT/The App 
      Association, Submitted for the Record by Hon. Daniel Webster
                                                    April 27, 2021.
The Honorable Dina Titus,
Chairman,
House Committee on Transportation and Infrastructure, Subcommittee on 
        Economic Development, Public Buildings, and Emergency 
        Management, Washington, DC 20515.
The Honorable Daniel Webster,
Ranking Member,
House Committee on Transportation and Infrastructure, Subcommittee on 
        Economic Development, Public Buildings, and Emergency 
        Management, Washington, DC 20515.

 Investing In America: Reauthorization of the Economic Development 
Administration

    Dear Chairwoman Titus, Ranking Member Webster, and Members of the 
Subcommittee,
    We applaud this Subcommittee for its examination of the dynamics of 
economic development, with tomorrow's hearing, ``Investing in America: 
Reauthorization of the Economic Development Administration.'' ACT/The 
App Association (the App Association) is the leading trade group 
representing small mobile software and connected device companies in 
the app economy, a $1.7 trillion ecosystem led by U.S. companies and 
employing 23,910 in Nevada and 237,090 in Florida alone.\1\ Our member 
companies create the software that brings your smart devices to life. 
They also make the connected devices that are revolutionizing 
healthcare, education, public safety, and virtually all industry 
verticals. They propel the data-driven evolution of these industries 
and compete with each other and larger firms in a variety of ways, 
including on privacy and security protections.
---------------------------------------------------------------------------
    \1\ ACT/The App Association, State of the U.S. App Economy: 2020 
(7th Ed.), available at https://actonline.org/wp-content/uploads/2020-
App-economy-Report.pdf.
---------------------------------------------------------------------------
    App Association members exist all over the world and in a wide 
variety of geographies due to the mobile nature of the digital 
ecosystem. In rural and suburban areas, accelerators and incubators are 
particularly integral because they provide a cluster of resources that 
wouldn't otherwise be available to startups and fledging developers. 
These resources include everything from venture capital and office 
space to things as fundamental as a stable broadband connection. 
Moreover, the app ecosystem often takes the shape of a ``hub and 
spoke'' system in each locality where it flourishes, where accelerators 
and incubators serve as hubs that support the software and device 
companies branching off as spokes.
    The United States Economic Development Agency (EDA) has a regional 
focus in bringing economic development initiatives to localities. The 
App Association believes the EDA can play a key role in deploying 
broadband to rural and underserved communities as part of the 
Subcommittee's priority to foster robust economic growth.
          I. State of Play at the Economic Development Agency
    The EDA exists both to provide capital to localities to spur 
business development in their regions and to bolster local 
infrastructure as a means to facilitate economic development.\2\ 
Capital is provided through EDA grant programs such as Economic 
Adjustment Assistance (EAA) grants, intended to ``fund market and 
environmental studies, planning or construction grants, and capitalize 
or recapitalize revolving loan funds (RLFs) to help provide small 
businesses with the capital they need to grow.'' \3\ The Coronavirus 
Aid, Relief, and Economic Security (CARES) Act provided the EDA with 
$1.5 billion for economic development assistance programs to help 
communities respond to COVID-19. Although this funding is nearly five 
times the recent annual appropriation for EDA,\4\ the COVID-19 pandemic 
is undoubtedly a disastrous event that occurred at such scale it will 
take considerable gains in productivity to recover lost economic 
output. An article published by McKinsey & Company earlier this year 
makes a poignant point on this:
---------------------------------------------------------------------------
    \2\ U.S. Economic Development Administration Value Proposition 
Statement, available at https://www.eda.gov/about/Value-Proposition.htm
    \3\ Economic Development Administration Economic Adjustment 
Assistance Program one-pager, available at https://www.eda.gov/pdf/
about/Economic-Adjustment-Assistance-Program-1-Pager.pdf
    \4\ ``The Economic Development Administration and the CARES Act 
(P.L. 116-136),'' Congressional Research Service, (April 2, 2020), 
available at https://crsreports.congress.gov/product/pdf/IN/IN11303

        ``Just as 19th-century farmers needed roads and railroads to 
        participate in the broader economy, today's Americans need 
        digital to do the same. Too many cannot, either because of a 
        lack of high-speed access (78 percent coverage in rural areas 
        at the beginning of 2019) or lack of affordability. In terms of 
        education, such deficits are likely to have damaging long-term 
        effects, particularly on Black, Hispanic, and poorer 
        schoolchildren, whose parents are also the most likely to have 
        been economically hurt by the COVID-19 crisis. For both 
        economic opportunity and racial equity, then, broadening 
        digital access should be a high priority.'' \5\
---------------------------------------------------------------------------
    \5\ ``America 2021: Rebuilding lives and livelihoods after COVID-
19,'' McKinsey & Company, (February 16, 2021) available at https://
www.mckinsey.com/industries/public-and-social-sector/our-insights/
america-2021-rebuilding-lives-and-livelihoods-after-covid-19

    II. Broadband as Infrastructure and the Value of Public-Private 
                              Partnerships
    One way to boost productivity and bridge gaps in equity is through 
investing in digital infrastructure. The App Association supports 
Eliminating Barriers to Rural Internet Development Grant Eligibility 
(E-BRIDGE) Act (H.R. 6491/S. 3648, 116th) because this legislation 
would ensure that economic development organizations, in public-private 
partnerships or through consortia, can use Economic Development 
Administration grant funds to support broadband deployment. The 
legislation addresses a significant issue in broadband deployment via 
public-private partnerships because most internet service providers 
(ISPs) operate for-profit. Although EAA grants can be used for 
broadband deployment, EDA regulations only allow non-profits access to 
grants and explicitly exclude for-profit organizations from access to 
these grants--even if a for-profit is working with a non-profit in a 
partnership.
    A change to existing law is necessary due to the many benefits of 
public-private partnerships and consortia. One way public-private 
partnerships are optimized is the private sector brings the 
efficiencies and resources to address the issue at hand. Meanwhile, the 
public sector minimizes the risk assumed by the private sector by 
ensuring there will be a use for the resources the private sector 
coordinated. An example of how this might work can be found in the 
creation of federal office buildings. The federal government (public 
sector) will hire a management company (private sector) to build the 
building. By agreeing upfront to be the building's tenant for a number 
of years, the government offsets the risk the management company faces 
in not having tenants. A similar argument could be made in the 
deployment of broadband. However, as stated previously, ISPs are 
usually for-profit entities and it is not clear in current law whether 
their status precludes projects in which they participate from 
eligibility for EAA grants.
    Moreover, there have been impressive gains in broadband deployment 
through consortia such as Microsoft Corporation's Airband Initiative--
where a total of 633,000 previously unserved people gained internet 
access since 2017.\6\ However, partnerships within the private sector 
can only go so far: meaning, they will only go so far as it makes sense 
for the bottom line. Public-private partnerships have the potential to 
go much further--especially in addressing issues of equity--and could 
be a mechanism through which any infrastructure package \7\ addresses 
the issue of broadband access.
---------------------------------------------------------------------------
    \6\ Microsoft Airband Initiative website: https://
www.microsoft.com/en-us/corporate-responsibility/airband
    \7\ Fact Sheet: The American Jobs Plan, The White House, (March 31, 
2021), available at https://www.whitehouse.gov/briefing-room/
statements-releases/2021/03/31/fact-sheet-the-american-jobs-plan/
---------------------------------------------------------------------------
  III. Federal Economic Development Support Unlocks Key Benefits for 
                              Communities
    The app economy itself and the problem-solving efforts of our 
member companies illustrate the need for broadband deployment and grant 
funding to benefit partnerships centered on internet connectivity in 
specific ways.
Telehealth
    One such use case for broadband is telehealth (live audio and video 
interactions between patients and caregivers), which Americans adopted 
quite rapidly in the early days of the COVID-19 pandemic. And while the 
data collected after the beginning of the pandemic is instructive, 
research before it began has shown that digital health tools like 
telehealth help improve the quality of care and help manage costs. For 
example, the University of Mississippi Medical Center (UMMC), a member 
of the App Association's Connected Health Initiative,\8\ used 
telehealth as a means to reach patients with heart disease, obesity, 
cardiovascular disease, or diabetes well before the pandemic. In 2015, 
UMMC established a pilot diabetes telehealth program, which provided 
100 rural Mississippians suffering from diabetes with wirelessly-
connected glucose monitors to manage their treatments. By wirelessly 
bringing their doctors and guidance to them, 96 percent of patients 
complied with their medications. Moreover, they saw a decrease in blood 
glucose levels among participants, and no diabetes-related 
hospitalizations throughout the pilot.\9\ The savings weren't only 
measured in quality of life: these same first 100 patients collectively 
saved an incredible $336,184 in healthcare costs. Using this data, cost 
analyses estimate that if 20 percent of Mississippi's diabetic 
population were enrolled in the telehealth program, it would save the 
state $180 million in Medicaid dollars.\10\
---------------------------------------------------------------------------
    \8\ Connected Health Initiative website: http://
www.connectedhi.com/
    \9\ ACT/The App Association, ``Tuning into Telehealth: How TV White 
Spaces Can Help Mississippi Tackle the Diabetes Epidemic,'' (July 20, 
2017), available at https://actonline.org/2017/07/20/tuning-into-
telehealth-how-tv-white-spaces-can-help-mississippi-tackle-the-
diabetes-epidemic/
    \10\ Connected Health Initiative, ``Testimony of Morgan Reed, 
Executive Director, The Connected Health Initiative, Before the U.S. 
Senate Committee on Health, Education, Labor, and Pensions (HELP) 
Subcommittee on Primary Health and Retirement Security,'' (Sept. 25, 
2018), available at https://actonline.org/wp-content/uploads/CHI-
Testimony-Health-Care-in-Rural-America.pdf
---------------------------------------------------------------------------
    In a similar project, the University of Virginia (UVA) Health 
System, another Connected Health Initiative member, conducted a 
diabetes management program for rural patients involving remote patient 
monitoring. Over six months, the patients' mean hemoglobin A1C levels 
(a marker for diabetes control) dropped from an uncontrolled 9.9 
percent to a much more manageable 7.7 percent.\11\ In Senate HELP 
Committee testimony in July 2020, Karen Rheuban of the UVA Karen S. 
Rheuban Center for Telehealth summarized the steps UVA had taken to 
establish telehealth services before the pandemic:
---------------------------------------------------------------------------
    \11\ ACT/The App Association, ``PSA: Healthcare Tech Isn't Just at 
the Doctor's Office--It's on Your Wrist,'' (August 22, 2019), available 
at https://actonline.org/2019/08/22/psa-healthcare-tech-isnt-just-at-
the-doctors-office-its-on-your-wrist/

        ``Prior to COVID-19, we facilitated more than 100,000 
        telemedicine-related patient services using high definition 
        video teleconferencing, monitored more than 11,000 patients at 
        home, screened more than 18,000 patients with diabetes for 
        retinopathy, the number one cause of blindness in working 
        adults, and through our electronic medical record, EPIC, 
---------------------------------------------------------------------------
        facilitated more than 12,000 e-consults between providers.''

    As a result, UVA was well-positioned to switch in-person 
appointments to virtual, converting more than 45,000 in-clinic patient 
appointments to virtual patient visits beginning in mid-March of 
2020.\12\ This bears repeating: seemingly overnight UVA converted from 
in-person to virtual nearly half the total previous telehealth 
appointments.
---------------------------------------------------------------------------
    \12\ ``Testimony of Karen S. Rheuban, Director, University of 
Virginia Center for Telehealth, Before the U.S. Senate Committee on 
Health, Education, Labor, and Pensions (HELP) Committee,'' (June 17, 
2020), available at https://www.help.senate.gov/imo/media/doc/
Rheuban.pdf
---------------------------------------------------------------------------
    These telehealth benefits are only possible with meaningful 
solutions to broadband access issues, where today nearly 30 million 
Americans do not have sufficient access.\13\
---------------------------------------------------------------------------
    \13\ Bridging The Digital Divide For All Americans, Federal 
Communications Commission, available at https://www.fcc.gov/about-fcc/
fcc-initiatives/bridging-digital-divide-all-americans
---------------------------------------------------------------------------
Agriculture
    Another use case for broadband is precision agriculture. Besides 
serving on the Federal Communications Commission's Task Force for 
Reviewing the Connectivity and Technology Needs of Precision 
Agriculture in the United States,\14\ the App Association has member 
companies in the precision agriculture space.
---------------------------------------------------------------------------
    \14\ Task Force for Reviewing the Connectivity and Technology Needs 
of Precision Agriculture in the United States, Federal Communications 
Commission, available at https://www.fcc.gov/task-force-reviewing-
connectivity-and-technology-needs-precision-agriculture-united-states
---------------------------------------------------------------------------
    SwineTech, located in Cedar Rapids, Iowa, created an internet of 
things (IoT) device that helps alleviate the strain that piglet 
crushing has on the agriculture industry. Founded in 2015, SwineTech 
created SmartGuard, a wearable device that senses when there may be a 
crushing event and encourages the sow to move through sound and 
vibration.\15\
---------------------------------------------------------------------------
    \15\ SwineTech website: https://swinetechnologies.com/
---------------------------------------------------------------------------
    App Association member company involvement in precision agriculture 
goes further than just farmstock. Founded in 2017 and headquartered in 
Fargo, North Dakota, Bushel is an agricultural technology company that 
provides a subscription-based web and mobile application specifically 
designed to harness reliable data for every level of the grain supply 
chain. The Bushel platform has more than 2,000 grain facilities that 
are active users including producers, retailers, and processors of 
grain. The platform covers contracts between grain facilities and their 
producers with an included e-signature capability to handle business on 
their app--including scale tickets, contracts, cash bids, and more.\16\
---------------------------------------------------------------------------
    \16\ Bushel website: https://bushelpowered.com/
---------------------------------------------------------------------------
    It is widely known that the broad adoption of the internet 
unleashed a wave of economic activity previously unknown to mankind. 
The benefits of the internet, however, are only accessible to those 
with a reliable broadband connection. The hub and spoke infrastructure 
of the app ecosystem lends itself well to the EDA grant model this 
Subcommittee oversees, as even smaller grants to connect the hubs could 
have an outsized impact on job growth in the app economy in your 
districts. For any of this promising technology to reach its full 
potential, rural and underserved communities must have access to 
broadband, and the EDA can facilitate partnerships to make this happen.
        Sincerely,
                                            Morgan W. Reed,
                                President, ACT/The App Association.

                                 <F-dash>
  Fact Sheet, ``Bringing Broadband to Rural Ohio,'' Submitted for the 
  Record by Witness Hon. Lenny Eliason, Commissioner, Athens County, 
        Ohio, on behalf of the National Association of Counties
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Bringing Broadband to Rural Ohio
    Appalachian Ohio needs a robust network that reaches all households 
and can support 30+ years of growth.
    Fiber-to-the-home is the only solution that can do this.
                           what it will cost
    To run fiber to all locations known to have less than 25Mbps/3Mbps, 
it will cost:
    <bullet>  $497 Million for 57,873 households in the eight Buckeye 
Hills counties (Athens, Hocking, Meigs, Monroe, Morgan, Noble, Perry, 
Washington)
    <bullet>  $2.26 Billion for 265,831 households in all 34 
Appalachian counties
                          how to make it work
    Subsidized networks must be robust and open, funding must be 
transparent and accountable, and awards should go to the best value 
based on capacity and reliability, rather than lowest bidder.
    <bullet>  Robust: Networks must meet national standards for 
capacity, reliability, scalability, and support.
    <bullet>  Open: Designs must allow multiple providers to compete on 
an even footing. This works best when the network is built by a public-
private partnership.
    <bullet>  Transparent: Recipients must provide full transparency, 
with quarterly public reports that include detailed lists of all 
locations served or passed.
    <bullet>  Accountable: Funding agencies must verify progress via 
public-partner or third-party testing/inspection before releasing 
payments, with substantial penalties for providers who overstate 
availability or performance.
                         more detail available
    A brief with more detailed recommendations is available from 
Connecting Appalachia. To request a copy, contact Tom Reid at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a7e65674a696564646f697e63646d6b7a7a6b666b6962636b2465786d24">[email&#160;protected]</a>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                Appendix

                              ----------                              


   Questions from Hon. Dina Titus to Dennis Alvord, Acting Assistant 
       Secretary for Economic Development, Economic Development 
              Administration, U.S. Department of Commerce

    Question 1. During your testimony before the House Appropriations 
Committee's Subcommittee on Commerce, Justice, and Science on April 21, 
2021, you stated that 53% of the Economic Development Administration's 
(EDA) Coronavirus Aid, Relief, and Economic Security Act (CARES) 
funding went to existing grantees. How can Congress assist EDA in 
expanding its applicant pool in order to partner with new 
organizations?
    Answer. In implementing the CARES Act, EDA deliberately invested 
heavily in existing grantees in order to quickly and effectively 
address the pandemic by building local capacity through the development 
of resiliency development plans and the funding of regional disaster 
recovery coordinators. EDA was also able to support communities by 
providing immediate access to capital to hard hit small businesses. EDA 
recognizes that the role our partner organizations play is vitally 
important in keeping the economy thriving. We are committed to working 
with you to determine how we can expand our core constituencies in a 
manner that will enhance those organizations' ability to continue their 
essential work in their communities. As Congress considers EDA 
reauthorization, we would welcome the opportunity to engage directly on 
this important topic.

    Question 2. Within their Comprehensive Economic Development 
Strategies (CEDS), EDA requires communities and Economic Development 
Districts (EDDs) to incorporate the concept of economic resilience, 
including the ability to withstand the impacts of natural disasters and 
climate change. With EDA's updated investment priorities in mind, does 
EDA plant to require consideration of concepts like equity and 
sustainability in future CEDS?
    Answer. EDA looks forward to working with the Administration 
pursuant to President Biden's Executive Order 13985, Advancing Racial 
Equity and Support for Underserved Communities Through the Federal 
Government, to identify and continue to embed equitable principles and 
approaches across the bureau, consistent with EDA's mission to empower 
distressed communities through revitalization and diversification of 
local economies. Additionally, EDA will review its policies and actions 
to ensure they do not create barriers to participation by eligible 
institutions seeking grants from EDA, particularly those that have not 
previously applied to or been awarded grants by EDA or those that plan 
to provide assistance to underserved communities.
    EDA encourages communities and organizations that are developing or 
updating their CEDS to address the concept of resilience in a way that 
works best for their region, and to embrace a broad concept of 
resilience that may include issues of sustainability such as the 
impacts of natural disasters and climate change. Although already 
suggested as a potential way to address the resilience requirement 
within the CEDS, more information on climate resilience--including 
suggested tools and resources--will be incorporated in a forthcoming 
update to the CEDS Content Guidelines to encourage regions to consider 
climate when thinking about how to address resilience in their CEDS.
    In addition, the CEDS Content Guidelines also recommends that 
equitable development--including engaging the region's vulnerable and/
or underserved populations in the planning process--be included in the 
development and implementation of the CEDS. It is anticipated that more 
information on engaging underserved populations will also be included 
in future versions of the CEDS Content Guidelines.

    Question 3. EDA makes investments in economically distressed 
communities to promote innovation and accelerate long-term sustainable 
economic growth. Is EDA taking steps to build expertise in sustainable 
development? Is EDA working with other government agencies or 
congressionally chartered foundations to ensure EDA-funded projects are 
climate-conscious and sustainable?
    Answer. EDA has a long-standing history of supporting 
environmentally sustainable development, beginning with our partnership 
with the Environmental Protection Agency and other federal agencies on 
brownfields redevelopment, continuing with our development and 
implementation of the Global Climate Change Mitigation Incentive Fund 
during the Obama Administration, and more recently through adoption of 
our Environmentally Sustainable Development investment priority.
    EDA strongly believes that investments in environmentally 
sustainable economic development are essential to improving our 
Nation's competitiveness, and that green versions of its traditional 
grant-based investments are a key driver to advancing and growing the 
economy. By encouraging environmentally sustainable economic 
development, EDA helps to cultivate innovations that can fuel green 
growth in communities suffering from economic distress. Through 
investments in emerging regional clusters related to energy, cutting-
edge environmental technologies, green building practices, and 
sustainable communities that connect jobs to workers through smart 
location choices, EDA is well-positioned to foster job creation by 
limiting the Nation's dependence on fossil fuels, enhancing energy 
efficiency, curbing greenhouse gas emissions, protecting natural 
systems, and encouraging resilience to the climate crisis.
    EDA operationalizes the notion that improvements in environmental 
quality can drive economic growth through our Environmentally 
Sustainable Development investment priority. The Environmentally 
Sustainable Development investment priority promotes job creation and 
economic prosperity through projects that develop and implement green 
products, processes, places and buildings. While such projects enhance 
environmental quality, it should be noted that the environmental 
benefits are ancillary to the projects' economic development impacts.
    EDA, through the Environmentally Sustainable Development investment 
priority, seeks to support green economic development projects that 
will result in one or more of the following: the development or 
manufacture of a green end-product; greening of an existing function or 
process creation of, or renovation to, a green building; and support or 
enhancement of a green place or location.

    Question 4. How effective are the current Federal criteria for 
economic distress? What statutory changes, if any, could be made to 
improve economic distress criteria to ensure adequate assistance is 
awarded to the communities that needs it most?
    Answer. EDA's statutory criteria for determining economic 
distress--per capita income and 24-month unemployment rates--directly 
relate to EDA's mission to raise the standard of living for all 
citizens and communities and are, therefore, useful for identifying 
communities in need of assistance. Like all statistical measures, those 
two criteria also have limitations, and there are other measures of 
distress that Congress may wish to consider. EDA will be happy to 
provide technical assistance on this issue if it is a matter the 
Committee wishes to pursue further.

 Questions from Hon. John Garamendi to Dennis Alvord, Acting Assistant 
       Secretary for Economic Development, Economic Development 
              Administration, U.S. Department of Commerce

    Question 1. Can you please confirm that the Economic Development 
Administration's (EDA) grantmaking authorized under the Public Works 
and Economic Development Act of 1965 (42 U.S.C. 3121 et seq.) is not 
currently subject to any ``Buy America'' requirements? Note that I am 
referring to domestic preference requirements for local procurement, 
not the federal government-wide Buy America Act, which only applies to 
direct federal procurement and not grantmaking for local projects.
    Answer. There are no statutory requirements that apply Buy America 
requirements to EDA grants. Executive Orders 13858, Strengthening Buy-
American Preferences for Infrastructure Projects, and 14005, Ensuring 
the Future is Made in All of America by All of America's Workers, 
however, apply to EDA grants and require EDA to encourage grant 
recipients ``to use, to the greatest extent practicable, iron and 
aluminum as well as steel, cement, and other manufactured products 
produced in the United States in every contract, subcontract, purchase 
order, or sub-award that is chargeable'' to the grant (EO 13858). That 
policy was reaffirmed in EO 14005.

    Question 2. Can you confirm that neither the $3 billion 
appropriated by Congress under the American Rescue Plan Act (Public Law 
117-2) nor the $1.5 billion under the CARES Act (Public Law 116-136) 
for EDA grantmaking is subject to ``Buy America'' requirements?
    Answer. It is correct that no statutory Buy America requirements 
are applicable to funds appropriated to EDA under those Acts. The 
requirements of Executive Orders 13858, however, apply to these funds. 
EDA also has a long history of supporting Buy America goals through the 
implementation of its grants and actively encourages its recipients to 
maximize the use of domestic sources. For example, every EDA grant 
contains an award condition encouraging recipients ``to use, to the 
greatest extent practicable, iron and aluminum as well as steel, 
cement, and other manufactured products produced in the United States 
in every contract, subcontract, purchase order, or sub-award that is 
chargeable under this Award.''

    Question 3. Can you confirm that since the Buy American Act only 
applies to direct federal procurement, this means that President 
Biden's Executive Order #14005 has no force and effect on EDA's future 
grantmaking?
    Answer. President Biden has made clear his support for Made in 
America provisions through the issuance of Executive Order 14005 in the 
first two weeks of his Presidency. That order is not limited to the Buy 
American Act, and several of its provisions are applicable to EDA. EDA 
will continue to diligently implement current executive orders on Buy 
American requirements, as well as any future orders.

    Question 4. As this Subcommittee prepares the first major EDA 
reauthorization in more than 15 years, I believe Congress must consider 
amending the Public Works and Economic Development Act (42 U.S.C. 3121 
et seq.) to add permanent, statutory ``Buy America'' requirements for 
all EDA grantmaking. This is likely the single most significant federal 
program under the full Committee's jurisdiction still lacking statutory 
``Buy America'' requirements. Acting Assistant Secretary Alvord, will 
your agency commit to provide technical assistance on how best to add 
statutory ``Buy America'' requirements in any forthcoming EDA 
reauthorization legislation?
    Answer. EDA will be happy to provide technical assistance and 
commits to working with your staff on addressing this important issue.

   Question from Hon. Dina Titus to Lisa Cooper, Executive Director, 
Northern Kentucky Area Development District, on behalf of the National 
                Association of Development Organizations

    Question 1. In your testimony, you discussed the value of the 
Economic Development Administration's (EDA) Partnership Planning 
Program. How would expansion of EDA's Partnership Planning Program 
assist local communities as they look to reassess their Comprehensive 
Economic Development Strategies (CEDS) and reevaluate their plans for 
economic recovery?
    Answer. One of the key responsibilities that Economic Development 
Districts (EDDs) across the country are tasked with by the U.S. 
Department of Commerce Economic Development Administration (EDA) is to 
lead a regional economic development planning process that leverages 
the involvement of community stakeholders and public, private, and non-
profit sectors. EDDs are responsible for developing a strategic 
``roadmap'' for economic development and regional collaboration, known 
as a Comprehensive Economic Development Strategy (CEDS), which becomes 
the foundation for regional community and economic development 
projects. This foundation is essential in order to ensure that economic 
development projects that are subsequently undertaken are strategic. 
The CEDS process also lays the initial groundwork to ensure that local 
community stakeholders have input into projects that are ultimately 
undertaken and implemented, and to ensure the long-term sustainability 
of community development efforts and initiatives. Ultimately, the CEDS 
is designed to guide the economic prosperity and resiliency of a 
geographic region, and the CEDS provides a coordinating mechanism for 
individuals, organizations, local governments, industry partners, and 
other stakeholders to engage in a meaningful conversation and debate 
about the economic direction of their community.
    There are 392 EDA-designated EDDs across the country. In FY 2021, 
Congress appropriated $33.5 million for ``Partnership Planning,'' of 
which $30.7 million was provided by EDA to EDDs to support the planning 
process. Split among 392 EDDs across the country, each EDD receives 
roughly $70,000 annually to carry out the planning and CEDS process. 
This relatively small annual amount of $70,000 is barely enough to 
cover one qualified full-time staff person along with the necessary 
resources to support their role and work. Furthermore, the dollar 
amount that each EDD receives from EDA has not increased in well over a 
decade. And in order to receive this annual amount, EDDs must provide 
matching funds. Congressional action is needed to increase resources 
for the Partnership Planning program, to allow for sufficient 
administrative capacity and staffing to support the CEDS planning 
process and for EDDs themselves. The amount of resources provided for 
planning should be reflective of the foundational nature of the 
planning process and its importance, and should also be reflective the 
importance of EDA's core partners, the EDDs themselves and their 
sufficient staffing and administrative capacity.
    In addition to the regular development and updating of their CEDS, 
EDDs also provide technical assistance services, planning support, and 
other general support to the municipalities and counties within their 
regions. Many rural, underserved, and/or economically distressed areas 
in particular benefit from these services that they would otherwise not 
be able to afford outright. EDDs assist with the development of 
comprehensive plans, feasibility studies, federal grant applications, 
and many other community support services. These planning and 
administrative functions are important because they help ensure the 
efficient use and effective deployment of federal resources. An 
expansion of the EDA Partnership Planning program in support of these 
undertakings would bolster the capacity of EDDs and enhance the 
effectiveness of their work.
    The impact of the pandemic should also factor into the reevaluation 
of EDA Partnership Planning program. Over the past year, in response to 
the pandemic, many already underserved and economically distressed 
communities have been faced with unprecedented challenges and have had 
to pivot in many ways, including by reinventing aspects of how 
residents live, work, study, travel, convene, and receive healthcare 
and other support services. As a result, communities have had to change 
or reevaluate aspects of their strategic plans and the ways that they 
operate. Even as the pandemic comes to an end, communities will have to 
continue to evolve and respond to new circumstances brought about by 
the changes and upheaval of the past year, and will be called upon to 
sustain a long-term response to the economic injury that has resulted 
from the pandemic. As a result, the Partnership Planning program is 
more important than ever, not only to support the traditional elements 
of the planning process, but also to support reevaluation and 
reinvention of existing protocols.
    Ultimately, an overall expansion of EDA's Partnership Planning 
program and resources would support more strategic planning processes, 
from which more strategic economic development initiatives can 
eventually evolve and grow. An expansion of the Partnership Planning 
program's resources would allow for enhanced administrative and 
staffing support within the EDDs, as well as a more wide-reaching 
public input process that encompasses a larger and more diverse subset 
of community stakeholders, thereby supporting greater equity and 
enhanced inclusivity throughout the planning process. Increasing 
resources for Partnership Planning would also support the use of more 
advanced technological tools and allow for communities to undertake 
more data-driven planning processes (i.e. would allow for more robust 
analysis of data, and could also allow for investments in important 
technology such as Geographic Information System (GIS) mapping and 
planning software), laying the groundwork for more valuable and 
informative assessments of long-term regional trends, economic drivers, 
migration patterns, employment and industry data, and other factors and 
changes that are impacting the region. Ultimately, a more robust, 
ambitious, and strategic planning process creates the foundation for 
more robust, ambitious, and strategic initiatives, projects, and 
community investments, and increases the chances of community 
development efforts having long-term success.

 Question from Hon. Dina Titus to Jonas Peterson, President and Chief 
Executive Officer, Las Vegas Global Economic Alliance, on behalf of the 
               International Economic Development Council

    Question 1. In your testimony, you described the possibility of a 
pilot program within the Economic Development Administration (EDA) to 
improve regional capacity building. Can you elaborate on how you 
envision the structure and operation of this program, as well as the 
benefits such a program could provide to local communities?
    Answer. To help communities advance economic development strategic 
plans and CEDS, seize economic development opportunities, promote 
economic resiliency, and create inclusive local economies, we support 
the establishment of a capacity building program in the reauthorization 
of the Economic Development Administration. The Local Economic Capacity 
Building program should include the following components:
    1.  Technical assistance for expanding local capacity to 
understand, access, and successfully utilize EDA resources and other 
federal economic development resources.
      a.  Develop and execute a training program to help local economic 
development professionals and community stakeholders better understand 
EDA's resources, as well as all other federal economic development 
programs and resources.
      b.  Create EDA staff positions in Washington and the 6 regional 
offices to act as technical assistants for communities seeking federal 
economic development resources. EDA should act as a clearinghouse for 
local economic development professionals and community stakeholders on 
all federal economic development programs in order to promote greater 
outcomes for the community while also promoting leveraging resources 
and collaboration among the federal agencies involved in economic 
development. A one-stop source of information would greatly increase 
local understanding and utilization of federal resources and yield 
better economic futures for residents.
      c.  Offer grant funding for on-going research on best practices 
in utilizing federal economic development programs and resources which 
can be used to improve program performance and continued training for 
local economic development professional and community stakeholders.
      d.  These resources should be available to all communities, 
though special attention should be paid toward reaching severely 
distressed communities and first-time partner communities.
    2.  Grant funding for expanding local professional capacity to 
execute economic development strategic plans, CEDS, or otherwise expand 
a community's ability to develop a robust, resilient and sustainable 
local economy.
      a.  Establish a grant to fund economic development staff 
positions at eligible organizations--defined as those currently 
eligible to receive grant funding from EDA, including economic 
development organizations, non-profits, state and local governments, 
tribes, and economic development districts. Funding this effort will 
provide communities lacking human capital to execute economic 
development strategic plans and CEDS, respond to economic disruptions 
or seize opportunities as they arise with resources to hire economic 
development professionals. Success in this effort should be measured in 
both economic outcomes and if the community receiving funding is able 
to sustain the position through local funds after the grant period has 
ended.
      b.  This funding should be available to communities meeting 
distress criteria defined by EDA or be located in a federally declared 
disaster area.
      c.  Offer no-match funding for 3 years to fund an economic 
development staff position; allow extension to 5 years with 25 percent 
local match in year 4 and 50 percent local match in year 5. If the 
position becomes permanent and funded locally after year 5 and remains 
so for 24 months, EDA will return the local match funds from years 4 
and 5.
      d.  Require work plans and goals for the created position; work 
plans and goals should include specifics on how the funded position 
will integrate and collaborate with existing economic development 
efforts within the community.
    3.  Dedicated funding for pre-development finance to support 
critical funding gaps between project concept and project execution.
      a.  Establish a grant to fund pre-development activities that 
will move projects from concept to execution.
      b.  Dedicated funding for pre-development finance is necessary in 
a competitive environment where funding for projects further along in 
the process or past the pre-development stage altogether often 
overshadow those in the pre-development phase.
      c.  This funding should be available to communities meeting 
distress criteria defined by EDA or be located in a federally declared 
disaster area.
      d.  Grants should be no-match funds in order to reach communities 
most in need and in reflection of the entrepreneurial nature of pre-
development activities, for which it may be harder to secure funding.
      e.  Each of EDA's 6 regional offices should receive an 
appropriate allocation of an annual sum of not less than $75 million to 
fund pre-development activities.
    4.  Robust, simplified and transparent reporting for all Local 
Economic Capacity Building funded grants.
      a.  Require annual reporting from grant recipients that 
highlights project goals and outcomes. Report requirements should be 
designed to capture information that supports successful project 
execution, overall grant program successes and challenges and broader 
economic development data, while also providing for transparency and 
accountability.
      b.  Detailed reporting requirements should be shared with grant 
recipients upon award notification at the latest; ideally, they would 
be included in the notice of funding opportunity.
      c.  Reports should be collected in as simplified a manner as 
possible, utilizing the latest available technology for online 
reporting.
      d.  EDA should make report data available to the public in 
aggregate and individually by grant as soon as appropriate, but not 
later than 90 days after collection, through EDA.gov.

    In addition, IEDC fully supports the proposal from the Milken 
Institute to establish a pre-development fund dedicated to advancing 
vital infrastructure projects that would otherwise languish in search 
of pre-development financing. Our nation is in critical need of 
infrastructure investments that will get projects moving forward and 
put people back to work. The Milken Institute's proposal would provide 
resources and direction for EDA to play a unique, leading role in this 
effort by leveraging EDA's existing work in infrastructure and their 
existing bottom-up network of local economic developers and 
infrastructure projects.
    IEDC thanks the committee for their continued leadership, interest 
and support for economic development. We welcome the opportunity to 
continue our discussions as we work together to reauthorize the 
Economic Development Administration.

Questions from Hon. Dina Titus to Dan Carol, Director, Milken Institute 
                      Center for Financial Markets

    Question 1. You spoke at length regarding infrastructure 
predevelopment costs in your testimony. How much should Congress invest 
in predevelopment in the next few years? What are the net benefits of 
such an investment?
    Answer. As Congress wisely considers bold investments to make our 
nation's infrastructure globally competitive and equitable to all, 
Congress should consider setting aside a small portion of new spending 
to incentivize long-term resilience and better infrastructure system 
performance.
    A substantial body of research outlined in my full written 
testimony [https://transportation.house.gov/imo/media/doc/
Carol%20Testimony.pdf] finds that the key investment Congress can make 
to move U.S. infrastructure systems from 19th-century creakiness to 
21st-century performance is predevelopment funding.
    Shifting America's infrastructure systems and project pipeline 
towards resilience and performance will not be easy. We will need a 
series of strategic investments, beginning with predevelopment funding, 
to deliver better outcomes and reduce our multi-trillion dollar 
deferred maintenance gap over the next three to ten years. Our 
macroeconomic estimates of infrastructure funding gaps to 2050, 
provided to the Subcommittee, found an annual need of over $200 billion 
per year.
    To reverse these trends, we therefore recommend an initial 
investment in predevelopment performance incentives for $15 billion 
over three years. The proposed predevelopment fund would address local 
capacity and barriers that impede catalyzing a pipeline of shovel-
worthy projects and help communities reform broken public procurement 
systems that fail to create the incentives for long-term resilience and 
timely maintenance.
    Our $15 billion recommendation is based on an analysis we conducted 
looking at high levels of community demand for infrastructure projects, 
such as rural hospitals with micro-grids, community broadband 
partnerships and projects of unique or regional significance that do 
not easily fit current funding programs. For example, a predevelopment 
program to help 25% of the nation's 130,000 schools, rural hospitals 
and public emergency centers to be able to deploy micro-grids and offer 
broadband services during emergencies would alone cost $15 billion.
    The payback however, will far outweigh the pay-for. Based on past 
studies cited in my testimony looking at the value of predevelopment 
commissioned by the U.S. Economic Development Administration and the 
U.S. Environmental Protection Agency, we would expect $17-20 in 
economic activity to flow from each $1 spent on predevelopment. That 
would mean up to $300 billion in total benefits could be generated by 
the $15 billion federal predevelopment fund we have proposed.
    These analyses do not measure additional benefits that flow from 
predevelopment investments over their life-cycle, including added 
resilience and equity benefits or reduced climate and taxpayer risks. A 
report from a U.S. Treasury Working Group [https://www.treasury.gov/
resource-center/economic-policy/Documents/Build%20
America%20Recommendation%20Report%201-15-15%20FOR%20PUB-LICATION.pdf] 
found that although predevelopment costs only account for a small 
percentage of total costs, predevelopment activities have considerable 
influence on which projects will move forward, where and how they will 
be built, who will fund them, and who will benefit from them. Other 
analyses find that predevelopment investments can attract sidelined 
private capital into community infrastructure at greater scale because 
the political risks would be removed through predevelopment work.
    Nor does this consider how essential this capacity is to 
underserved and smaller communities which find it hard to access either 
federal grant programs or attract potential impact capital investors 
without predevelopment funding to turn a good idea into an investment-
ready project.
    The predevelopment fund would support local technical assistance 
grants and loans to rapidly develop community-led projects while acting 
as a catalyst for investment-ready resilience partnerships. As noted in 
my testimony, existing predevelopment programs offering this form of 
technical assistance are either oversubscribed for large resilient 
infrastructure projects or hard-to-access for smaller communities who 
need this support to advance projects from concept to completion.
    A recent practical example of interest to this Subcommittee's 
jurisdiction which highlights the need for expanded predevelopment and 
technical assistance funding involves the excellent new integration 
efforts under the FEMA's Building Resilient Infrastructure and 
Communities (BRIC) program. Many states are reporting that the $600,000 
limit for capacity support to local governments is limiting the number 
of communities with the expertise and skill set to write and access 
project grants.
    That is why a diverse set of groups, including the International 
Economic Development Council (IEDC), U.S. Chamber of Commerce, National 
Association of Manufacturers, Rural Community Assistance Partnership, 
Council of Development Financing Agencies, Farm Conservation Alliance, 
National Association of Counties, National League of Cities, Natural 
Resources Defense Council, and the Coalition for Green Capital are 
calling for expanded predevelopment investment and the creation of 
regional resilience centers to accelerate best practices. The full 
sign-on letter is here [https://milkeninstitute.org/sites/default/
files/2021-01/LettetoCongresThValuo
PredevelopmenInvestmentForStrengtheningandSustainingU.S.Infrastructure.p
df].
    This investment would be fully compatible with IEDC's call for a 
Local Economic Capacity Building program to offer grants for technical 
assistance, training, and capacity to scale up best practices in 
utilizing federal economic development programs and resources which can 
be used to improve program performance.

    Question 2. Your testimony called for the creation of six regional 
resilience centers at EDA to accelerate infrastructure project 
development and deployment. Can you explain how this would work? Where 
would these centers be housed and who would staff them? Would this be 
duplicative of proposals for a national infrastructure bank and clean 
energy accelerator?
    Answer. In addition to a three year investment in predevelopment 
capacity to catalyze a resilient infrastructure pipeline in areas like 
broadband, community resilience, and energy and water system security, 
Congress could further leverage its investment in local capacity by 
linking a new predevelopment fund to a nationwide network of regional 
acceleration centers, housed within the six regions of the U.S. 
Economic Development Administration.
    These regional resilience centers could accelerate capacity-
building on the ground, transfer best practices and successful models 
among states and regions, and promote federal whole-of-government 
coordination closer to where projects are developed (see infographic 
[https://milkeninstitute.org/sites/default/files/2021-05/
InvestmentinInfrastructurePredevelopment.pdf]). This investment would 
also be complementary with various ideas being considered in parallel 
by Congress to create either an Infrastructure Financing Facility, a 
national infrastructure bank or a clean energy accelerator. Each of 
these financing proposals will require a steady pipeline of shovel-
worthy and investment-grade projects, which will depend on lifting up 
regional best practices and investing in local predevelopment.
    As outlined in my full written testimony, EDA's experience in 
investing in a wide range of public works and economic development 
projects in infrastructure ``modes'' including water, energy, dams and 
levees, broadband and rural transportation make the agency well-suited 
for the task of piloting this bottom up shift in best practices at the 
local, state and federal levels. Each EDA regional center's goal would 
be to promote cross-agency collaboration, multistate partnerships, and 
direct training for best practices to scale and accelerate the use of 
predevelopment investments by states, counties, and other units of 
local government. Whether it's a region where there is too much water, 
not enough water, or another location-specific resilience challenge, 
going regional would bring resources and performance accountability 
closer to the ground.
    A regional delivery strategy for federal engagement would allow 
communities to act quickly to deliver on the most pressing projects in 
their region without being slowed down by federal programmatic 
requirements, funding silos that don't fit post-COVID community 
priorities, or local matching requirements that make it harder for 
smaller and underserved communities to access the technical assistance 
they need to innovate.
    We envision that these regional centers would be (1) flexible in 
how they were set up within each EDA regional office; (2) accountable 
for spending performance evaluation and learning; (3) highly focused in 
what each center would choose to fund based on data and demand; but (4) 
share a common set of resilience definitions and investment standards.
                     Regional Centers: Flexibility
    Each of the six proposed regional resilience centers would house 
project finance and technical assistance teams tasked with helping 
communities successfully advance replicable and resilient projects 
based on distinct regional resilience challenges and available 
predevelopment funding.
    We would recommend that each EDA Regional Director, in consultation 
with the EDA Assistant Secretary, decide how best to stand up this 
functionality, either within the Regional Office, or housed within 
another institution or entity or implementation partnership within the 
region. Because of the need for specialized skill sets that may not 
exist within EDA's existing regional staff or funded entities within 
each regions (EDDs and UCs), EDA's Regional Directors should also be 
given the flexibility to create new project acceleration entities that 
could offer unique service delivery capacities that do not currently 
exist in the region.
              Regional Centers: Performance and Evaluation
    To leverage program learning and long-term fiscal impact from new 
investments in predevelopment and regional resilience acceleration 
centers, Congress should link funding to an iterative learning agenda 
to support continuous improvement of the functioning and performance of 
programmatic investments. For example, following a three-year operating 
period, EDA should be required to submit to Congress a report that 
contains recommendations for performance incentives to encourage better 
lifecycle asset management for all infrastructure projects funded by 
the Federal Government.
    This report should also assess how to best link federal 
predevelopment assistance and federal permitting improvements by state 
and local infrastructure project sponsors; whether a national public 
finance training center or a national infrastructure bank is needed to 
narrow the infrastructure funding and finance gap of the United States; 
and the need for resilient infrastructure circuit-riders to further 
reach under-served communities with critical project development 
expertise.
                   Regional Centers: Investment Focus
    EDA programs can be used for a wide range of infrastructure 
projects, which means that scores of communities will bring hundreds of 
good and not-so-good project ideas forward for grant funding. For the 
proposed EDA regional resilience centers, we would recommend that each 
center offer technical assistance for a focused menu of ready-to-go and 
replicable projects that are in high demand during the three year trial 
period. Each of the six EDA regional centers could offer a different 
menu of replicable resilience projects matched to differing regional 
needs and known data-driven demand.
    As noted in my testimony, we know what some of those high-demand 
use cases are across the United States, such as community broadband and 
community emergency centers where thousands of schools, hospitals, and 
community colleges want to copy what the Blue Rancheria Tribe built in 
Northern California: a community emergency center with micro-grids and 
wi-fi, so there was a place to go after the 2018 wildfires.
                   Regional Centers: Common Standards
    We would advise that there be a clear definition of resilient 
infrastructure systems and eligible project categories. In our view, 
``resilience'' refers to the ability of infrastructure systems and 
projects, including their interconnected governmental, economic, 
financing and procurement systems, to provide sustainable, reliable, 
high-performance and well-maintained infrastructure services over the 
lifetime of an infrastructure asset. Resilient infrastructure systems 
and projects are distinguished by lifetime operations, maintenance, 
preparedness and early warning systems that manage the known and 
foreseeable risks of operations that can threaten system operation and 
service levels, due to accidents, natural disasters, extreme weather, 
shocks and threats to regional economies, including cyber-attacks and 
technology disruption.
    In terms of project categories, we would suggest that each center 
ensure that funds are used to increase state and local capacity to 
achieve resilience objectives and accelerate project development and 
deployment in these areas:
    <bullet>  grid reliability, energy efficiency, and energy storage;
    <bullet>  new post-disaster response and public safety needs;
    <bullet>  water, transportation, and communications, including 
distance health and learning networks;
    <bullet>  critical post-COVID-19 community infrastructure needs and 
mission-critical public facilities.

    Finally, as noted above, the creation of a predevelopment fund and 
companion regional resilience centers would be complementary to any of 
the infrastructure financing facilities now under consideration in 
Congress, from a national infrastructure bank to a clean energy 
facility or anything in between.
    These regional resilience centers could also help supplement 
existing federal financing centers at DOT's Build America Bureau and 
the EPA's Office of Water Financing, which are operating successfully 
but are not being easily accessed by small-scale project sponsors under 
$100 million in size. EDA regional resilience centers, however, could 
focus on community-scale projects in the $5-75 million range where 
access to technical assistance and capacity is acute.
    The proposed structure will be especially suitable for at least two 
critical new areas of wide-scale community demand, e.g., innovative 
broadband partnerships and emergency centers in schools, rural 
hospitals and disaster-prone neighborhoods to offer critical services 
during disasters and grid outages. Thousands of communities need this 
kind of technical assistance to develop these projects, and other 
unique regional projects.
    In the long run, the project pipeline demand created by regional 
resilience centers and a predevelopment fund will likely fuel the 
creation of regional project portfolios of smaller-scale infrastructure 
projects that a national infrastructure financing facility could invest 
in directly, or act as a take-out investment vehicle to promote project 
bundling and impact investment.
    The Milken Institute thanks the committee for their continued 
leadership, interest and support for economic development and public 
works. We welcome the opportunity to continue work together to 
reauthorize the Economic Development Administration and accelerate 
economic resilience and equity.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
